<html>
<title> - THE NATIONAL MATHEMATICS ADVISORY PANEL REPORT: FOUNDATIONS FOR SUCCESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
THE NATIONAL MATHEMATICS ADVISORY PANEL REPORT: FOUNDATIONS FOR SUCCESS

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 21, 2008

                               __________

                           Serial No. 110-93

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

42-335 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 21, 2008.....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    81
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     5
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, prepared statement of........    82
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Statement of IBM Corp....................................    79

Statement of Witnesses:
    Castellani, John, president, Business Roundtable.............    42
        Prepared statement of....................................    44
    Fennell, Francis (Skip), McDaniel College, past president, 
      National Council of Teachers of Mathematics................     7
        Prepared statement of....................................    10
    Haver, Dr. William, professor of mathematics, Virginia 
      Commonwealth University....................................    24
        Prepared statement of....................................    26
    Slover, Laura, vice president, Achieve, Inc..................    13
        Prepared statement of....................................    16
        Slide presentation.......................................    19
    Staggers, Dr. Wanda Talley, dean of manufacturing and 
      engineering, Anderson School District Five.................    29
        Prepared statement of....................................    31
    Wolf, Mary Ann, Ph.D., executive director, State Educational 
      Technology Directors Association (SETDA)...................    33
        Prepared statement of....................................    35


THE NATIONAL MATHEMATICS ADVISORY PANEL REPORT: FOUNDATIONS FOR SUCCESS

                              ----------                              


                        Wednesday, May 21, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:01 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Scott, 
Woolsey, Hinojosa, Tierney, Kucinich, Wu, Holt, Davis of 
California, Bishop of New York, Loebsack, Hare, Shea-Porter, 
McKeon, Petri, Keller, and Foxx.
    Staff present: Tylease Alli, Hearing Clerk; Alice Johnson 
Cain, Senior Education Policy Advisor (K-12); Lynne Campbell, 
Legislative Fellow for Education; Adrienne Dunbar, Education 
Policy Advisor; Lloyd Horwich, Policy Advisor for Subcommittee 
on Early Childhood, Elementary and Secondary Education; Jill 
Morningstar, Education Policy Advisor; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Rachel Racusen, Deputy 
Communications Director; Margaret Young, Staff Assistant, 
Education; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Robert Borden, 
Minority General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Alexa Marrero, Minority Communications 
Director; Chad Miller, Minority Professional Staff; and Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Miller [presiding]. The Committee on Education and 
Labor will come to order for the purposes of conducting a 
hearing on the National Mathematics Advisory Panel Report: 
Foundations for Success.
    Twenty-five years ago, the release of A Nation At Risk 
first opened our eyes to an education system that was 
threatening our country's global leadership. Decades later, we 
continue to face serious challenges to our nation's economic 
competitiveness and future. The Programme for International 
Student Assessment found that the U.S. lags far behind other 
developed nations in math and science education.
    The National Assessment of Educational Progress scores are 
also sobering. They show that while the achievement gap is 
narrowing and elementary students are making some gains in math 
in lower grades, only about one-third of our eighth-grade 
students are at or above proficiency in math. Less than one-
quarter of our high school seniors are at or above proficiency 
in math.
    And just 2 months ago, the National Mathematics Advisory 
Panel released a report on the state of math education and 
instruction in our country. The panel concluded that our 
national system for teaching math is ``broken and must be 
fixed'' if we are to maintain our competitive edge.
    We know that workplaces increasingly require that workers 
be able to work in teams across communities and continents. The 
jobs of the future will demand innovators with strong critical 
thinking and analytical skills. Our students simply won't be 
able to develop these skills without a solid foundation in 
math.
    Today, we are here to discuss the findings of the National 
Math Panel's report and how we can improve U.S. math education 
in a meaningful way. We will closely examine two major 
shortcomings identified by this panel in how our children are 
learning and being taught math.
    First, we have to raise our standards and expectations for 
math education. The current structure of the U.S. math 
curriculum is not conducive to helping students build math 
skills over time. The curriculum in our nation's schools 
generally attempts to cover many topics at each grade level, 
meaning that each topic receives limited instructional time and 
inadequate concept development. Topics are introduced and then 
built upon in later years.
    By comparison, top-performing nations tend to present fewer 
topics at each grade level, thus allowing teachers to explore 
topics in greater depth. This approach encourages students to 
develop full proficiency in one topic before moving on to more 
complex topics and allows students to better comprehend the 
subject at hand.
    Second, we are not giving our teachers the training and 
support needed to provide effective math instruction to 
students. Teachers cannot be expected to teach what they do not 
know themselves. We have to provide teachers with opportunities 
to learn math while they are still in school and to participate 
in professional development programs throughout their careers.
    The panel recommends improving pre-service teacher 
training, in-service professional development, training and 
ongoing support for teachers--something I have long believed is 
fundamental to strengthening the quality of education that 
students receive.
    The best thing we can do to help our kids succeed in math 
is to invest more in the success of their teachers. I am glad 
to say that this Congress has taken some important first steps 
in this direction. Last year, we enacted the America COMPETES 
Act, which improves teacher education in math, science and 
other high-need fields.
    We also provided up-front tuition assistance of $4,000 per 
year for outstanding undergraduate students who commit to 
teaching math or another high-need subject in a high-need 
school. But as this report reminds us, it will take 
comprehensive, systemic reforms to improve math education in 
this country.
    This administration deserves credit for convening this 
panel. However, at a time when we need strong leadership in 
bolstering the fields of math and science, I am extremely 
disappointed by reports that this administration may withdraw 
the U.S. from participation in the Trends in International 
Mathematics and Science Study, an international exam given to 
high school students who take advanced placement math and 
physics courses.
    We will not be able to make the well-informed policy 
decisions needed to keep our nation on the cutting edge of 
innovation and discovery if we can't measure the performance of 
our students against the performance of students in other 
countries. I hope that the administration will reconsider this 
misguided decision.
    Nothing is more important for the future of our country 
than building a world-class education system that will give 
every child the opportunity to succeed. I hope that the 
National Math Panel's report serves not just as a wake-up call, 
but also as a catalyst for the significant changes needed to 
help reach that goal.
    I want to thank our panel of expert witnesses--I will be 
introducing them in a moment--for joining us today. We 
appreciate your time, your effort, and your work with the 
committee, and we look forward to hearing your testimony.
    I would like now to recognize the senior Republican on the 
committee, Congressman McKeon from California, for his opening 
statement. The chair also recognizes the presence of a quorum.
    Mr. McKeon?

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning.
    Welcome to today's hearing on ``The National Mathematics Advisory 
Panel Report: Foundations for Success.''
    Twenty-five years ago, the release of A Nation at Risk first opened 
our eyes to an education system that was threatening our country's 
global leadership. Decades later, we continue to face serious 
challenges to our nation's economic competitiveness and future.
    The Programme for International Student Assessments found that the 
U.S. lags far behind other developed nations in math and science 
education.
    National Assessment of Education Progress scores are also sobering. 
They show that while the achievement gap is narrowing and elementary 
students are making some gains in math in lower grade levels, only 
about a third of our eighth-grade students are at or above proficiency 
in math. Less than a quarter of our high school seniors are at or above 
proficiency in math.
    And just two months ago, the National Mathematics Advisory Panel 
released a report on the state of math education and instruction in our 
country. The panel concluded that our national system for teaching math 
is ``broken and must be fixed'' if we are to maintain our competitive 
edge.
    We know that workplaces increasingly require that workers be able 
to work in teams across communities and continents. The jobs of the 
future will demand innovators with strong critical thinking and 
analytical skills.
    Our students simply won't be able to develop these skills without a 
solid foundation in math.
    Today we are here to discuss the findings of the National Math 
Panel's report and how we can improve U.S. math education in a 
meaningful way. We will closely examine two major shortcomings 
identified by this panel in how our children are learning and being 
taught math.
    First, we have to raise our standards and expectations for math 
education. The current structure of the U.S. math curriculum is not 
conducive to helping students build math skills over time.
    The curriculum in our nation's schools generally attempts to cover 
many topics at each grade level, meaning that each topic receives 
limited instructional time and inadequate concept development. Topics 
are introduced and then built upon in later years.
    By comparison, top-performing nations tend to present fewer topics 
at each grade level, thus allowing teachers to explore topics in 
greater depth. This approach encourages students to develop full 
proficiency in one topic before moving on to more complex topics and 
allows students to better comprehend the subject at hand.
    Second, we are not giving our teachers the training and support 
needed to provide effective math instruction to students. Teachers 
cannot be expected to teach what they do not know themselves.
    We have to provide teachers with opportunities to learn math while 
they are still in school and to participate in professional development 
programs throughout their careers.
    The panel recommends improving pre-service teacher training, in-
service professional development, training and ongoing support for 
teachers--something I have long believed is fundamental to 
strengthening the quality of education that students receive.
    The best thing we can do to help our kids succeed in math is to 
invest more in the success of their teachers. I am glad to say that 
this Congress has taken some important first steps in this direction. 
Last year we enacted the America COMPETES Act, which improves teacher 
education in math, science, and other high-need fields.
    We also provided up-front tuition assistance of $4,000 per year for 
outstanding undergraduate students who commit to teaching in math or 
another high-need subject in a high-need school.
    But as this report reminds us, it will take comprehensive, systemic 
reforms to truly improve math education in this country.
    This administration deserves credit for convening this panel. 
However, at a time when we need strong leadership in bolstering the 
fields of math and science, it is extremely disappointing that this 
administration recently decided to withdraw the U.S. from participation 
in the Trends in International Mathematics and Science Study, an 
international exam given to high school students who take advanced 
placement math and physics courses.
    We will not be able to make the well-informed policy decisions 
needed to keep our nation on the cutting edge of innovation and 
discovery if we can't measure the performance of our students against 
the performance of students in other countries. I hope that the 
administration will reconsider this misguided decision.
    Nothing is more important for the future of our country than 
building a world-class education system that will give every child the 
opportunity to succeed.
    I hope that the National Math Panel's report serves not just as a 
wake-up call, but as a catalyst for the significant changes needed to 
help reach that goal.
    I want to thank our panel of expert witnesses for joining us today. 
I look forward to hearing more about their experiences and 
recommendations for how we can strengthen math education.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller, and good morning.
    I am pleased to be here to discuss the report and findings 
of the National Mathematics Advisory Panel. Created in April, 
2006, the National Math Panel was charged with providing 
recommendations on the best use of scientifically based 
research to advance the teaching and learning of mathematics. 
We know how important it is for our young people to be 
proficient, indeed to excel, in core subjects, including 
mathematics.
    Like reading, mathematics is a foundational subject. It is 
one upon which nearly all other learning can be built. In this 
time of rapidly changing technology, our children must be able 
to perform well in the subjects that will allow them to 
succeed. Unfortunately in far too many cases, our children are 
being out-performed by their peers around the world. We know 
that educational excellence today means international 
competitiveness tomorrow.
    That is why it is so important that we take steps to 
improve educational opportunities for all students. I believe 
today's hearing is an important opportunity to explore the 
research and findings of the National Math Panel. One of their 
goals was to provide guidance on how to improve mathematics 
achievement for all students in the United States.
    I would like to hear more about the recommendations they 
developed and about our ability to implement them in our 
nation's schools. I would also like to hear directly from the 
stakeholders whose job it is to put effective mathematics 
instruction into practice.
    From business leaders to classroom teachers, there are 
millions of individuals who are embracing the cause of 
educational excellence. I look forward to hearing these 
perspectives on the importance of a quality math education and 
the steps that are being taken to ensure it is reflected in 
classrooms around the nation.
    Of course, we all know that one of the most basic goals of 
the No Child Left Behind Act was to ensure that all children 
can read and do math at grade level by 2014. More than 6 years 
after NCLB became law, I think we can see both success and 
opportunity. It is true that achievement gaps are narrowing and 
test scores are on the rise. At the same time, we are still far 
from our goal of universal proficiency.
    I think today's hearing will be enlightening as we look to 
the future of NCLB. We have with us a distinguished panel of 
experts who can discuss the relevance of NCLB's goals when 
considered through the lens of the National Math Panel's 
report.
    I want to thank our witnesses for being here today, and 
again I want to thank Chairman Miller for convening this 
important hearing.
    I yield back.

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller and good morning. I'm pleased to be here 
to discuss the report and findings of the National Mathematics Advisory 
Panel.
    Created in April 2006, the National Math Panel was charged with 
providing recommendations on the best use of scientifically based 
research to advance the teaching and learning of mathematics.
    We know how important it is for our young people to be proficient--
indeed, to excel--in core subjects including mathematics. Like reading, 
mathematics is a foundational subject. It is one upon which nearly all 
other learning can be built.
    In this time of rapidly changing technology, our children must be 
able to perform well in the subjects that will allow them to succeed.
    Unfortunately, in far too many cases our children are being 
outperformed by their peers around the world. We know that educational 
excellence today means international competitiveness tomorrow, and 
that's why it is so important that we take steps to improve educational 
opportunities for all students.
    I believe today's hearing is an important opportunity to explore 
the research and findings of the National Math Panel. One of their 
goals was to provide guidance on how to improve mathematics achievement 
for all students in the United States. I'd like to hear more about the 
recommendations they developed, and about our ability to implement them 
in our nation's schools.
    I'd also like to hear directly from the stakeholders whose job it 
is to put effective mathematics instruction into practice. From 
business leaders to classroom teachers, there are millions of 
individuals who are embracing the cause of educational excellence. I 
look forward to hearing these perspectives on the importance of a 
quality math education and the steps that are being taken to ensure it 
is reflected in classrooms around the nation.
    Of course, we all know that one of the most basic goals of the No 
Child Left Behind Act was to ensure that all children can read and do 
math at grade level by 2014. More than six years after NCLB became law, 
I think we can see both success and opportunity. It's true that 
achievement gaps are narrowing and test scores are on the rise. At the 
same time, we are still far from our goal of universal proficiency.
    I think today's hearing will be enlightening as we look to the 
future of NCLB. We have with us a distinguished panel of experts who 
can discuss the relevance of NCLB's goals when considered through the 
lens of the National Math Panel's report. I want to thank our witnesses 
for being here today, and again I want to thank Chairman Miller for 
convening this important hearing. I yield back.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Other members of the committee are invited to submit 
written statements should they desire to. The rules allow for 
that.
    I would like now to introduce our distinguished panel, and 
again thank them so very much. I would also like to recognize 
Professor Bill Schmidt from Michigan for his help in assembling 
this panel. He gave the committee a lot of good advice about 
all your talents. So thank you for being here.
    Dr. Skip Fennell is a Math Panel member, and the past 
president of the National Council of Teachers of Mathematics. 
He is a mathematics education professor at McDaniel College. He 
is the past president of the National Council of Teachers of 
Mathematics. In 1990, he was honored as Maryland's outstanding 
mathematics educator, and the Council for the Advancement and 
Support of Education and the Carnegie Foundation named Mr. 
Fennell professor of the year in Maryland in 1997.
    Laura Slover has been with Achieve since 1998, shortly 
after its creation by the governors and business leaders. As 
vice president of content and policy research, Ms. Slover leads 
Achieve's work with the states in building mathematics 
capacity, oversees Achieve's benchmarking initiatives, and 
directs the organization's research agenda. She has extensive 
experience in reviewing academic standards in the U.S. and 
abroad and has written a number of reports and articles on this 
topic.
    Dr. William Haver is going to be introduced by Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I am pleased to introduce Dr. William Haver, the professor 
of mathematics at Virginia Commonwealth University in Richmond, 
Virginia. He has served as professor of mathematics at VCU 
since 1992. He previously served as chair of the department for 
13 years. He has been nationally recognized for his efforts to 
improve educational instruction and student learning in 
mathematics, and has received numerous rewards from state and 
local organizations.
    He is the author of dozens of research papers and articles 
about education policy, particularly in mathematics. He 
currently serves as principal investigator for two research 
studies: Preparing Virginia's Mathematic Specialists and 
Mathematic Specialists in K-5 Schools: Research and Policy 
Pilot Study.
    He received his B.S. with honors from Bates College, his 
M.S. from Rutgers University, and Ph.D. in mathematics from the 
State University of New York at Binghamton. He has previously 
taught and conducted research in mathematics at Bates College, 
Rutgers University, the University of Tennessee, and the 
Institute of Advanced Studies in Princeton, New Jersey.
    We appreciate Dr. Haver for being with us today.
    Chairman Miller. Thank you.
    Dr. Wanda Staggers is an instructor at the Academy of 
Engineering and Biomedical Sciences and dean of manufacturing 
and engineering for Anderson School District Five in South 
Carolina. Dr. Staggers conducts teacher training at various 
colleges and universities across the nation and is a master 
teacher with Project Lead The Way in two subject areas: 
principles of engineering and computer integrated 
manufacturing.
    She assists with engineering camps for middle school girls 
through It's A Girls Thing, a program in which she and a team 
of female college engineering students visit middle schools 
once a month to help girls become better informed about their 
career options.
    Dr. Mary Ann Wolf is executive director of the State 
Education Technology Directors Association, which provides 
national leadership in education technology, ensures members 
have meaningful professional development opportunities, and 
engages in partnerships with the public and private sector to 
collaborate on how educational technology supports teaching and 
learning.
    Dr. Wolf has led the national leadership summits in which 
her members and partners develop tools for the education 
community. She directs the technology assistance partnership 
program with nine federal evaluation grantees, and overseas, 
the national trends report focused on NCLB Title II, part (D), 
Enhancing Education Through Technology Program. Thank you for 
doing that.
    John Castellani, thank you so much for being here. We know 
you came on very short notice. Unfortunately, we had a 
cancellation of a representative of IBM, and we thank you so 
much for coming and representing the Business Roundtable.
    He is representing the Business Roundtable, an association 
of chief executive officers leading U.S. corporations with a 
combined workforce of more than 10 million employees, and $4.5 
trillion in annual revenues. The Business Roundtable has been 
cited by the Financial Times as the most influential chief 
executive lobbying group in the United States, and is in the 
forefront of public policy debates advocating for a vigorous, 
dynamic global economy.
    Prior to becoming president of the Business Roundtable, 
Castellani was executive vice president of Tenneco Company and 
part of the senior management team that led the transformation 
of an ailing conglomerate into seven strong companies. So we 
expect miracles from you today. And thank you for the 
involvement of the Business Roundtable. We had a very good 
session yesterday on community colleges over on the Senate 
side, and again thank you for that participation.
    Dr. Fennell, we are going to begin with you. We have a 
light system here. When you begin speaking, a green light will 
go on. That tells you that you have 5 minutes. At some point, 
an orange light will go on, which means you have about 1 minute 
remaining. We would like you to think about wrapping up your 
remarks, but we want you to finish them in a coherent fashion. 
And then the red light will go on and we would appreciate you 
at that point stopping so that we can hear and allow for 
questions.
    Thank you so much for joining us. Tell us all you know in 5 
minutes. [Laughter.]

    STATEMENT OF SKIP FENNELL, MEMBER, NATIONAL MATHEMATICS 
ADVISORY PANEL, PAST PRESIDENT, NATIONAL COUNCIL OF TEACHERS OF 
                          MATHEMATICS

    Mr. Fennell. Good morning, Chairman Miller and Congressman 
McKeon. As noted, my name is Francis ``Skip'' Fennell. I am 
professor of education at McDaniel College in Westminster, 
Maryland, and recent past president of the National Council of 
Teachers of Mathematics, and a recent member of the National 
Mathematics Advisory Panel.
    As you noted, the National Math Panel was appointed by the 
president to advise the secretary and the president on the best 
use of scientifically based research to advance the teaching 
and learning of mathematics. The panel was charged with making 
recommendations on improving mathematics achievement for all 
students, with a focus on preparing students for success in 
algebra.
    This report has 45 recommendations. To distill those 90 
pages in 5 minutes is somewhat of a challenge. So what I am 
going to do is, if you will, give you snapshots of particular 
issues that are critically important to all of this.
    You mentioned in your opening remarks the concern we have 
relative to curriculum structure around this country. In a 
nutshell, classroom teachers today are faced with far too many 
objectives and expectations. There are states in this country 
that have well over 100 expectations or objectives in a given 
instructional year. You cannot do that well.
    One of the things that the panel did was take a look at 
what does it take to get kids to be successful in algebra. 
Building off the work of the National Council of Teachers of 
Mathematics curriculum focal points, distilled, what we refer 
to as critical foundations for algebra. That is, when students 
get into that course called algebra, whether it is a course 
with algebra as its title or within an integrated mathematics 
curriculum, they really need to know and know well everything 
possible about working with whole numbers, everything possible 
about working with fractions--fractions being defined here as 
fractions, decimals, percent, ratio, leading on to work with 
proportion, and then also particular aspects of geometry and 
measurement.
    Not that that is all of what they would experience prior to 
algebra, but these are, if you will, the must-haves. So that is 
really important to us in our critical foundations and our 
benchmarks, which are suggestive of particular grade placement, 
go into that as well.
    We note that one of the reasons for the panel's existence 
was to help define algebra and recognize the importance of 
algebra. Algebra is clearly a gateway or passport, if you will, 
to higher level mathematics. Students who complete algebra II 
are more than twice as likely to graduate from college compared 
to students with less mathematical preparation. This is 
particularly true among African American and Hispanic students.
    I am certain that you will hear more about the gateway 
nature of algebra in a few minutes from Laura Slover here, with 
her work relative to Achieve.
    We have known for some time that teachers make a 
difference. Well, of course. What we don't know, and what we 
need to know, is what is it about effective classroom teachers 
that we can bottle? What is it about effective professional 
development that we can use in places around this country? The 
research needs in that particular area are critical, and it is 
a tremendous call, in my opinion, for teacher education around 
this country, both at the pre-service level and in-service as 
well.
    One aspect of our work with teachers is the recognition 
that we should consider, at the very least, elementary math 
specialists--that is a person who has a specialist background 
in mathematics at the elementary level. You will soon hear 
comments from Bill Haver from Virginia Commonwealth regarding 
that state's model program that is statewide and will engage 
all of us in an important initiative.
    But let me add the following: At a time of teacher surplus 
at the elementary school level, it is perhaps time to consider 
scrapping the model of the elementary teacher as generalist. 
Why not have specifically trained elementary math specialists 
starting from day one of their career?
    I would like to make a few statements about learning. One 
of the issues at the core of what has become known in education 
circles at the ``math wars'' has been a discussion, some would 
argue a debate, around conceptual understanding, skill 
development, and problem solving. What is important here? Well, 
all of it. This is not an either-or proposition.
    The National Math Panel has stated very clearly that 
understanding mathematics conceptually, becoming proficient in 
the use of procedures, and extending this to understanding and 
proficiency to solve problems must be developed simultaneously. 
Students, all students, need to make sense of the mathematics 
they are learning. How better to do that than to solve problems 
involving mathematics, whether that is deciding the impact of 
that 5 percent finance charge or that seemingly day-to-day 
increase at the gas pump.
    A very important message from the panel's report addresses 
an issue that frankly drives me crazy. Mathematics is important 
for every student in every classroom in this country regardless 
of grade level, gender, race or ethnicity. This is not a ``for 
nerds only'' subject. It is a ``for everyone'' opportunity. 
There is no math gene.
    One of the most important findings in the Math Panel's 
report is that effort matters. So once and for all, we need to 
stop the parent conference that begins with the phrase, ``Well, 
you know, I was never good in math either.'' Math is important 
for our culture, for our country and for our children.
    In addressing its charge from the president, the National 
Math Panel's work was very much directed by research. However, 
the panel found that far more educational research is needed. 
Research of all kinds and types must drive what we do in this 
field of mathematics education.
    Importantly, in No Child Left Behind, with AYP looming 
every year, pre-K through 12 schools should be provided with 
incentives and resources to provide venues for and encourage 
collaboration in educational research. We need to find ways to 
make this happen.
    And finally, the America COMPETES legislation calls for 
funding a Math Now initiative for $95 million to improve 
mathematics instruction at the elementary and middle school 
levels. I encourage you to support this initiative and move it 
forward.
    Thanks for this opportunity. I look forward to your 
questions later.
    [The statement of Mr. Fennell follows:]

 Prepared Statement of Francis (Skip) Fennell, McDaniel College, Past 
         President, National Council of Teachers of Mathematics

    Good morning, Chairman Miller and Congressman McKeon. My name is 
Francis (Skip) Fennell. I am a professor of education at McDaniel 
College in Westminster, Maryland. I am also past president of the 
National Council of Teachers of Mathematics (NCTM). From my appointment 
in April 2006 until last month, I also served as a member of the 
National Mathematics Advisory Panel.
    First, thank you for the opportunity to speak with you about the 
work of the National Mathematics Advisory Panel and its report, 
``Foundations for Success,'' which was released on March 13. The 
National Math Panel was appointed in 2006 by President Bush to advise 
the President and the Secretary of Education on the best use of 
scientifically based research to advance the teaching and learning of 
mathematics. The Panel was charged with making recommendations on 
improving mathematics achievement for all students, with a focus on 
preparing students for success in algebra.
    I won't belabor what you've already heard about the growing concern 
about our nation's standing in a global marketplace and the importance 
of the education in the STEM fields--that's science, technology, 
engineering and mathematics--to that standing. The concerns about how 
our students compare with those of other countries are well documented 
and one of the reasons the National Math Panel was formed. And the 
importance of mathematics, specifically algebra, as a foundation for 
success of all kinds is almost universally acknowledged.
    My comments will focus on a few major themes from the report. But I 
will state that there is a great deal more in the report's 45 
recommendations and related findings, which can guide mathematics 
education in the future.
Curriculum Focus and Coherence
    One of the most significant challenges in mathematics education 
today is the need for curricular focus and coherence. Teachers today 
are guided by state curriculum standards that sometimes more than 100 
learning expectations per grade level. Consequently, to get through all 
of these expectations, teachers address topics superficially rather 
than in depth, and learning suffers. The Math Panel's report 
acknowledges the need for a more focused, coherent curriculum in grades 
pre-K--8 that is streamlined and emphasizes a well-defined set of the 
most critical topics in the early grades.
    By focused, the Panel means that curriculum must include (and 
engage with adequate depth) the most important topics prerequisite for 
success in school algebra. These are the Panel's Critical Foundations 
for Algebra and accompanying benchmarks. By the term coherent, the 
Panel means that the curriculum is marked by effective, logical 
progressions from earlier, less sophisticated topics into later, more 
sophisticated ones. Improvements like those suggested in the report 
promise immediate positive results with minimal additional cost.
    The National Council of Teachers of Mathematics (NCTM) advocates 
for a broad vision of the mathematics for all students at these levels; 
it also recognizes the necessity for focus and coherence within a 
prekindergarten through grade 8 mathematics program. NCTM's Curriculum 
Focal Points for Prekindergarten through Grade 8 Mathematics: A Quest 
for Coherence describes the need for a coherent set of mathematics 
topics that are important for all students to acquire at particular 
grade levels in order to prepare for the study of algebra as well as 
other important mathematics. It presents the most important 
mathematical topics for each grade level. The Panel's Critical 
Foundations and accompanying benchmarks are consistent with NCTM's 
Curriculum Focal Points and are connected as prerequisites for algebra.
Fractions
    Some would argue that fractions may be the most critical of the 
Panel's Critical Foundations for algebra. Fractions are defined here as 
fractions, decimals, and percent, leading to work with ratio and 
proportion. Several of the Panel's task groups, as well as the Panel's 
teacher survey, substantiated that difficulty with fractions is 
pervasive and an obstacle for far too many students to success in 
algebra.
    A nationally representative sample of over 700 teachers of Algebra 
I who were surveyed for the Panel rated students as having very poor 
preparation in ``rational numbers and operations involving fractions 
and decimals.'' As with learning whole numbers, a conceptual 
understanding of fractions, decimals, and percent, proficiency with 
their use, and the opportunity to solve problems with fractions is 
mutually reinforcing.
Effort Matters
    Another important message from the Panel report addresses a 
cultural issue that seems to have gained more prominence in the United 
States, and that's the fallacy that there is some ``math gene'' that 
endows some students with an affinity to learn mathematics. There is no 
such math gene. Rather, research shows that students in other countries 
devote more effort to mathematics learning, and learn more as a result. 
One of the most important findings in the Math Panel's report is that 
effort matters. Grappling with challenging math problems, even if they 
are not ``solved,'' leads to greater understanding and more learning, 
on the part of all students. So, once and for all, we need to stop the 
parent conference that begins with the phrase, ``Well, you know I was 
never good in math either.'' Math is important--for our children and 
for our country.
Conceptual Understanding
    One of the issues at the core of what has become known in education 
circles as the ``Math Wars'' is the debate over conceptual 
understanding and basic skills. In the highly charged lexicon of the 
two sides on the math wars, it is not an either/or proposition. The 
National Math Panel has stated very clearly that understanding 
mathematics conceptually, becoming proficient in the use of procedures, 
and extending this understanding and proficiency to solving problems 
must be developed simultaneously. In short, as students learn 
mathematics they need to have the mutually reinforcing benefits of 
conceptual understanding, procedural fluency, and the opportunity to 
solve problems applying and extending the mathematics learned. 
Students--all students--need need to make sense of the mathematics they 
are learning and become proficient in that mathematics, and how better 
to do that than solving problems that involve mathematics--whether 
that's deciding the impact of that 5 percent finance charge or the, 
seemingly daily increase in gasoline prices.
Early Learning
    Another finding from the Panel's work is that there are significant 
advantages for children to have a strong start in engaging with and 
learning mathematics very early. A high-quality, challenging, and 
accessible mathematics education provides early childhood learners with 
a critically important, vital foundation for future understanding of 
mathematics. Young children in every setting should experience 
effective, research-based curricula and teaching practices. Teachers 
should connect ideas within mathematics as well as with other subjects, 
and they should encourage children to communicate, explaining their 
thinking as they interact with important mathematics in deep and 
sustained ways. Early childhood educators should actively introduce 
mathematical concepts, methods, and language through a range of 
appropriate experiences and teaching strategies.
Algebra as Gateway
    One of the reasons for the focus on algebra in the Panel's charge 
from the President is that Algebra is clearly a passport or a 
demonstrable gateway to higher level mathematics. Moreover, research 
shows that completion of Algebra II correlates significantly with 
success in college and future employment earnings. In fact, students 
who complete Algebra II are more than twice as likely to graduate from 
college compared to students with less mathematical preparation. Among 
African-American and Hispanic students with mathematics preparation at 
least through Algebra II, the differences in college graduation rates 
versus the student population in general are half as large as the 
differences for students who do not complete Algebra II. As one 
panelist suggested at the release of the Panel report, the content (the 
mathematics) is king here. We need a more focused, coherent curriculum 
for all students--with particular emphasis on points of focus that are 
foundational for success in algebra.
    Excellence in mathematics education rests on equity--high 
expectations, respect, understanding, and strong support for all 
students. Policies, practices, attitudes, and beliefs related to 
mathematics teaching and learning must be assessed continually to 
ensure that all students have equal access to the resources with the 
greatest potential to promote learning. A culture of equity maximizes 
the learning potential of all students.
Teachers
    We have known for some time that the single most important factor 
in mathematics learning is teacher quality. Unfortunately, little is 
known from existing high-quality research about what effective 
mathematics teachers do to generate greater gains in student 
achievement. This is one of several fields in which the Panel found 
that further research is needed. Regarding teaching, research is needed 
to identify and more clearly define the skills and practices underlying 
these differences in teachers' effectiveness, and how to develop them 
in teacher preparation programs. We must be able to tell what works in 
teacher education and frankly what's need to prepare and retain our 
best teachers. This, to me, represents a clarion call for teacher 
education--at every level.
Math Specialists
    In an attempt to improve mathematics learning especially at the 
elementary level, a number of school districts around the country are 
using mathematics specialists. While the terms math specialist and math 
coach are not always clearly or consistently defined, there is 
potential in this movement. The Panel's recommendation for mathematics 
specialist teachers is based on the success of this particular model. 
The Panel identified three different types--math coaches (lead 
teachers), full-time elementary mathematics teachers, and pull-out 
teachers. Some of these show promise and should be examined more 
closely to determine how they can be increased in scale.
    The Panel recommends that research be conducted on the use of full-
time mathematics teachers in elementary schools. These would be 
teachers with strong knowledge of mathematics who would teach 
mathematics full-time to several classrooms of students, rather than 
teaching many subjects to one class, as is typical in most elementary 
classrooms. This recommendation for research is based on the Panel's 
findings about the importance of teachers' mathematical knowledge. The 
use of teachers who have specialized in elementary mathematics teaching 
could be a practical alternative to increasing all elementary teachers' 
content knowledge (a problem of huge scale) by focusing the need for 
expertise on fewer teachers. However, I would add that at a time of 
teacher surplus at the elementary school level, it is perhaps time to 
scrap the model of elementary teacher as generalist. Why not have 
specifically trained elementary mathematics specialists starting from 
day one of their career? Our country can't wait until such specialists 
are graduate students.
Research
    In conformity with its charge from the President, the National Math 
Panel's work was very directed by research. In short, it found that 
much more educational research of almost all kinds is needed. This 
includes research relative to the impact of technology on the teaching 
and learning of mathematics. This means all technology--software, the 
use of graphing calculators, and the role of the Web. Technology 
continues to expand and infiltrate our lives, often without any 
documentation of its impact. How do we both acknowledge and harness the 
promise of technology as a tool for teaching and learning?
    Support should be provided to encourage the creation of cross-
disciplinary research teams, including expertise in educational 
psychology, sociology, economics, cognitive development, mathematics, 
and mathematics education. In short, we need more expertise at the 
table.
    Most important, in an NCLB world with AYP looming each year, Pre-
K--12 schools should be provided with incentives and resources to 
provide venues for, and encourage collaboration in, educational 
research.
    New funding should be provided to establish support mechanisms for 
career shifts (K, or career development, awards from the National 
Institutes of Health represent one example). Many accomplished 
researchers who study the basic components of mathematics learning are 
not directly engaged in relevant educational research. While this more 
basic kind of research is important both in its own right and as a 
crucial foundation for designing classroom-level learning projects, at 
least some of these investigators have the potential to make more 
directly relevant contributions to educational research. Consequently, 
providing incentives for them to change the emphasis of their research 
programs could enhance research capacity in the field.
    We strongly encourage capitalizing on the work that is currently 
being accomplished on learning and educational practices by the 
National Science Foundation. This work can augment and improve current 
instructional practice and student learning.
    As you know, Congress last year showed strong bipartisan support 
for increased investments in strengthening and improving STEM education 
programs through enactment of the America COMPETES Act. That bill 
authorized Math Now, which embodies a number of the Math Panel's 
recommendations, and also recommends an increased investment in 
programs at the National Science Foundation. Programs under the 
Foundation's Education and Human Resources Directorate--the division of 
the NSF that administers the Math and Science Partnerships program, the 
Noyce Scholarship Program and other important education initiatives--
would receive $995 million if appropriators followed the 
recommendations of the authors of that bill. I encourage Congress to do 
just that.
    There are programs at other federal agencies that also yield 
benefits for the field of mathematics education, math educators, and 
students. The Department of Energy is engaged in creating opportunities 
for students and educators to participate in the nation's research 
enterprise as a means to improving the competitiveness of U.S. industry 
and overall scientific literacy through programs at the Office of 
Science's Workforce Development for Teachers and Scientists. Those 
efforts, which include exciting opportunities for K--12 math and 
science teachers, warrant federal support and investment as well.
Math Now
    The America COMPETES legislation calls for funding a Math Now 
initiative for $95 million to improve math instruction in the 
elementary and middle grades and to provide targeted help to struggling 
students so that all students can reach grade-level mathematics 
standards. Math Now will give teachers research-based tools and 
professional development to improve elementary and middle school 
students' achievement in mathematics and help mathematics teachers to 
teach students who are the hardest to reach. These innovations are 
sorely needed. The early years of mathematics education are 
foundational to success in algebra, that critical gateway not only to 
future learning and educational success in every STEM field, but for a 
better, stronger workforce, and a stable, well-informed citizenry. I 
strongly encourage Congress to fund this initiative, which would 
support the end result of much what we're here to talk about today--
student learning of mathematics.
    Thank you again for your invitation to address the committee and 
for this opportunity. I would be glad to answer any questions you might 
have relative to the work of the Panel, the work of the National 
Council of Teachers of Mathematics, or my own work as a mathematics 
educator with more than 40 years of experiences as a classroom teacher, 
principal, supervisor of instruction, and teacher educator.
                                 ______
                                 
    Chairman Miller. Ms. Slover?

           STATEMENT OF LAURA SLOVER, VICE PRESIDENT,
                         ACHIEVE, INC.

    Ms. Slover. Thank you, Mr. Chairman and members of the 
committee for the opportunity to Achieve to testify today at 
this hearing to discuss the importance of mathematics for all 
students, and to discuss the progress that has occurred in the 
states on this front.
    We also want to commend the National Mathematics Panel for 
its fine work in this area.
    So I am going to talk about what states are doing to move 
the needle on mathematics education. I want to tell you a 
little bit about Achieve. Achieve is a bipartisan nonprofit 
organization created by the nation's governors and business 
leaders to help states raise academic standards, improve 
assessments, and strengthen accountability, and to prepare all 
students for post-secondary education careers and citizenship.
    I am actually talking a little bit off these slides, if you 
want to look at those.
    One of our primary goals is to address the expectations gap 
in which students are graduating from high school, and yet 
getting to college or getting to their first job without the 
requisite skills and knowledge necessary to succeed. Achieve 
has done research to identify what it does take to succeed in 
mathematics and in English to be prepared for life after high 
school, whether students attend college or go directly into a 
job.
    To do that, we ask college professors and employers what 
was most important for students to know. The result was a set 
of benchmarks in mathematics and English that contains the 
content knowledge that all students should know.
    In 2005, Achieve launched the American Diploma Project 
Network, then a group of 13 states dedicated to a college and 
career-ready policy agenda. The take-up rate for this agenda 
has been remarkable. Today, the network includes 33 states, 
reaching 80 percent of the nation's public school students.
    Those 33 states are committed to an agenda that includes 
aligning high school standards with what it takes to succeed in 
college and careers, requiring all students to take that 
rigorous set of courses aligned with those standards, 
incorporating college-ready tests into their state testing 
systems, and holding high schools accountable for graduating 
students who are ready for college and careers, and then also 
really pushing on the higher ed community to hold their 
institutions accountable for the success of incoming students.
    So what should students learn in high school to be 
successful in college and careers? Our research found that 
students should master 4 years of grade-level English and 4 
years of mathematics with content equivalent to a sequence that 
includes algebra I, geometry, algebra II, data analysis, and 
statistics. This level of content is reflected in Achieve's 
American Diploma Project benchmarks, and Dr. Fennell alluded to 
that just a moment ago.
    So why is higher level mathematics important for all 
students? Algebra II or its equivalent is a gateway course for 
higher education and it teaches quantitative reasoning skills 
important for the workplace. Achieve's research shows that 
higher level math courses such as algebra II improves access to 
post-secondary education, are critical for college success, and 
are important to many careers including those that don't 
actually require a 4-year college degree.
    Students who complete such course work are not only better 
prepared for work, they earn higher salaries. It really is true 
that the more math you learn, the more money you earn. 
Unfortunately, there is still a large achievement and 
opportunity gap in math. Disadvantaged and minority students, 
for whom rigorous math courses can really make the most 
difference, earn fewer math credits and are less likely than 
their peers to enroll in higher level math courses.
    The good news in the states is that when ADP first was 
formed, we didn't see a lot of states who were moving forward 
on this agenda. At that time, only two states had set their 
high school graduation requirements at a career and college-
ready level. Today, 19 states and the District of Columbia have 
set their graduation requirements to the college and career-
ready level, which will help ensure that students are prepared 
for the challenges they meet when they graduate from high 
school. Eleven additional states are reporting that they plan 
to do so in the coming years.
    There has also been a trend across the country for states 
to become more specific about the math content in courses they 
require all students to complete. In the past, states tended 
just to require a number of years of math without specifying 
what math students were to take. In 2005, for example, 30 
states did not even require students to complete algebra I, let 
alone higher level courses like algebra II.
    Now, 30 states and the District of Columbia have specific 
course-taking requirements in mathematics. Nineteen of those 
states and D.C. require students to complete algebra I, 
geometry, and algebra II or an equivalent sequence, and two 
states--Arkansas and Alabama--require students to take a fourth 
math course beyond algebra II. Most of those states have also 
put in place strong content standards to guide their work.
    As states make strides in improving the rigor of their 
standards and graduation requirements, a number of challenges 
emerge, particularly in the development of college-ready 
assessments and supporting materials for educators. Achieve is 
engaged in a number of efforts to help states in their work, 
most notably a common algebra II end-of-course exam. This is 
the largest-ever multi-state assessment with 14 participating 
states and over 110,000 students who took the first exam this 
spring and are currently taking it right now.
    This exam provides states with the ability to measure 
college-ready mathematics content, ensuring the consistency of 
content and rigor in algebra II courses within and among states 
so algebra II is the same regardless of where a student happens 
to go to school. It will enable comparisons of performance 
across states and hopefully over time provide colleges with a 
measure of readiness for placement into post-secondary credit-
bearing courses.
    In addition to the algebra II exam, Achieve has a number of 
other efforts underway to help states, including an algebra I 
exam, a number of math tools including mathematics benchmarks 
for K through 12, model course sequences, sample classroom 
problems, examples of fourth-year courses, and workplace tasks 
that are actually tied to the application of mathematics.
    Achieve also provides advocacy tools for states such as 
mathematics-at-work brochures, white papers and other tools to 
help states make the case that advanced mathematics is very 
important, as Dr. Fennell stated earlier, and as I have just 
testified to.
    In closing, I would like to leave you with a few thoughts 
about major trends in math education that Achieve has 
encountered as we work across the states. First of all, algebra 
II is the new algebra I. Every student needs to have it. But it 
is not your grandfather's algebra II that I am talking about. 
We need to find new and innovative ways to teach it so that we 
can reach more students, ways that emphasize conceptual 
understanding and not just straight procedures.
    Finding new ways to present and make mathematics more 
relevant to students without diluting its rigor will enable 
more students to be prepared for college and good careers. 
Along those lines, more states and districts are contemplating 
organizing high school mathematics into integrated course 
sequences and they are really putting in energy and thinking 
carefully about how to revamp the career and technical programs 
so that mathematics is a major part of it.
    Another thing we have learned is that employers and post-
secondary faculty place a high value on the nontraditional 
mathematics, like statistics, probability and data analysis. 
States are increasingly interested in ensuring that their 
mathematics standards are internationally benchmarked, as 
Chairman Miller mentioned in his own remarks. Achieve is 
currently working in that regard to look at the standards in 
the world's highest performing countries.
    Finally, I will just close by saying if we think about how 
we are going to really raise the bar on mathematics education, 
it is going to come down to teacher quality and teacher 
capacity. It is one of the greatest challenges we have in 
making more advanced math classes available to more students at 
the secondary level, and it is an area in which we have a lot 
of work ahead of us.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The statement of Ms. Slover follows:]

   Prepared Statement of Laura Slover, Vice President, Achieve, Inc.

    Thank you Chairman Miller and members of the Committee for the 
opportunity for Achieve to testify today at this hearing to discuss the 
importance of mathematics for all students and the significant progress 
that has occurred in the states on this front. We also want to commend 
the work of the National Mathematics Panel for their excellent work.
    Created by the nation's governors and business leaders, Achieve is 
a bipartisan non-profit organization that helps states raise academic 
standards, improve assessments and strengthen accountability to prepare 
all young people for postsecondary education, careers, and citizenship. 
Achieve was created to address the expectations gap: the alarming trend 
that allows students to graduate from high school without the requisite 
skills and knowledge necessary for success in college and the 
workplace.
    From 2001 to 2004, Achieve undertook a major research endeavor to 
identify the must-have skills and knowledge all students need in the 
core subjects of mathematics and English to be prepared for life after 
high school. The result of this project--known as the American Diploma 
Project (ADP)--was an agreed upon set of benchmarks in mathematics and 
English that all students should know by the time they graduate high 
school, as defined by the postsecondary and business communities. To 
cover the content in the ADP benchmarks, high school students need to 
take four years of grade level English and four years of mathematics 
with content equivalent to a sequence that includes Algebra I, 
Geometry, Algebra II, Data Analysis, and Statistics. In 2005, Achieve 
launched the American Diploma Project Network, then a group of 13 
states dedicated to a college- and career-ready policy agenda. Today, 
the Network includes 33 states, reaching 80% of our public school 
students.
Why higher-level math for all students?
    As revealed by Achieve's research, there are many specific skills 
and competencies that young people will need to succeed, but more than 
particular skills, students need the cognitive capacity to educate 
themselves throughout their entire lives. Young people need the ability 
for complex reasoning and the self-confidence to apply it in any and 
all situations. These are precisely the skills that are developed in 
higher-level mathematics courses, beginning with the foundational 
Algebra I and extending beyond Algebra II, in which students begin to 
use abstract reasoning to solve complex problems.
    Beyond the unmistakable intellectual benefits of students taking 
higher-level math courses, there are a number of practical benefits of 
engaging in rigorous math coursework. Achieve and others have found 
that Algebra II (or an integrated course that covers the same content) 
is a gateway course for higher education and teaches quantitative 
reasoning skills important for the workplace. Achieve's research shows 
that higher level mathematics courses such as Algebra II improve access 
to postsecondary education, are critical for college success, and are 
important to many careers--including those that don't require a four-
year college degree. Students that complete such coursework are not 
only better prepared for work, they earn higher salaries. Achieve's 
conclusions, as reflected in its mathematics benchmarks (Ready or Not: 
Creating a High School Diploma That Counts)), have been reinforced by 
other research, such as ACT.
    Unfortunately, there is still a large achievement and opportunity 
gap in mathematics. Disadvantaged and minority high school students 
earn fewer mathematics credits than their socio-economically advantaged 
peers, and are less likely than those peers to enroll in higher-level 
math courses, such as trigonometry and calculus. The gaps in course-
taking by population subgroup mirror those seen in test scores and 
other measures of educational outcomes. Black and Hispanic students are 
twice as likely as their White and Asian peers to take no math beyond 
the basic level, for example. Additionally, many minority students and 
girls, of all races and ethnicities, lack access to advanced math 
classes or are discouraged form enrolling in them. Under these 
circumstances, higher-level math courses function not as the 
intellectual and practical boost they should be, but as a filter that 
screens students out of the pathway to success.
Progress in the states
    Since 2005, when the ADP Network was first formed, we have seen 
significant progress from the states in moving forward a rigorous 
college- and career-ready policy agenda, particularly in the areas of 
academic standards and graduation requirements.
            High School Mathematics Standards
    Rigorous college- and career-ready academic standards are critical 
as they provide a foundation for decisions on curriculum, instruction 
and assessments, and they community core learning goals to teachers, 
parents and students. Although the standards-based reform movement has 
been going strong since A Nation at Risk was published, the concept of 
anchoring end-of-high school academic standards to the expectations of 
the postsecondary and business communities is a relatively new one, yet 
it has a lot of momentum across the country.
    Nineteen states have aligned their high school math standards with 
the expectations of college and industry and another 25 states and the 
District of Columbia are in the process of, or plan to, align their 
standards in coming years, including 13 states that anticipate adopting 
new math standards by the end of 2008. Put another way, all but six 
states are looking to improve the transition from high school into 
postsecondary and workplace settings through the adoption of college- 
and career-ready standards. An interesting byproduct of aligning to 
college and career ready mathematics expectations is that the states 
also share a common core.
            High School Graduation Requirements
    In 2005, just two states had set their high school graduation 
requirements at a college and career--ready level, which includes four 
years of grade level English and four years of rigorous math, including 
content typically found in Algebra II. Today, 19 states and the 
District of Columbia have set their graduation requirements to the 
college- and career-ready level, ensuring students will be prepared for 
whatever challenges they face upon graduation. 11 more states report 
plans to move in this direction in coming years.
    Even more broadly, there has been a trend across the nation for 
states to become more specific about the math content and courses they 
require all students to complete before graduating. In 2005, 30 states 
did not require students to complete even Algebra I, let along higher-
level courses such as Algebra II. Now, 30 states and the District of 
Columbia have specific course-taking requirements in mathematics. 
Nineteen of those states, and the District of Columbia, require 
students to complete Algebra I, Algebra II, and Geometry, or an 
equivalent sequence, and two of those states (Arkansas and Alabama) 
require students to take a fourth math course beyond Algebra II.
Achieve: Supporting states to close the math expectations gaplc
    However, as more states make strides in improving the rigor of 
their academic standards and their graduation requirements, a number of 
challenges emerge, particularly in the development of college-ready 
assessments and supporting materials for educators and students to 
ensure all students are prepared for higher-level math course-taking. 
Achieve is engaged in a number of efforts to help states address these 
challenges, more notably the common Algebra II end-of-course exam.
            ADP Algebra II End-of-Course Exam
    In 2005, a number of states in the ADP Network began exploring the 
possibility of collaborating on a common Algebra II assessment to:
    <bullet> Measure ``college-ready'' content;
    <bullet> Ensure consistent content and rigor in Algebra II courses 
within and among states;
    <bullet> Enable comparisons in performance among the states;
    <bullet> Reduce test development costs; and
    <bullet> Develop a possible instrument for placement into 
postsecondary courses.
    By 2006, nine states joined the common Algebra II end-of-course 
consortium, representing an unprecedented multi-state effort. Since 
then, five additional states have joined this group. These 14 states 
have worked together--with high school and higher education mathematics 
faculty--to agree on the content and design of the assessment, as well 
as common performance levels to be used across the states. The 
assessment includes multiple choice, short answer and extended response 
items and is aligned with the ADP mathematics benchmarks. This 
represents a significant change for some states as many existing high 
school exit exams only cover math content taught at the 8th-, 9th- or 
10th-grade level.
    Beyond the core Algebra II assessment, the group of states also 
created items for modules that would extend the rigor and scope of the 
exam. The modules cover topics such as Data & Statistics, Logarithmic 
Function, and Matrices.
    The first administration of this exam occurs this spring, from May 
1-June 13, 2008. Over 110,000 students across the participating states 
will take the exam. States are still crafting policies around which 
students will be required to take the exam, what stakes they will 
attach to it, and how the assessment may be used to place students into 
credit-bearing postsecondary courses. Achieve expects there to be a 
range of policies adopted throughout the 14 states.
    All participating states hope to use the common Algebra II exam to 
improve curriculum and instruction in high schools. They are also 
interested--and working with postsecondary leaders--to determine 
whether the exam can serve as a measure of readiness and placement in 
credit- bearing college courses.
    Moving forward, a subset of the Algebra II end-of-course consortium 
are now working to develop an Algebra I end-of-course exam to improve 
curriculum and instruction, help schools determine if students are 
ready for Algebra II and other higher-level math courses, and compare 
performance and progress among the participating states. This 
assessment will be field tested in fall of 2008 and first administered 
in spring 2009.
            Mathematics Benchmarking and Additional Tools
    As the ADP benchmarks are intended to cover the four years of high 
school, over the years, states requested more detail about the 
progression of content and skills students would need to master through 
the grades in order to meet the end-of-high school ADP benchmarks. To 
address this, Achieve has ``backmapped'' the ADP Mathematics benchmarks 
from grade 12 down through Kindergarten.
    Achieve also has partnered with the Charles T. Dana Center at the 
University of Texas, Austin to develop accompanying tools and resources 
to support these backmapped benchmarks. The joint Achieve/Dana Center 
website includes:
    <bullet> The ADP benchmarks and back mapping;
    <bullet> Model math course sequences and grade level standards;
    <bullet> A supply of sample instructional tasks;
    <bullet> Criteria and models for fourth-year capstone math courses 
for students who have completed Algebra II or its equivalent;
    <bullet> Workplace tasks tied to the application of mathematics; 
and
    <bullet> Practices Worthy of Attention that highlight promising 
programs and instructional models.
            Math Works: Advocacy Kit
    In addition to the technical assistance Achieve provides to states, 
Achieve also offers advocacy tools to promote higher-level math course-
taking. Most recently, Achieve developed a series of Mathematics at 
Work brochures to examine how higher-level mathematics is used in 
today's workplaces. The brochures present case studies drawn from 
leading industries nationwide to illustrate the advanced mathematics 
knowledge and skills embedded in jobs that offer opportunities for 
advancement and are accessible to high school graduates.
    Achieve has also recently published a new policy paper--The 
Building Block of Success: Higher-Level Math for All Students--to 
synthesize the current research base on why math is so important to all 
students in regards to college access and success, workplace- and 
career-readiness, and personal and U.S. competitiveness.
    Both the brochures and policy paper, along with to-be-developed 
one-pagers, PowerPoint slides, and a resource bank, will be included in 
Achieve's Math Works advocacy kit, which will be rolled out in the 
summer of 2008. The goal of Math Works is to provide states with the 
resources they need to ensure all students have the opportunity to 
engage in rigorous math course-taking throughout their high school 
experiences.
Emerging themes in mathematics education
    I'd like to leave you with a few major trends in mathematics 
education that Achieve has encountered as we work with states to reform 
their mathematics requirements so that more high school graduates are 
prepared for college and career:
    <bullet> Algebra II is the new Algebra I, but not your grandpa's 
Algebra II.
    <bullet> More states and districts are contemplating organizing 
high school mathematics in integrated courses rather than the 
traditional sequence.
    <bullet> Finding new ways to present and make mathematics relevant 
to students (integrated courses, career and technical education) 
without diluting rigor will enable more students to be prepared for 
college and good careers.
    <bullet> Employers and postsecondary faculty place a high value on 
statistics, probability and data analysis.
    <bullet> States are increasingly interested in ensuring that their 
mathematics standards are internationally benchmarked to the highest 
performing countries in the world. Achieve is currently conducting a 
study to benchmark our mathematics standards and NAEP against the 
highest performing countries.
    <bullet> Teacher capacity is one of the greatest challenges in 
making more advanced mathematics classes available to more students at 
the secondary level.
                                 ______
                                 
    [Additional material submitted by Ms. Slover follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you.
    Dr. Haver?

STATEMENT OF WILLIAM HAVER, PROFESSOR OF MATHEMATICS, VIRGINIA 
                    COMMONWEALTH UNIVERSITY

    Mr. Haver. We really can increase the number of students 
that are successful in mathematics. It can happen. A growing 
number of elementary schools in Virginia are using mathematics 
specialists as a powerful tool to enable more students to be 
successful.
    As defined in Virginia, mathematics specialists are 
responsible for strengthening teachers' understanding of 
mathematics and helping teachers develop more effective 
teaching practices through co-planning, co-teaching, and 
coaching. Specialists are helping teachers and schools develop 
strong programs consistent with the findings of the National 
Math Panel.
    They help implement a school-wide curriculum. They assure 
that students develop conceptual understanding, computational 
skills, and problem-solving. It is not either-or. It is all 
three. They provide professional development to increase the 
teacher's knowledge of mathematics and of effective research-
based teaching strategies.
    The first full-time coaches were placed in Virginia about 
10 years ago. The mathematics supervisors, principals and 
teachers reported on the major differences that the specialists 
made in the schools. There were major improvements reported in 
student performance on standardized tests.
    In about 2003, there was a consensus around the state in 
the mathematics community that, one, we should develop the 
capacity to have mathematics specialists prepared and put in 
place statewide in Virginia, and secondly, that we should 
concurrently conduct high-quality research of the type called 
for by the National Math Panel to measure the impact of 
specialists.
    Many organizations have worked together in the state to do 
this. The Virginia Mathematics and Science Coalition, with 
critical support from ExxonMobil; the Virginia Council of 
Teachers of Mathematics and the Council of Mathematics 
Supervisors; six universities that worked together 
collaboratively to develop and offer master's degree programs 
designed for math specialists; the Virginia Board of Education 
that approved a math specialists endorsement; the state 
legislature that has appropriated funds to partially support 
the research program I will describe in a minute; the Virginia 
Department of Education, which has strongly supported math 
specialists, including directing funds from the United States 
Department of Education's Mathematics and Science Partnership 
Program to help prepare mathematics specialists in Virginia.
    So as a result of this capacity building, there are 
currently approximately 300 school-based mathematic specialist 
coaches in Virginia. So concurrent to this decision that we 
made in 2003 to work on the preparation programs for the math 
specialists and the support provided for them, we made a 
decision to undertake detailed scientific research on math 
specialists. We are in the middle of that research program.
    Even today, as pointed out by the National Math Panel, 
there is no public research with treatment and control groups 
that say anything about the impact of math specialists. The 
research that is known is knowing what good practices are and 
that math specialists do this, but as far as research directly 
demonstrating the impact of math specialists, that doesn't 
exist.
    So we were awarded two grants from the National Science 
Foundation to help us put these programs in place that I 
described, and to determine the impact of mathematics 
specialists. The one key component of the research, and I will 
just stick to this one component, centers on 12 triples of 
schools. So each set of three schools was identified by a 
school system as being comparable to each other. One school 
from each triple was randomly chosen by the researcher to have 
a math specialist, and a second school was randomly chosen from 
each set of three schools to have a math specialist 2 years 
later.
    So therefore, with this treatment control basis, we are 
beginning to obtain preliminary results on the mathematics 
specialists on mathematics achievement scores. When compared 
with students in the control schools, students in schools with 
mathematics specialists performed better on our statewide high-
test stakes in each of the grades where the tests are given, in 
grades three, four and five.
    Indeed, in each grade, their performance was better in each 
sub-category--numbers, computation and estimation, patterns, 
functions in algebra. The greatest difference was observed in 
grade four, where the positive effect of having a coach in the 
school was approximately 80 percent of the magnitude of the 
negative effect of poverty. We know that students in poverty 
score lower on the tests like this, and the impact of having a 
math specialist in the school was 80 percent of the magnitude 
of that. It was 52 percent in grade three and 47 percent in 
grade five.
    The school superintendents of the systems that are 
participating in this study were interviewed last summer by our 
policy research team. According to the report, they were 
unanimous in their confidence about the effectiveness of in-
school coaching models and their desire to implement it in all 
elementary and middle schools. We believe that this is a real 
opportunity, a real tool to bring about significant change 
across the board.
    [The statement of Mr. Haver follows:]

  Prepared Statement of Dr. William Haver, Professor of Mathematics, 
                    Virginia Commonwealth University

    A growing number of elementary schools in Virginia have been making 
extensive use of Mathematics Specialists as a tool to enable many more 
students to be successful in learning mathematics.
    As we use the term in Virginia, a Mathematics Specialist is based 
in an elementary school in order to support the professional growth of 
teachers and promote excellent mathematics instruction and student 
learning. Mathematics Specialists are responsible for strengthening 
classroom teachers' understanding of mathematics content and helping 
teachers develop more effective mathematics teaching practices. 
Typically they collaborate with individual teachers through co-
planning, co-teaching, and coaching. The duties of these Mathematics 
Specialists are described in more detail in the appendix to the 
materials submitted to the committee entitled Who are Mathematics 
Specialists?
    Working in a school building the Mathematics Specialists are 
helping teachers and schools develop strong programs consistent with 
the findings and recommendations of the National Math Panel. They
    <bullet> Implement a school-wide curriculum that is focused and 
provides coherent progression from year to year.
    <bullet> Assure that students develop both conceptual understanding 
and computational fluency.
    <bullet> Provide professional development so that:
    <bullet> Teachers know in detail and from a more advanced 
perspective the mathematics content they are responsible for teaching 
and the connections of that content to other important mathematics, 
both prior to and beyond the level they are assigned to teach.
    <bullet> Teachers are aware of and can implement effective 
research-based teaching strategies.
    Virginia first began utilizing Lead Mathematics Teachers in the 
early 1990s. Based on what was learned about the accomplishments and 
limitations of classroom teachers serving as lead mathematics teachers, 
the mathematics community studied the use of Mathematics Specialists in 
other states.
    The first full-time, school-based coaches were placed in Virginia 
schools about ten years ago. The impact of these Specialists on 
instructional practice and student achievement was marked. Mathematics 
supervisors, principals and teachers reported on the major difference 
that the Specialists made in teachers' attitudes and approaches to 
teaching mathematics. Major improvements in student performance on 
standardized tests were reported. For example, in one school system 
with three elementary schools a full-time coach was employed in one 
school; a year later, that school became fully accredited for the first 
time. This process was repeated each year for the next two years in the 
division's other two elementary schools. In a larger inner city system 
that made use of Mathematics Specialists, student achievement increased 
so that no elementary schools were ``unaccredited'' or ``accredited 
with warning in mathematics.'' As a result of these gains the district 
decided in 2004 to employ coaches in all 35 elementary schools. A 
special issue, volume 8, of the Journal of Mathematics and Science: 
Collaborative Explorations was published, with support from ExxonMobil, 
detailing these and other (admittedly anecdotal) experiences. The issue 
is available on-line on the Virginia Mathematics and Science Coalition 
home page http://www.vamsc.org/.
    As this strong and striking evidence became available in 2002-03 
consensus developed in all components of the mathematics/mathematics 
education community that
    I. The capacity should be developed statewide to appropriately 
prepare teachers to serve as Mathematics Specialists as resources 
become available and as school systems make the decision to deploy 
Specialists.
    II. Concurrently conduct high-quality research of the type called 
for by the National Mathematics Advisory Panel to measure the impact of 
the preparation program on prospective Mathematics Specialists and the 
impact of Specialists on teachers they support and on student 
achievement.
I. Building Capacity
    The Virginia Mathematics and Science Coalition identified 
Mathematics Specialists as the most promising means to improve student 
achievement in grades k-12. The Coalition appointed a statewide Task 
Force to develop a consensus on the role of Specialists, the 
recommended competencies and the preparation program. Critical 
financial and advisory support has been provided by ExxonMobil.
    The Virginia Council of Teachers of Mathematics and the Virginia 
Council of Mathematics Supervisors both developed and implemented 
programs to support Mathematics Specialists.
    Six universities collaboratively developed and are offering 
especially designed masters degree programs for Mathematics 
Specialists. The partners include: Virginia Commonwealth University 
(VCU), Norfolk State University (NSU), University of Virginia (UVA), 
Longwood University (LU), George Mason University (GMU), and Virginia 
Tech (VT). To date approximately 95 degrees have been awarded and 150 
teachers are enrolled in degree programs.
    The Virginia Board of Education with the concurrence of the 
governor has approved a Mathematics Specialist endorsement. The Board 
has also recommended to the State legislature that school systems be 
required to deploy a Mathematics Specialist for each 1,000 students in 
grades k-8.
    The State legislature has supported the concept of Mathematics 
Specialists. While not acting on the recommendation to require systems 
to deploy Specialists, the legislature has appropriated funds to 
partially support the research program described below.
    The Virginia Department of Education has strongly supported 
Mathematics Specialists at all stages, including using funds from the 
United States Department of Education Mathematics and Science 
Partnership program to prepare Mathematics Specialists. The department 
also provided access to student scores on standardized tests in support 
of the research described below.
    As a result of this capacity building there are approximately 300 
school-based Mathematics Specialists in Virginia.
II. Research
    Concurrently, in 2003, the decision was made to seek support to 
undertake detailed scientific research on Mathematics Specialists. At 
this time there was interesting, high quality research demonstrating 
the effectiveness of teachers having the knowledge and skills that 
Mathematics Specialist programs are designed to develop, but no 
research with treatment and control groups directly demonstrating the 
impact of Mathematics Specialists on student learning. As pointed out 
in the National Mathematics Advisory Panel reports no such results are 
published to date.
    In order to conduct this research and to develop the preparation 
programs described earlier we submitted competitive proposals to the 
National Science Foundation. We were successful in this competition and 
were awarded grants to determine the impact of preparation programs on 
Mathematics Specialists and the impact of Mathematics Specialists on 
the teachers they support and on student learning. The awards were made 
in the summer of 2004. Since then we have developed and refined the 
preparation programs, offered the programs to prospective Mathematics 
Specialists, placed Specialists in schools, and conducted the planned 
research.
    One key component of the research centers on 12 triples of schools. 
Each set of three schools were identified by a participating school 
system as being comparable demographically and having similar test 
scores. One school from each triple was randomly chosen and a 
Mathematics Specialist who had completed the preparation program was 
placed in each of these Cohort I schools beginning in August 2005; a 
second school (Cohort II) was randomly selected from each triple and a 
specialist was placed in each of these schools beginning in August 
2007. No Specialists will be assigned to the third school in each 
triple throughout the duration of the research project. Detailed 
information is being analyzed concerning the beliefs of teachers and 
the academic achievement of students in the treatment and control 
schools. As a part of the research program, each research subject 
records what she or he is doing during each period of time by entering 
data in a PDA. For example, the researcher knows how much time each 
teacher in the building is being supported by the Specialist.
    We are beginning to obtain preliminary results on the Mathematics 
Specialists' impact on student mathematics achievement scores as 
measured by SOL tests in Virginia. To assess this, the analysis has 
accessed data on approximately 6,400 student test scores in each of 
Grades 3, 4, and 5 from 36 schools over 2 years. Thus, the analysis of 
19,407 students SOL scores was done. When compared with students in the 
control schools, students in schools with Mathematics Specialists 
performed better on the SOL Mathematics test in each of grades 3, 4 and 
5. Indeed, in each grade their performance was better in each 
subcategory: Number, Number Sense, Computation, Estimation, 
Measurement, Geometry, Probability and Statistics, and Patterns, 
Functions, and Algebra.
    The greatest difference was observed in grade 4 where the 
differences were statistically significant and where SOL tests have 
been most recently introduced. The positive effect of having a coach in 
the school is approximately
    <bullet> 87% of the magnitude of the negative effect of limited 
English proficiency,
    <bullet> 80% of the magnitude of the negative effect of poverty,
    <bullet> 43% of the magnitude of the negative effect associated 
with minority student status on fourth-grade SOL performance.
    In grade 3 the results were not statistically significant, but the 
positive effect was
    <bullet> 85% of the magnitude of the negative effect of limited 
English proficiency,
    <bullet> 52% of the magnitude of the negative effect of poverty,
    <bullet> 27% of the magnitude of the negative effect associated 
with minority student status on third-grade SOL performance.
    In grade 5 the results were not statistically significant, but the 
positive effect was
    <bullet> 42% of the magnitude of the negative effect of limited 
English proficiency,
    <bullet> 47% of the magnitude of the negative effect of poverty,
    <bullet> 31% of the magnitude of the negative effect associated 
with minority student status on fifth-grade SOL performance.
    This analysis has not yet investigated what kinds of activities the 
Specialists engaged in with particular teachers, nor has it 
investigated the expected variability in degree and time of support 
afforded by the Specialists to differing teachers. Inclusion of these 
data will better specify not only the level of involvement and 
therefore potential impact of Specialists with individual teachers, but 
will also characterize more accurately the degree of treatment afforded 
to teachers associated with the nested student SOL data.
    Because this preliminary analysis of student SOL data has not 
accessed teacher--specialist data as collected through the PDAs, the 
current analysis presumes that the impact of a specialist is identical 
for all teachers and all students in each given grade within a school. 
This is not the case. From day to day the Specialists vary in terms of 
the professional development services and instructional support that 
they engage in and in terms of the teachers with whom they work. It is 
anticipated that future analysis accessing teacher-level data will be 
more precise, as this preliminary analysis of the school-level effect 
of Specialists on student achievement has averaged the teacher effect 
across all teachers in the schools.
    School superintendents of the school systems that are participating 
in the research were interviewed at the conclusion of the 2006-07 
school year. At this point one school in each triple had been assigned 
a Mathematics Specialist and two had not. According to the report, 
``they were unanimous in their confidence about the effectiveness of 
the grant's in-school coaching model and their desire to implement it 
in all elementary and middle schools.''
                                appendix
Who Are Mathematics Specialists?
    Mathematics Specialists are teacher leaders with strong preparation 
and background in mathematics content, instructional strategies, and 
school leadership. Based in elementary and middle schools, mathematics 
specialists are former classroom teachers who are responsible for 
supporting the professional growth of their colleagues and promoting 
enhanced mathematics instruction and student learning throughout their 
schools. They are responsible for strengthening classroom teachers' 
understanding of mathematics content, and helping teachers develop more 
effective mathematics teaching practices that allow all students to 
reach high standards as well as sharing research addressing how 
students learn mathematics.
    The overarching purpose for Mathematics Specialists is to increase 
the mathematics achievement of all the students in their schools. To do 
so, they
    <bullet> Collaborate with individual teachers through co-planning, 
co-teaching, and coaching;
    <bullet> Assist administrative and instructional staff in 
interpreting data and designing approaches to improve student 
achievement and instruction;
    <bullet> Ensure that the school curriculum is aligned with state 
and national standards and their school division's mathematics 
curriculum;
    <bullet> Promote teachers' delivery and understanding of the school 
curriculum through collaborative long-range and short-range planning;
    <bullet> Facilitate teachers' use of successful, research-based 
instructional strategies, including differentiated instruction for 
diverse learners such as those with limited English proficiency or 
disabilities;
    <bullet> Work with parent/guardians and community leaders to foster 
continuing home/school/community partnerships focused on students' 
learning of mathematics; and
    <bullet> Collaborate with administrators to provide leadership and 
vision for a school-wide mathematics program.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Staggers?

  STATEMENT OF WANDA T. STAGGERS, MASTER TEACHER AND DEAN OF 
   MANUFACTURING AND ENGINEERING, ACADEMY OF ENGINEERING AND 
                      BIOMEDICAL SCIENCES

    Ms. Staggers. Chairman Miller, Ranking Member McKeon, and 
members of the committee, thank you for the opportunity to 
present before the House of Representatives' Committee on 
Education and Labor.
    During my professional career, I have taught in the fields 
of mathematics, computer science, and engineering both on the 
secondary and post-secondary levels. Mathematics came alive for 
me when I began teaching applied courses in computer science 
and engineering. Mathematics education then surpassed the 
normal tasks of completing textbook problems and I was 
presented with real-world applications--applications with 
results both predictable and unpredictable.
    In 2002, I became a Project Lead the Way master teacher in 
the course Principles of Engineering. The following year, I 
became a master teacher in a second course, Computer Integrated 
Manufacturing. Project Lead The Way helps give middle and high 
school students the rigorous coursework they need to develop 
strong backgrounds in science and engineering.
    The National Mathematics Advisory Panel's report and 
recommendations relative to professional development are 
congruent with the Project Lead The Way model in a number of 
ways. Project Lead The Way rejects what has become commonplace 
in the teaching profession--cursory weekend workshops that get 
educators excited temporarily, but do not actually change what 
goes on in the classroom.
    This model embodies the panel's emphasis on content and 
relevance and includes ongoing support for school counselors, 
administrators, and their technical support staff--no more 
``drive by'' professional development that leaves the teachers 
and the students short-changed and frustrated.
    An essential criterion for achieving effective professional 
development is the appropriate alignment of the teacher's 
skills with the professional development training objectives. 
The National Mathematics Advisory Panel suggests, ``Schools and 
teacher education programs should develop or draw on a variety 
of carefully evaluated methods to attract and prepare teacher 
candidates who are mathematically knowledgeable and to equip 
them with the skills to help students learn mathematics.''
    To determine the teacher's ability to meet the objectives 
of the training experience and to assist teachers in academic 
preparation prior to the training experience, a pre-assessment 
measure should be used. As a result, teachers know more about 
what they are teaching and how to teach it.
    A second criterion for effective professional development 
is active participation. This model provides teachers with 2 
weeks of intense hands-on training. Teachers experience the 
curriculum and instruction in the same way their students will 
in the classroom. The lessons allow opportunities for cross-
discipline instruction with both technology and other academic 
subject areas. The curriculum requires the application of 
science, technology, engineering, and mathematics. Cross-
discipline instruction increases student comprehension and 
retention, and answers the question so often asked by students: 
Why do I need to know this?
    I would like to share one example of the impact that cross-
discipline instruction has had on my classroom. After a 
challenging lesson in truss calculations, Dhaval told one of 
his classmates that he planned to hug his math teacher when he 
saw her the next time. I asked him why. He said had it not been 
for the effective instruction in his algebra II course, he 
would have been lost in the lesson that I had just delivered.
    He went on to say that when he was involved in the math 
course, he had no understanding of why he was doing what he was 
doing. It wasn't until he enrolled in the Project Lead The Way 
classes that he knew how to apply what he had learned.
    A third criterion for effective professional development is 
a modern, flexible support system that is readily accessible 
and accommodates different learning styles. The Project Lead 
The Way model provides an online Virtual Academy that is 
available to teachers upon demand and offers numerous lessons 
in middle school and high school curricula.
    The Project Lead The Way ListServ is available to teachers 
as a resource for technical assistance and as a forum to share 
ideas for advanced applications and tap into the expertise from 
their peers. Teachers can post questions on the ListServ and 
will most likely receive a solution within 15 minutes from 
another teacher anywhere in the country. This system encourages 
camaraderie and fosters a professional environment that is 
often lacking in other professional development models.
    After 6 years of training high school teachers during 
Project Lead The Way summer training institutes, I have heard 
overwhelmingly from teachers that they come away from the 
experience with a rejuvenated interest in teaching. After 
returning to the classroom, teachers report that they felt more 
confident in the use of technology and better informed on 
current issues in science, engineering, and mathematics.
    Many school districts decline to offer technology programs 
due to the high cost of equipment, but in reality technology 
programs provide real applications for mathematics and science, 
while preparing the student for the workforce or post-secondary 
education.
    As you and your colleagues consider education policy, I 
hope you consider the recommendations of the Math Panel with 
regard to professional development. As my experience with 
Project Lead The Way shows, the ideas and concepts are sound 
and should be elements of any professional development effort, 
federal or otherwise.
    I would just like to add one last thing. I have a student 
who built a model of an airplane in the classroom. He used 
algebra, geometry, trigonometry, auto-desk inventor software, 
education software, and the CNC mill to build that airplane out 
of 18 individual parts. That was an application of everything 
he learned in his 11 years of school.
    Thank you for the opportunity to present, and I look 
forward to answering any questions you may have.
    [The statement of Ms. Staggers follows:]

Prepared Statement of Dr. Wanda Talley Staggers, Dean of Manufacturing 
             and Engineering, Anderson School District Five

    Chairman Miller, Ranking Member McKeon and Members of the 
Committee, thank you for the opportunity to present before the House of 
Representatives Committee on Education and Labor.
    During my professional career, I have taught in the fields of 
mathematics, computer science, and engineering both on the secondary 
and post-secondary levels. Mathematics came alive for me when I began 
teaching applied courses in computer science and engineering. 
Mathematics education then surpassed the normal tasks of completing 
textbook problems and I was presented with real-world applications--
applications with results both predictable and unpredictable. I am 
currently I enrolled in the General Engineering Technology Associate 
degree program at Tri-County Technical College in Pendleton, South 
Carolina so that I can be better prepared in the field of engineering. 
I want to create an environment that emphasizes critical thinking 
skills, helps students make logical connections, and instills the 
desire and excitement to learn more about science, technology, 
engineering, and mathematics and how it affects our world.
The History of Project Lead The Way\TM\
    In 2002, I became a Project Lead The Way\TM\ master teacher in the 
course Principles of Engineering. The following year, I became a master 
teacher in a second course, Computer Integrated Manufacturing. Project 
Lead The Way\TM\ helps give middle and high school students the 
rigorous coursework they need to develop strong backgrounds in science 
and engineering.
    The National Mathematics Advisory Panel's report and 
recommendations relative to professional development are congruent with 
the Project Lead The Way model in a number of ways. Project Lead The 
Way\TM\ rejects what has become commonplace in the teaching 
profession--cursory weekend workshops that get educators excited 
temporarily, do not actually change what happens in the classroom. This 
model embodies the panel's emphasis on content and relevance and 
includes ongoing support for school counselors, administrators, and 
their technical support staff. No more ``drive by'' professional 
development that leaves the teacher, the school and the students short-
changed and frustrated.
Project Lead The Way\TM\ Three Phase Professional Development
    An essential criterion in achieving effective professional 
development is the appropriate alignment of the teacher's skills with 
the professional development training objectives. The National 
Mathematics Advisory Panel suggests, ``Schools and teacher education 
programs should develop or draw on a variety of carefully evaluated 
methods to attract and prepare teacher candidates who are 
mathematically knowledgeable and to equip them with the skills to help 
students learn mathematics.'' To determine the teacher's ability to 
meet the objectives of the training experience and to assist teachers 
in academic preparation prior to the training experience, a pre-
assessment measure is used. As a result, teachers know more about what 
they are teaching and how to teach it.
    A second criterion for effective professional development is active 
participation. This model provides teachers with two weeks of intense 
hands-on training. Teachers experience the curriculum and instruction 
in the same way their students will in the classroom. The lessons allow 
opportunities for cross-discipline instruction with both technology and 
other academic subject areas. The curriculum requires the application 
of science, technology, engineering, and mathematics. Cross-discipline 
instruction increases student comprehension and retention, and answers 
the question so often asked by students, ``Why do I need to know 
this?''
    I would like to share one example of the impact that cross-
discipline instruction has had on my classroom. After a challenging 
lesson in truss calculations, Dhaval told his classmates he planned to 
hug his math teacher the next time they crossed paths. Slightly 
confused, I asked him why. He replied that had it not been for his math 
teacher's effective instruction in his Algebra 2 course, he would have 
been lost in the truss calculation lesson that I had given. Dhaval went 
on to say that while he was in the math course, he failed to see 
relevance for the material learned but since enrolling in the Project 
Lead The Way\TM\ courses, he has applied the mathematical procedures to 
solve many problems.
    A third criterion for effective professional development is a 
modern, flexible support system that is readily accessible and 
accommodates different learning styles. The Project Lead The Way\TM\ 
model provides an online Virtual Academy that is available to teachers 
upon demand and offers numerous lessons in middle school and high 
school curricula. The Project Lead The Way\TM\ ListServ is available to 
teachers as a resource for technical assistance and as a forum to share 
ideas for advanced applications and tap into the expertise from their 
peers. Teachers can post questions on the listserv and will most likely 
receive a solution from another teacher, who could be from any where in 
the country, within 15 minutes. This system encourages camaraderie and 
fosters a professional environment that is often lacking in other 
professional development models.
    South Carolina and other states offer Project Lead The Way\TM\ 
ongoing professional development during the fall and spring of the 
academic year. Through partnership agreements with Piedmont Technical 
College and Orangeburg-Calhoun Technical College, teachers receive 
additional professional training from statewide master teachers. The 
college partners provide equipment and materials. Teachers work 
together in small groups, assist one another in weak areas, and share 
best practices. Once again, the professional development is 
specifically aligned with the needs and interests of the teachers and 
the curriculum they teach. Technical support is also available for 
hardware and software challenges. These ongoing training and 
partnership agreements are organized through the South Carolina State 
Department of Education.
    Finally, the certified Project Lead The Way\TM\ schools are subject 
to a certification process that involves the state university partner 
and the State Department of Education. This certification process 
occurs every five years and ensures that the schools deliver the 
curriculum to the standards established by Project Lead the Way. One of 
the criteria for Master Teacher status is that the teacher must teach 
at a Project Lead The Way\TM\ certified school. Only Project Lead The 
Way\TM\ certified schools may administer the college credit portion of 
the end-of-course assessments to qualified students. Students scoring 
successfully on the national Project Lead The Way\TM\ end-of-course 
college examination may apply for college credit at more than 30 four-
year institutions across the nation and at an even larger number of 
two-year institutions.
In Closing
    After six years of training high school teachers during the Project 
Lead The Way\TM\ Summer Training Institutes across the nation, I have 
heard overwhelmingly from teachers that they come away from the 
experience with a rejuvenated interest in teaching. After returning to 
the classroom, teachers reported that they felt more confident in the 
use of technology and better informed on current issues in science, 
technology, engineering, and mathematics.
    The National Mathematics Advisory Panel recommends, ``* * * 
teachers must be given ample opportunities to learn mathematics for 
teaching.'' I couldn't agree more. A well-prepared teacher must be 
given the tools, technology, and time to advance in their field. That 
is, teachers must understand in detail and from a more advanced 
perspective the mathematical content they are responsible for teaching 
and the connections of that content to other relevant disciplines. But 
it is important to note that even the best teacher preparation cannot 
overcome poor leadership and inadequate administrative support.
    Many school districts decline to offer technology programs due to 
the high cost of equipment but in reality, technology programs provide 
real applications for mathematics and science while preparing the 
student for the workforce or post-secondary education. Because of 
funding issues, inequities in school programs exist across the nation, 
across the state, and even within the same city. Graduates from these 
schools compete in the same classroom at local colleges and state 
universities. I am fortunate to be employed by a district that 
recognizes the importance of professional development, the impact that 
technology has on education, and the impact of both on student 
achievement.
    As you and your colleagues consider education policy, I hope you 
consider the recommendations of the Math Panel with regard to 
Professional Development. As my experience with Project Lead They Way 
shows, the ideas and concepts are sound and should be elements of any 
professional development effort, federal or otherwise.
    Thank you again for this opportunity, and I look forward to 
answering any questions you might have.
                                 ______
                                 
    Chairman Miller. Thank you very much, Dr. Staggers.
    Dr. Wolf, I think she set you up for your testimony here.
    Ms. Wolf. I know. Isn't that nice? Thank you. [Laughter.]
    Chairman Miller. You guys worked out this segue here.

STATEMENT OF MARY ANN WOLF, EXECUTIVE DIRECTOR, STATE EDUCATION 
                TECHNOLOGY DIRECTORS ASSOCIATION

    Ms. Wolf. Good morning. Thank you, Chairman Miller, 
Representative McKeon and the committee for inviting me to 
testify today.
    I would like to also especially thank Representative 
Hinojosa and Representative Biggert for being the lead 
cosponsors on the Achievement Through Technology and 
Innovation, or the ATTAIN Act.
    I am Mary Ann Wolf with SETDA, which represents the 
education technology leaders and the SEAs in all 50 states. Our 
members agree wholeheartedly with the National Math Panel 
report on the need and the potential to improve math education.
    I would now like to take you to a small school district in 
Floydada, Texas, where the median household income is $27,000 
and only about 57 percent of the population has a high school 
degree. You can imagine that with these demographics, many 
students have very limited experience and a narrow vision for 
their education.
    This school district made strategic decisions to change 
learning for kids forever by providing access to technology 
tools and resources, through relevant instruction being taught 
by teachers who had ongoing and sustainable professional 
development. I will tell you, it transformed Floydada.
    Imagine the student who never understood why algebra 
mattered, and introduce a lesson that asked him to figure out 
how much the rising gas prices affected his family. Technology, 
including collaboration on the interactive white boards, 
graphing and modeling formulas to learn algorithms, and 
visually mapping out the problem contributes to a deeper 
learning in these math skills and connects to 21st century 
learning.
    Suddenly, Algebra I, often cited as the gateway to 
graduation, is relevant. Tenth grade math scores in Floydada on 
the state exam went up by 36 percent, and sixth grade math 
scores went up by 29 percent. This took a comprehensive 
approach that affected all stakeholders, but it is possible. It 
was part of a bigger state initiative called the Technology 
Immersion Pilot, which focuses on using technology for systemic 
reform. This is critical as we consider what we can do to 
address the teaching and learning of math.
    The students in kindergarten this year will graduate in 
2020. At some point, all kids come to us wanting to learn, even 
math, and we just lose them sometime along the way. I think 
this is our responsibility and our opportunity.
    SEDTA worked with the Partnership for 21st Century Skills, 
ISTE, and many stakeholders to address what America needs to be 
competitive. In the maximizing-the-impact book, the pivotal 
role of technology in a 21st century education, we concluded 
that in a digital world, no organization can achieve results 
without incorporating technology into every aspect of its 
everyday practices. It is time for schools to maximize that 
impactive technology as well. This is especially true for 
mathematics.
    In Vallejo, California, the sixth-and seventh-grade math 
teachers received ongoing sustainable professional development 
to integrate technology into the classroom. Teachers learned to 
use new models for teaching the content in a more effective 
way. Vallejo focused on the lowest-performing students. In one 
lesson, students were involved in a game show class quiz format 
for content review, but teachers received immediate feedback to 
individualize instruction to reach those students previously 
unsuccessful. The district has seen large gains on state math 
test scores and approximately 40 percent of those students 
moved up an entire performance band in the first year.
    Similar to the Texas TIP program in Floydada, Utah, 
Missouri and Maine have implemented the eMINTS program, which 
provides classrooms and schools with technology tools, 
curriculum and over 200 hours of professional development. 
These students are able to reach the NCLB goals and 21st 
century skills.
    In Utah, where eMINTS and control classrooms existed in the 
same school, eMINTS students repeatedly achieved over 10 
percent higher on state exams. In Missouri, after 6 years of 
looking at fourth grade math data, eMINTS students in special 
education, low-income, entitlement sub-groups have reduced the 
achievement gap in test scores between the performance of their 
peers by one-half. The achievement gap is closing.
    As has been mentioned very effectively, there is a 
tremendous opportunity with technology to make professional 
development ongoing and systemic. Programs like ACCESS in 
Alabama, IDEA in Arizona, and eLearning Delaware lead to 
changes in teaching and learning. Virginia has also implemented 
instructional technology coaches.
    Technology is also very important for formative assessment. 
The Philadelphia public schools implemented an instructional 
management system to frequently assess individual student 
achievement, which has contributed to the increase in AYP 
schools from 58 to 132 schools over 2 years, and math 
achievement went up by 14 percent. Again, knowing what kids 
know and what they need to know makes a big difference.
    The good news is that we have many strong examples in 
written testimony. The bad news is that a Department of 
Commerce study determined that out of 55 industries, education 
was dead last in the use of technology. Now is the time to 
maximize technology for all kids.
    We appreciate the committee's support through the EETT 
Program, NCLB, and the ATTAIN Act and the draft reauthorization 
of ESEA. The ATTAIN Act builds upon the data that is shared 
today, and focuses on systemic and strategic approaches to 
technology. ATTAIN will serve as a catalyst for more students 
to have a 21st century education system.
    To conclude, federal leadership must be bold to help 
transform how we teach, learn and apply math for our 
competitiveness and innovation. This is possible even for high-
need kids like in Floydada, but it will take a concerted effort 
by you, by the states, by district, and by all stakeholders and 
educators.
    We ask that you specifically recognize the important role 
of technology in all education legislation. We can't afford to 
miss this opportunity that technology provides to engage 
students, to improve instruction and teacher quality, and to 
ultimately raise student achievement in math so that our 
students are prepared for the 21st century.
    Thank you.
    [The statement of Ms. Wolf follows:]

 Prepared Statement of Mary Ann Wolf, Ph.D., Executive Director, State 
          Educational Technology Directors Association (SETDA)

    Good Morning. Thank you to Chairman Miller, Representative McKeon, 
and the Committee for inviting me to testify today. I would like to 
especially thank Representative Hinojosa and Representative Biggert for 
sponsoring the Achievement through Technology and Innovation (ATTAIN) 
Act. I am Mary Ann Wolf with SETDA, the State Educational Technology 
Directors Association. Our organization represents the educational 
technology leaders in the SEAs in all 50 states, Washington, DC, and 
American Samoa. Our members tackle issues ranging from using data to 
inform and individualize instruction for each child, providing the 
technology tools necessary to modernize our schools and engage the 21st 
Century learner, as well as providing innovative approaches to envision 
a ``new norm'' for America's students. Our members agree wholeheartedly 
with the National Mathematics Advisory Panel Report on the need to 
improve math education in this country.
    As we consider America's and our students' competitiveness and the 
continued discouraging graduation rates, we are encouraged by the 
evidence we have about programs that make a difference for our 
students. The examples and data below address the following areas:
    <bullet> Maximizing the Impact: The Pivotal Role of Technology in a 
21st Century Education System
    <bullet> Teaching and Learning Math: Improving Student Achievement 
and Increasing Student Engagement
    <bullet> Professional Development: Training That Changes Practice 
and Instruction
    <bullet> Formative Assessment: Using Real Time, On-going Data to 
Individualize Instruction
Maximizing the Impact: The Pivotal Role of Technology in a 21st Century 
        Education System
    As we look to America's future, we must also reflect on the 
present. Only 7% of U.S. college students currently major in math or 
science fields, and this number decreases to 3% by the end of the first 
year of college. More than 57% of our post-doctoral engineering 
students are from outside of the U.S., and U.S. Patent applications 
from the Asian countries grew by 759 % from 1989 to 2001. Patent 
applications from the U.S. during the same period grew at 116 %. High-
speed global networks enable nearly instantaneous communication, 
collaboration and knowledge sharing which gives our competitors more 
advantages than they had in the past. Any approach to our challenge of 
educating America's youth must rely on technology solutions that are 
scalable, flexible, reliable, and have the ability to cost-effectively 
individualize education for all students. The opportunity cost for not 
addressing this challenge and improving math learning is too high, and 
education stakeholders must be bold and specific in efforts to improve 
math achievement.
    As identified in the SETDA Math Toolkit, the use of technology can 
support the teaching and learning of mathematics by bringing a 
multitude of learning experiences to captivate student interest and 
build mathematics understanding, proficiency, application and 
confidence. Mathematical understanding is increased when students and 
teachers use and apply technology to investigate mathematical concepts; 
including visualization, modeling, representation, simulation and 
communication. Students learn mathematics in different ways, and we 
need to provide technology, resources, varied instructional strategies 
and skills that allow them to excel, deepen their understanding and 
maximize their potential. Students build mathematical knowledge and 
understanding of mathematical concepts through problem solving. 
Educational technology strengthens the connection of mathematical 
topics in different contexts. (2007, www.setda.org)
    The students in Kindergarten this year will graduate in 2020. In 
some schools, in some districts, in some states, students are receiving 
an education that can be identified as meeting the needs of the 21st 
Century students. It is our responsibility to ensure America is 
maximizing its potential, both in closing the achievement gap and 
addressing the needs of high achieving students who will be our 
nation's next innovators. NCLB provides us with accountability goals 
for our students, districts, and states; but as we look at the big 
picture around America's and our students' competitiveness, it often 
seems that how the majority of schools have responded to NCLB directly 
contradicts what we know about ensuring that our students are prepared 
for the 21st Century global economy. I would argue that this does not 
need to be the case. Technology can help address core content 
achievement and 21st Century Skills for children of all abilities and 
achievement levels.
    When we talk about technology, we are not talking about putting 
some computers in the back of a classroom--we are talking about 
utilizing the power of technology to change the way teachers teach and 
children learn. While many of you cannot imagine your workday without 
technology to access resources or communicate, this is still not the 
case for many students and teachers on a typical school day.
    Unfortunately, we cannot assume that technology has been maximized 
in most schools--a Department of Commerce study shared that education 
was actually 55th out of 55 industries studied in use of technology. 
The education community needs to invest in technology and embrace its 
uses just as the business community transformed its practices 
throughout the last 20 years. Again, technology will only be maximized 
when it is used for practical and contextual solutions such as 
individualizing instruction, engaging students, and providing access to 
rigorous and dynamic content for teachers, students and parents. When 
technology is used only for supplemental instruction, it cannot act as 
the transformational force helping us ready our children for the 21st 
century workforce.
    SETDA recently worked with the Partnership for 21st Century Skills, 
the International Society for Technology in Education (ISTE), and a 
broad cross-section of business and philanthropic stakeholders in 
education, including Apple, Cisco, ENA, the Oracle Foundation, and the 
Pearson Foundation, to address the important question: ``How will we 
create the schools America needs to remain competitive?'' Maximizing 
the Impact: the Pivotal Role of Technology in a 21st Century Education 
System provides a blueprint and examples on how technology makes a 
difference in teaching and learning.
    For more than a generation, the nation has engaged in a monumental 
effort to improve student achievement. We've made progress, but we're 
not even close to where we need to be. It's time to focus on what 
students need to learn--and on how to create a 21st century education 
system that delivers results. In a digital world, no organization can 
achieve results without incorporating technology into every aspect of 
its everyday practices. It's time for schools to maximize the impact of 
technology as well. (Maximizing the Impact, 2007 found at http://
www.setda.org/web/guest/maximizingimpactreport.)
    This is especially true for mathematics. Students should have a 
strong understanding of mathematical knowledge and skills, and the 
ability to apply it in relevant problem solving situations using 
inquiry and investigation, collaboration, and critical thinking skills. 
STEM education should be for ALL students--not just the cream of the 
crop who has access to the magnet option. STEM education is 
interdisciplinary providing context around math, science and 
engineering to engage students who will thrive and become competitive 
leaders in the global economy.
    Educators should have a deep understanding of mathematical concepts 
and their applications to relevant problem solving situations, and 
should continue to gain insight and understanding of strategies and 
methods to encourage their students to learn, use and be intrigued by 
mathematics. Math teachers should work in cadres inside the school or 
utilize technology to collaborate with like-subject teachers in other 
schools for peer-to-peer professional development and collaboration to 
hone pedagogical approaches as well as specific content knowledge in 
the subject. STEM teams can also collaborate using this method to 
provide powerful learning opportunities for teachers and students. 
Technology helps accomplish these goals.
    It is our responsibility to ensure that our children are prepared 
to lead our country in the 21st century, which includes a deep 
understanding and usage of math and its core concepts. The role of 
technology to transform education into a system that can achieve this 
goal must be at the forefront. We must rely on technology solutions 
that are scalable, flexible, reliable, and have the ability to cost-
effectively individualize education for ALL students.
Teaching and Learning Math: Improving Student Achievement and 
        Increasing Student Engagement
    We are beginning to know what makes a difference in teaching and 
learning math. The same practices and instructional methods that affect 
student engagement and achievement in math increase student achievement 
in other areas as well. The development of programs that include key 
tools, rigorous and dynamic resources, leadership, and professional 
development are proving to have real, significant impact as evidenced 
through research funded by the US Department of Education. The systemic 
reform models shared below lead to increases in mathematics achievement 
and have many commonalities. In all cases teachers had the technology 
tools and resources to utilize in planning and in instruction, and 
teachers received extensive on-going and sustainable professional 
development. In math instruction, these strategies included 
collaborative learning, relevant projects and content, using tools and 
resources to address various learning styles, and problem solving, in 
addition to learning facts. Professional development to change 
instructional strategies was critical to the transformation of teaching 
and learning.
    <bullet> California: In the 6th and 7th grades in Franklin Middle, 
Solano Middle, Springstowne Middle, and Vallejo Middle Schools, math 
teachers are trained to integrate technology into the classroom, they 
saw how the technology could be used to hit key points, engage 
students, use modern tools in ways they had never tried. When teachers 
learned new strategies, it strengthened their teaching with technology, 
but it also energized their overall teaching as they applied the 
strategies to other areas. Teachers, who have taught math for many 
years, learned and used new models for teaching the content in a more 
effective way. These teachers would not have shifted without the 
impetus of this program. Results include:
    <bullet> Formative Assessment, Gaming & Accountability: Vallejo 
focused on the lowest performing students in 6th and 7th grade. 
Typically, these students don't engage in the learning environment. 
Since the program uses different types of technology in the classroom, 
there are multiple opportunities to engage the students. Students loved 
using technology in a game show/class quiz format for content review. 
What they didn't realize was that the instant feedback strengthened the 
teaching and provided data to individualize instruction.
    <bullet> Differentiated Instruction & Just in Timing Learning: 
PowerPoint presentations were used in many classes. Because of the high 
absentee rate at the schools, students could review the presentations 
that they missed to get caught up with the class. The math program uses 
technology to explore and develop concepts and then reinforce skills. 
Most importantly, this transition from concepts to skills was on pace 
with the learners abilities. By differentiating the instruction with 
technology, teachers are able to reach previously unsuccessful 
students.
    <bullet> Increased Student Achievement: The district saw large 
gains on CST scores for the target students, the 50 lowest-performing 
students in each middle school. Approximately 40% moved up one 
performance band in the first year. The two-year objective was met in 
the first year.
    <bullet> North Carolina: In North Carolina, several high poverty 
elementary and middle schools implemented the IMPACT systemic reform 
program. The model involves using technology in the teaching of core 
curricular areas to improve student achievement, utilizing technology 
coaches and school library media specialists for on-going professional 
development, as well as learning 21st Century Skills. In these schools, 
teachers use technology to differentiate instruction based on formative 
assessment, utilize technology to engage students with various learning 
styles, and provide curricular options for students based on 
achievement. Students collaborate, apply knowledge to real-world 
problems, and receive repetition and enrichment as needed. For more 
information, go to: http://www.ncwiseowl.org/Impact/. Findings include:
    <bullet> In a four year study, students in the high need schools 
with the IMPACT program have demonstrated that they are 33% more likely 
to improve one full grade level each year than the control/comparison 
schools.
    <bullet> Teacher retention is 65% higher with this program.
    <bullet> In Math specifically, the odds that IMPACT students would 
go from non-passing to passing status over the three years were 42% 
higher than that for comparison students.
    <bullet> In the fourth year, the odds of IMPACT students passing 
the Math end of grade tests were 24% higher than that of comparison 
students. This effect was stronger in earlier grades.
    <bullet> Texas: In Texas, the Technology Immersion Pilot (TIP) 
provides a school with the technology resources it needs to change 
teaching and learning (for teachers and students), on-going and 
sustainable professional development for teachers and leaders, the 
ability to utilize data in an on-going and sustainable manner, and the 
involvement of parents, leaders, and other stakeholders. This program 
focuses primarily on middle schools, and provides the environment and 
support to maximize the potential of technology to transform teaching 
and learning. A recent article succinctly highlights the results in two 
districts: http://www.thejournal.com/articles/20931--1. The program 
site can be found at: http://www.txtip.info/. Findings include:
    <bullet> Overall, discipline referrals went down dramatically with 
the changes in instruction and engagement, which provided additional 
opportunities for teaching and learning.
    <bullet> In one school, 6th grade standardized math scores 
increased by 5%, 7th grade by 42%, and 8th grade by 24%.
    <bullet> In Brady ISD, 7th grade math scores increased by 13 
points.
    <bullet> In Floydada ISD, 6th grade standardized math scores 
increased by 29 points, and 10th grade standardized math scores 
increased by 36 points.
    <bullet> Utah, Missouri, and Maine: In Utah, Missouri, and Maine, 
the eMINTS program provides schools and teachers with educational 
technology tools, curriculum, and over 200 hours of professional 
development to change how teachers teach and students learn. Utilizing 
21st Century skills, relevant content, and collaboration are all key to 
the instructional strategies used in eMINTS classrooms. eMINTS changes 
how teachers teach and how students learn. Students in eMINTS 
classrooms no longer have to ``power down,'' disconnect or disengage 
from the excitement and motivation the technology brings to their 
world. Teachers in eMINTS classrooms at all grade levels (3-12) report 
significant increases in student attendance and significant decreases 
in student behavior disruptions. Students in eMINTS classrooms are 
fully engaged in authentic projects that utilize technology and provide 
opportunities for students to hone the skills they will need to compete 
in the 21st Century, Missouri has evaluated this program for 8 years, 
and other states are conducting evaluations, as well. The following 
link provides a strong overview of the program: http://www.emints.org/ 
and findings are found at http://www.emints.org/evaluation/reports/. 
Findings include:
    <bullet> In Utah, classrooms in the same school (one with eMINTS 
and one without), the student achievement of students in the eMINTS 
classroom was repeatedly over 10% higher than the control classroom. In 
Title I buildings participating in the eMINTS-4-Utah initiative, a 
greater percentage of 4th--6th grade students enrolled in eMINTS 
classrooms scored at proficient levels on the UPASS CRT tests for 
language arts, mathematics, and science than did 4th-6th grade students 
in non-eMINTS classrooms.
    <bullet> After 6 years of data in Grade 4 Mathematics, eMINTS 
students in subgroups (special education, low income, and Title I) have 
reduced the gap in test scores between their performance and their 
peers by up to \1/2\ of the difference attributable to subgroup 
classification.
    <bullet> In another district that had not met AYP goals, teachers 
began implementing the eMINTS program. After using the eMINTS approach 
with extensive professional development, the 3rd grade math scores 
increased by more than the 15% goal and made AYP in every subgroup.
    In addition to the systemic reform approaches mentioned above, 
states and districts are experiencing success in key areas for 
improving math achievement for more students, including:
    <bullet> Access to Rigor and Remediation (Alabama):Alabama's ACCESS 
(Alabama Connecting Classrooms, Educators, and Students Statewide) has 
redesigned the model for distance learning, by tailoring rigorous 
online courses and interactive videoconferencing services to the needs 
of individual students. The program is currently offering 10 AP 
courses--many of the enrollments are from rural schools that had never 
offered an AP course before. Dr. Major-McKenzie, superintendent of the 
rural Dallas County School System, states that, ``ACCESS has helped the 
Dallas County School System maintain and expand course offerings when 
we were either unable to recruit or fund a highly qualified teacher. 
Without ACCESS, students at my high schools would not have been able to 
participate in courses such as Advanced Placement Calculus, Latin, or 
Shakespeare. Additionally, almost 5,000 students have received 
remediation and supplemental resources and more than 14,000 half-
credits have been awarded. With high-quality courses that are engaging 
students through the utilization of 21st Century skills, Alabama is 
addressing its immediate need to decrease school dropout rates, 
increase high school graduation rates, and prepare its students to be 
competitive on a global scale.''
    <bullet> Student Engagement: Building Conceptual Understanding, 
Collaborating with Others, and Motivating Students (Oregon): In Oregon, 
students built collaboration skills, confidence, and critical thinking. 
Teachers shared that there is nothing more amazing than watching a 
young, shy child stride up to the front of the classroom, place their 
math work under the document camera and confidently explain to their 
classmates the way and the why of how they solved the problem. 
Technology offers this student the opportunity to share his/her work in 
this way, gives student opportunities to share their learning, speak 
publicly and to defend their thought processes. Oregon Department of 
Education has realized how interactive whiteboards and tablets in their 
classrooms enhance student learning. One of the teachers using these 
tools in her classroom is a middle school math teacher. She 
enthusiastically reports that the level of engagement amongst her 
students has risen dramatically and that she has the ability to move 
around her room for better classroom management.
    <bullet> Building 21st Century Skills & International Awareness in 
Math (Illinois): A small school in Villa Park, Illinois participates in 
World Math Day. This amazing event allows the whole school, including 
teachers to participate in around the world math competition. This 
child-centered educational website selects 4 users out of 160 
participating countries to compete in simple addition, subtraction, 
multiplication, and division facts in 60 seconds. During the game users 
can see the flag and map of the countries they are competing against, 
as well as the progress of the other users in the game. At the end of 
the 60 seconds, the user is given a progress summary with correct 
answers to missed problems. Upon breaking record scores, users achieve 
credit. The Villa Park school had a record of approximately 70,000 
correct questions answered on March 7, 2008. A new world record was 
set, with over 182,450,000 math problems solved in one day.
    <bullet> Student Engagement: Building Conceptual Understanding, 
Collaborating with Others, and Motivating Students (New Jersey): 
Wharton Borough Public School District in New Jersey developed a 
program focused on integrating technology into the math curriculum in 
grades 6-8. In the Bridge Project, students plan for the construction 
of a new bridge over the Hudson River to meet the needs of the expected 
increase in future traffic. Teachers report that students are highly 
engaged, spend more time on task, and are reluctant to leave/miss Math 
class for other activities. Overall, last year the percentage of 
students scoring in the GEPA Mathematics (state standardized test) 
proficient ranges increased to the highest percentage in the district's 
history (69.8%). The bridge project was one part of New Jersey's Math 
Achievement to Realize Individual eXcellence (MATRIX) grant program 
(2004-2007) designed to increase student achievement in mathematics in 
grades 6 through 8 by providing classroom teachers with ongoing 
professional development and in-class support that focuses on 
integrating technology into the curriculum and instruction. In 
Gloucester City Public Schools, a low-socioeconomic area ``in need of 
improvement'' interactive white boards were introduced into middle 
school math classrooms. Multimodal lessons addressing visual learners 
were posted to the district's servers making them available to all 
teachers. Math scores in this middle school have increased by 16 
percentage points since the program was implemented.
    <bullet> Blended Approaches to Address Varied Learning Styles 
(Texas): Brownsville in Cameron County, La Joya ISD, and Pharr San Juan 
Alamo ISD in Texas utilize enVisionMath which utilizes a blend of 
print, digital and active paths to engage and challenge students and 
support teachers as they address different learning styles and 
differentiate instruction.
Professional Development: Training That Changes Practice and 
        Instruction
    Professional development must change teacher practice and 
instruction to effectively increase math achievement. Joyce and Showers 
(2002, 1995) found that the isolated, workshop approach has less than a 
5% chance of influencing instruction, but on-going and sustainable 
professional development involving modeling, mentoring, and/or coaching 
increases the likelihood for teachers to change instructional practices 
to almost 90%. States, districts, and schools can utilize technology to 
get beyond the traditional two hour workshop and provide meaningful 
professional development and resources to teachers. Teachers can engage 
in on-going and job embedded professional development through access to 
on-line courses, professional learning communities, and education 
portals with resources and lesson plans. This is particularly critical 
in rural and inner-city areas where these opportunities are often 
limited. Instructional technology coaches or mentors in schools provide 
opportunities for collaboration on planning and co-teaching to help 
teachers utilize new practices and resources. The systemic reform 
approaches identified above in the Texas TIP, Missouri eMINTS, and 
North Carolina IMPACT programs each utilize high quality professional 
development with these important qualities.
    <bullet> Instructional Coaches or Mentors (North Carolina): IMPACT 
schools is largely a result of the role the school library media 
coordinator or technology learning facilitator plays in working with 
small groups and individual teachers to provide professional 
development and modeling as more and more technology is used to engage 
students in instructional units. Teachers work together to develop new 
lesson plans, consider how to facilitate learning, and utilize data to 
individualize instruction. As ideas are shared, new technology tools 
are incorporated to enhance the unit. Often the new tool is 
demonstrated or even taught during the meeting, or a special training 
date is determined for additional professional development. This type 
of planning and collaboration among teachers results in a 
transformation of learning, and the results are significant.
    <bullet> Improving Content and Pedagogy (Louisiana): Louisiana is 
offering online professional development courses to help teachers 
engage students in Math. They are providing online courses so that they 
have the capacity to reach more teachers, in more districts and 
schools, and better prepare them for their roles in the ever-changing 
classroom setting. 12 modules were developed covering topics from 
Concept of a Variable to Measures of Central Tendency. Each module 
focuses on a specific algebraic content topic and includes elements of 
instructional strategies and lesson planning. Furthermore, modules 
include online readings and resources, interactive activities, online 
discussion prompts and optional enrichment activities.
    <bullet> Online Courseware & Use of Data (Delaware): Delaware 
provides access to online courses through eLearning Delaware. Teachers 
have access to several clusters of courses, including the Secondary 
Math cluster focused on the skills and knowledge necessary to use 
virtual manipulatives with algebra lessons; applying meaningful data to 
apply in the math classroom; and developing strategies to encourage and 
promote the formation of algebraic thought processes in students. 
Teachers take three online courses developed by EDC (Education Resource 
Center): (1) Getting Ready for Algebra with Virtual Manipulatives; (2) 
Using Real Data in the Math Classroom; and (3) Using Patterns to 
Develop Algebraic Thinking. Each course takes place entirely online 
over a six-week period, and the culminating activity is the piloting of 
three lessons developed throughout the three courses. Teachers connect 
with other teachers in the on-line environment to ensure on-going and 
sustainable professional development.
    <bullet> Professional Learning Communities and Education Portals: 
As our education system strives to ensure that our students are 
competitive in a 21st Century global economy, it is critical that 
educators have access to high quality resources, data, and tools to 
guide teaching and learning. An Education Portal is a one-stop resource 
for educators to support teaching, learning, and leading. Portals 
include access to resources and an entry point to other information or 
services, including subscriptions or data systems, content standards, 
lesson plans, courses of study, Web resources, listservs, and other 
educational resources. This includes technology-based curriculum 
resources and tools that promote 21st Century teaching and learning. A 
portal allows educators to quickly search for lesson plans or other 
resources by content standard, grade level, and/or topic. Ideally, a 
portal also provides an on-line community for educators to collaborate 
and discuss teaching and learning and experiences as an educator. 
State-wide portals provide equity of access to teachers regardless of 
district, high quality resources that address teaching and learning 
needs to ensure students are prepared for the 21st Century global 
economy, on-line communities of learning to support the improvement of 
teaching and learning, and access to formative assessments and other 
resources to address various learning styles, needs, and achievement 
levels. Alabama, Arizona, Massachusetts, and other states have 
implemented portals as an essential part of professional development 
and resources for teaching math. The Ohio example from Garfield Heights 
includes achievement data:
    <bullet> Ohio: eTech Ohio and the Ohio Department of Education 
(ODE) helped schools develop and implement lessons aligned to the 
academic content standards for math and English/language arts. This set 
of web-based curriculum management and instructional design tools allow 
for online content/course development and management, or an ``off-the-
shelf'' course/learning management system. Maple Leaf Intermediate 
School in Garfield Heights, Ohio serves approximately 600 students. 
Maple Leaf is considered a Title I school and 50% of the students are 
eligible for free or reduced lunch. Maple Leaf has a very diverse 
ethnic population: 33% of the students are African American, 63% are 
Caucasian, 2% are Asian, 2% are Hispanic, and less than 1% are 
Filipino. Student achievement in mathematics dramatically increased as 
the school increased the use of technology in daily classroom 
instruction. Of two classes taught by the same teacher, the class that 
utilized the CompassLearning online tool has a 14% higher passage rate 
on the Ohio Math Proficiency Test than that of the class that did not 
use this technology tool.
Formative Assessment: Using Real Time, On-going Data to Individualize 
        Instruction
    Timely information about individual students is a critical 
component in changing the way that teachers teach and students learn 
math. Statewide longitudinal data systems are very important for 
accountability and reviewing overall curriculum and instruction. 
Additionally, teachers need access to data to assess the progress of 
their students on a regular basis in order to individualize 
instruction, allowing for the remediation or enrichment as needed, for 
each and every student. Many districts and states are utilizing 
programs and systems that provide teachers with formal and informal 
assessments to track student progress weekly or even daily. This keeps 
students on-track with achievement, but also provides opportunities for 
students to participate in engaging activities based upon abilities and 
needs. The examples below provide two approaches to tying formative 
assessment to the curriculum to individualize instruction:
    <bullet> Michigan: Several districts in Michigan utilize Carnegie 
Learning's Cognitive Tutor for Algebra I, a software program that 
assesses students' individual needs, creates an easy-to-follow regimen, 
allows students to work at their own pace, provides instant feedback, 
and can be used on any computer in any location. Wayne Regional 
Education Service Area is just completing its first year of a 
partnership with Carnegie Learning originally designed to address 
mathematics deficiencies in High Priority schools, and was ultimately 
expanded to allow all districts in the county to participate. In the 
first year they've provided math curriculum to 10,000+ students in 16 
districts, and have provided professional development to upwards of 500 
teachers on how to positively impact mathematics student achievement 
using the Cognitive Tutor. Taylor Public Schools has effectively 
implemented the Carnegie pedagogy, and as a result, student achievement 
in mathematics has dramatically increased. Further, and perhaps more 
telling, is the dramatic decrease in failure rates the district saw 
compared to previous years. In years past, Taylor has selected those 
higher achieving students out of 8th grade to take Algebra 1 in 9th 
grade. Historically the failure rate for those ``high achieving'' 
students came in around 45%. This school year, ALL 9th graders were 
required to take Algebra 1, including Special Education students, and 
the failure rate has decreased to 15%-20%.
    <bullet> Virginia: Virginia's Algebra Readiness Initiative (ARI) 
assists in preparing students for success in algebra through a 
computer-adaptive test (CAT). School divisions are eligible for 
incentive payments to provide mathematics intervention services to 
students in grades 6-9 who are at-risk of failing the Algebra I end-of-
course test as demonstrated by their individual performance on 
diagnostic tests that have been approved by the Department of Education 
(DOE). The diagnostic test results allow teachers to individualize the 
content for intervention. A pilot study conducted during the 2005-2006 
school year to explore the efficacy of this approach in grade 5 showed 
that students improved over 80 scale score points between the pre and 
post Algebra Diagnostic Test during the school year. Teachers reported 
that the ARI helped determine the learning styles of the students and 
ultimately modified the teaching accordingly. Some students like 
formulas, while others relate to examples, scenarios, and hands-on 
activities. The professional development associated with the ARI 
requires a lot of one-on-one follow-up with teachers. It was also 
reported that providing students with a variety of software choices 
helped students that needed different ways of learning.
Conclusion
    The good news is that we have identified strategies and programs 
that make a difference for math achievement. These strategies and 
programs also happen to make a difference across the core subject 
areas, as well as 21st Century skills and other education indicators. 
Specifically:
    <bullet> The use of technology can support the teaching and 
learning of mathematics by bringing a multitude of learning experiences 
to captivate student interest and build mathematics understanding, 
proficiency, application and confidence.
    <bullet> Mathematical understanding is increased when students and 
teachers use and apply technology to investigate mathematical concepts; 
including visualization, modeling, representation, simulation and 
communication.
    <bullet> All educators and students should have access to the 
resources and technology to support teaching and learning of 
mathematics at school and home.
    <bullet> Students learn mathematics in different ways, and we need 
to provide technology, resources, varied instructional strategies and 
skills that allow them to excel, deepen their understanding and 
maximize their potential.
    <bullet> Students build mathematical knowledge and understanding of 
mathematical concepts through problem solving.
    <bullet> Educational technology strengthens the connection of 
mathematical topics in different contexts.
    <bullet> Using formative assessment in mathematics provides on-
going data for teachers to individualize instruction based on needs. 
This leads to increased achievement in math.
    The Committee has demonstrated its focus on the critical role that 
technology plays in our education system by the inclusion of the EETT 
Program in NCLB and the ATTAIN Act in the draft reauthorization bill of 
ESEA. The ATTAIN Act focuses on the need for systemic approaches to 
technology implementation and recognizes the critical role technology 
plays in the use of data systems to individualize instruction, on-line 
assessments, virtual AP Courses, and on-going and sustainable 
professional development. Many states currently use educational 
technology to reach these goals which have shown to improve student 
achievement, certify highly qualified teachers and help close the 
achievement gap--particularly in regard to math.
    The ATTAIN Act provides an important role in helping more states, 
districts, and schools implement systemic reform models and on-going 
and sustainable professional development that have been proven to 
improve student achievement in core subject areas and ensure that 
students are competitive in the 21st Century global workforce.
    Federal leadership must be bold and act as a catalyst to change how 
we teach, learn, and apply math for America's and our students' 
competitiveness and innovation. Maximizing the impact of technology's 
role in our education system is possible, but it will take a concerted 
effort by you, the states, districts, educators, and all stakeholders. 
We can achieve a 21st Century Education system for all students. We ask 
that you specifically recognize and support the role of technology in 
all education legislation, including throughout the Reauthorization of 
ESEA and the America COMPETES Act. We cannot afford to miss the 
opportunity that technology provides to engage students, to improve 
instruction and teacher quality, and to ultimately raise student 
achievement in math so that our students are prepared for the 21st 
Century.
                                 ______
                                 
    Chairman Miller. Thank you.
    John?

          STATEMENT OF JOHN J. CASTELLANI, PRESIDENT,
                      BUSINESS ROUNDTABLE

    Mr. Castellani. Thank you, Mr. Chairman, Ranking Member 
McKeon, members of the committee. Particularly Mr. Miller and 
Mr. McKeon, thank you for participating with us yesterday on 
another very important part of the education issue, the role of 
community colleges.
    Across every sector, our CEOs are united in their concern 
about the continuing reality that far too many students are not 
graduating from high school with the knowledge and skills they 
need to succeed in either higher education or at the workplace.
    The No Child Left Behind Act is beginning to make a 
difference, but troubling achievement gaps remain between 
groups of students in the United States, and between U.S. 
students and their international counterparts, particularly in 
math and science education. We believe that expanding the 
talent pool of Americans with a firm grounding in math and 
science is a critical element of the innovation agenda that the 
United States must pursue to remain competitive in the 21st 
century.
    That is why the Business Roundtable through its Tapping 
America's Potential coalition of 16 national business 
organizations established the goal of increasing the number of 
Americans graduating with an undergraduate degree in science, 
technology, engineering or math to 400,000 per year by 2015. 
The current figure is 225,000.
    Business Roundtable CEOs believe that graduating more 
students in these key majors is a necessary step toward 
ensuring continued U.S. technological and economic leadership. 
Just as important, grounding in these subjects is increasingly 
necessary for individual success in the modern economy.
    The Bureau of Labor Statistics projects that science and 
engineering employment in the United States will increase 70 
percent faster than the rate for all occupations during the 
next decade. America will create more and more high-wage jobs 
for technical professionals. The question we face is whether or 
not our children will be qualified to fill them.
    It is clear that the United States cannot achieve the TAP 
goal of 400,000 math, science, and engineering graduates 
annually without first raising U.S. student achievement in 
mathematics. Math is the gateway that frequently is the reason 
why students are unprepared to pursue careers in these fields. 
By the time a student is in the eighth grade, if he or she is 
not on a path to succeed in algebra, high-wage job 
opportunities diminish.
    There is widespread understanding about the importance of 
learning to read as the foundation for further learning. There 
is an equally compelling case for the importance of a strong 
foundation in mathematics. Many companies have programs that 
introduce elementary and middle school students to exciting 
careers in science and engineering and give them hands-on 
experience with interesting science experiments.
    However, the companies recognize that it is not enough to 
get students excited about the future in these fields. They 
also need a foundation of math skills that can turn that 
excitement into a real possibility. What I would like to do is 
just talk about two of many examples.
    Texas Instruments has partnered with the CBS television 
show NUMB3RS, which features a mathematician working with his 
FBI agent brother to solve crime. TI has also developed a math 
scholars program at the University of North Texas-Dallas Campus 
that ensures full scholarships with book stipend to students 
pursuing their bachelor of arts degrees in mathematics with a 
secondary certification. The students teach in Dallas for a 
minimum of 2 years in return for this scholarship opportunity.
    Another example is ExxonMobil, which has partnered with 
professional golfer Phil Mickelson and his wife Amy to launch 
the Mickelson ExxonMobil Teachers Academy, and provides third-
through fifth-grade teachers with the knowledge and skills 
necessary to motivate students to pursue careers in science and 
math.
    In addition, ExxonMobil Corporation has committed $125 
million to the National Math and Science Initiative, which is 
working with states and universities to scale-up two proven 
programs: first, the training and incentive programs to 
increase the number of students taking and passing advanced 
placement math and science courses; and second, Uteach, a 
program that encourages math and science majors to enter the 
teaching profession by offering an integrated degree plan, 
financial assistance, and an opportunity for early teaching 
experience for undergraduates.
    These and other corporate initiatives are making an 
important contribution, but policies also need to change. As 
the National Mathematics Advisory Panel recommendations point 
out, a critical bottleneck in U.S. math education is the 
inadequate supply of well-qualified and highly prepared math 
teachers.
    That is why our member chief executive officers were so 
enthusiastic about the math and science education legislation 
enacted last year as part of the America COMPETES Act was 
included, but time and again, we learn that well-intentioned 
math education initiatives fail because of inadequate attention 
to high-quality teacher preparation and professional 
development.
    Mr. Chairman, this committee focuses on education and 
workforce issues, and those issues will determine whether our 
students and workers can compete and succeed in our rapidly 
changing world economy. The education and workforce policies 
and programs of the last century are not designed to meet the 
challenges that we are facing today.
    We stand ready to work with the committee on new approaches 
for the 21st century. I thank you for your leadership and for 
the opportunity to testify today. I would be happy to answer 
questions. Thank you.
    [The statement of Mr. Castellani follows:]

 Prepared Statement of John Castellani, President, Business Roundtable

    Mr. Chairman, Ranking Member McKeon, Members of the Committee. Good 
morning. I am John Castellani, President of Business Roundtable.
    Thank you for inviting me to testify before you today on math 
education and the recent report issued by the National Mathematics 
Advisory Panel.
    I want to thank the members of the Advisory Panel for their 
important work on behalf of education in the United States.
    Business Roundtable is an association of chief executive officers 
of leading corporations with a combined workforce of more than 10 
million employees and $4.5 trillion in annual revenues. Across every 
sector our CEOs are united in their concern about the continuing 
reality that far too many students are not graduating from high school 
with the knowledge and skills they need to succeed in either higher 
education or work. The No Child Left Behind Act is beginning to make a 
difference, but troubling achievement gaps remain between groups of 
students in the United States, and between U.S. students and their 
international peers, particularly in math and science education.
    CEOs believe that expanding the talent pool of Americans with a 
firm grounding in math and science is a critical element of the 
innovation agenda that the United States must pursue in order to remain 
competitive in the 21st century. That is why Business Roundtable 
through its Tapping America's Potential coalition of 16 national 
business organizations established the goal of increasing the number of 
Americans graduating with an undergraduate degree in science, 
technology, engineering or math to 400,000 per year by 2015. The 
current figure is about 225,000.
    Business Roundtable CEOs believe that graduating more students in 
these key majors is a necessary step toward ensuring continued U.S. 
technological and economic leadership. Just as important, grounding in 
these subjects is increasingly necessary for individual success in the 
modern economy. The Bureau of Labor Statistics projects that science 
and engineering employment in the United States will increase 70 
percent faster than the rate for all occupations during the next 
decade. America will create more and more high-wage jobs for technical 
professionals. The question is whether our children will be qualified 
to fill them.
    It is clear that the United States cannot achieve the TAP goal of 
400,000 math, science and engineering graduates annually without first 
raising U.S. student achievement in mathematics. Math is the gateway 
that frequently is the reason why students are unprepared to pursue 
careers in these fields. By the time a student is in 8th grade, if he 
or she is not on a path to succeed in Algebra, high-wage job 
opportunities diminish.
    There is widespread understanding about the importance of learning 
to read as the foundation for further learning. There is an equally 
compelling case for the importance of a strong foundation in 
mathematics. Many companies have programs that introduce elementary and 
middle school students to exciting careers in science and engineering 
and give them hands-on experience with interesting science experiments. 
However, the companies recognize that it is not enough to get students 
excited about futures in these fields. They also need to get the 
foundation of math skills that can turn that excitement into a real 
possibility.
    For example, Texas Instruments has partnered with the CBS 
television show NUMB3RS, which features a mathematician working with 
his FBI agent brother to solve crime; TI also has developed a Math 
Scholars program at the University of North Texas Dallas Campus that 
offers full scholarships with book stipend, to students pursuing their 
Bachelor of Arts degree in Mathematics with Secondary Certification. 
The students teach in Dallas for a minimum of two years in return for 
this scholarship opportunity.
    ExxonMobil has partnered with professional golfer Phil Mickelson 
and his wife Amy to launch the Mickelson ExxonMobil Teachers Academy 
which provides third- through fifth-grade teachers with the knowledge 
and skills necessary to motivate students to pursue careers in science 
and math. In addition, Exxon Mobil Corporation committed $125 million 
to the National Math and Science Initiative, which is working with 
states and universities to scale-up two proven programs:
    <bullet> training and incentive programs to increase the number of 
students taking and passing Advanced Placement math and science 
courses, and
    <bullet> Uteach, a program that encourages math and science majors 
to enter the teaching profession by offering an integrated degree plan, 
financial assistance, and early teaching experiences for 
undergraduates.
    These and other corporate initiatives are making an important 
contribution. But policies also need to change. As the National 
Mathematics Advisory panel recommendations point out, a critical 
bottleneck in U.S. math education is an inadequate supply of well-
qualified and highly prepared math teachers. That is why our member 
CEOs were so enthusiastic about the math and science education 
legislation enacted as part of the America COMPETES Act last year. Time 
and again, we learn that well-intentioned math education initiatives 
fail because of inadequate attention to high-quality teacher 
preparation and professional development.
    Mr. Chairman, this Committee focuses on the education and workforce 
issues that will determine whether our students and workers can compete 
and succeed in our changing world economy. The education and workforce 
policies and programs of the last century were not designed to meet the 
challenges we are facing today. Business Roundtable stands ready to 
work with you on new approaches for the 21st century. I thank you for 
your leadership and for the opportunity to testify today. I would be 
pleased to answer any questions you may have.
                                 ______
                                 
    Chairman Miller. Thank you very much, and thank you to all 
of the members of the panel.
    Dr. Fennell, somewhere I saw a graph, or competing graphs, 
or PowerPoint slides or something, and one was supposedly a 
representation of how we present math in grades one through 
twelve. The other was how other countries present math. One was 
very scattered, very psychedelic, unconnected.
    Mr. Fennell. I know the graph you are referring to.
    Chairman Miller. Oh, you know the graph. Okay. Maybe you 
can give it a better description, and if you could explain it 
and what the implications that the Math Panel thinks of those 
terms. I am sorry we don't have it. I don't think we have the 
graph here for the members.
    Mr. Fennell. No, you wouldn't want to have that graph. It 
would probably confuse most people in the audience. But it 
comes from the work of Bill Schmidt. It comes from the work of 
Trends in Mathematics and Science. What he did was he looked at 
high-achieving countries and their mathematics curriculum, and 
then he put a scattershot of a number of the states in this 
country.
    The reason I say you probably don't want to show the graph, 
it would probably burn the eyes of the viewers because in this 
country, we introduce and frankly do a scattershot of a myriad 
of mathematics objectives and outcomes and expectations. In 
those other high-achieving countries, the number of 
expectations are far fewer so that in fact the teachers can 
reach the level of depth that children need as they move on to 
other mathematics.
    I can and should say it is stronger than that, the work of 
both NCTM and in particular the National Math Panel's critical 
foundations and benchmarks really looked at that work very, 
very carefully, and hence critical foundations--absolute must-
haves that every state ought to attend to.
    Chairman Miller. So when you were talking in your testimony 
about being focused here----
    Mr. Fennell. You know, I can't expect the fourth-grade 
teacher who frankly has a limited background in mathematics to 
think that among even 60-some objectives, which are the most 
important. So it is our job, through this report and the 
initiatives of groups like NCTM, to make sure that teachers 
know that. I know that there are people in this room from 
Florida and other states where they have actually done this, 
where they have taken 80-some objectives in a given year and 
condensed that down to 30-some. So some states are getting this 
message.
    Chairman Miller. Okay. I want to hold that thought for a 
second because that is a recommendation about the direction 
that the Math Panel believes school districts should go in 
terms of developing----
    Mr. Fennell. Your remarks earlier about streamlining are 
right at the heart of that.
    Chairman Miller. So, Ms. Slover, you work with governors 
and states, and you mentioned in your testimony that a number 
of them are making these kinds of improvements. But I have a 
question for you. If that is a recommendation, some states are 
doing it, and there is an agreement that we have to have a more 
coherent way of presenting and building early strengths so that 
you can build on those, what is the role of the federal 
government there?
    Ms. Slover. One role for the federal government is to 
empower states to do that, and to encourage them in providing 
incentives for them to do that. As Dr. Fennell alluded to, 
states are moving in the right direction. They are taking a 
look at their standards and making tough choices about what 
everybody would like to have students know versus what is most 
important for students to know, because it prepares them for 
what comes next in life, whether they are going to college or 
whether they are going into careers.
    To have that conversation, you need the right people in the 
room. You need K-12 educators, obviously. You also need the 
business folk and you need the college professors to help 
inform the conversation about what is most important. States 
are moving in the right direction and cutting down and focusing 
their curricula.
    Chairman Miller. In your testimony, in your presentation, 
you have 33 states that you indicate Achieve has worked with, 
and you think they are moving in the right direction. They are 
not all at the same place, but they are moving in the right 
direction. You mentioned that you have 13 states that now at 
some point, or this spring, are taking a common exam in math.
    So then, again, the federal government should do what? 
Allow flexibility in funding to support that?
    Ms. Slover. Absolutely. We have 14----
    Chairman Miller. We have killed more initiatives than we 
have created, so I just want you to think about it while you 
are roaming around out there. [Laughter.]
    Ms. Slover. We would love the federal government to provide 
space and flexibility for states. Many more states are looking 
to end-of-course exams to directly measure the content in the 
courses that students take, which enables a little bit more 
fidelity to the curriculum than some of the more comprehensive 
exams that states are giving. So we would encourage the federal 
government to encourage states to move in that direction.
    Chairman Miller. And Achieve is comfortable with the rigor 
of the exam in the 13 states in terms of your goals and your 
mission?
    Ms. Slover. Yes. The 14 states have worked together over 
the last 2 years to develop the content expectations, the 
items, and now to pilot and to offer the test. We have taken a 
look at the test. This particular test is very rigorous. Not 
all exit exams are necessarily so, but they do offer the 
opportunity to be more closely aligned and more tightly 
connected to the curriculum, which provides teachers and 
students with a lot of benefit.
    Chairman Miller. What is the reason you don't have 20 
states taking the exam?
    Ms. Slover. I can't answer that. More states are certainly 
invited to join this group.
    Chairman Miller. They don't have the capacity? I mean, they 
wouldn't be comfortable submitting their students to that? Do 
you know?
    Ms. Slover. We started out with nine states, and we have 
grown significantly over the last year, so I think there is 
momentum. Additional states are joining as we speak. But this 
is a rigorous exam. It is at the algebra II level. Most states 
are currently testing their students at the algebra I or below 
level. So it is a significant shift for states. It will take 
some time to phase in as they grow their expectations for their 
students.
    Chairman Miller. It is very encouraging. One of the things 
that Congressman McKeon and I tried to do in the discussion 
draft on No Child Left Behind was look at what the governors 
and states are doing and try to encourage those who are 
stepping out in that vein. I don't know if the Math Panel 
looked specifically at that, just to finish off this 
discussion, but in terms of whether there is enough 
infrastructure being built so that the federal government would 
be more comfortable in allowing the flexibility of funding to 
be directed if you are confident that you are gaining rigor and 
improvements.
    Mr. Fennell. I would think that the benchmarks that come 
out of the critical foundations that lead to algebra are 
certainly guideposts for states as they think about the must-
haves as they move into high school. And then, as you know, 
with No Child Left Behind, there has to be a high school 
assessment. It is the courageous state that might at some point 
say, well, our high school assessment might even be the ADP 
examination in algebra II.
    So the notion that 14 states have already--and I think the 
word is ``already''--thrown into this I think is significant.
    Chairman Miller. Thank you. We will have a second round of 
questions.
    Mr. McKeon?
    Mr. McKeon. Thank you, Chairman Miller.
    Dr. Fennell, you talked about countries that are high 
achievers. What would be some of those countries?
    Mr. Fennell. Well, most frequently people refer to 
Singapore. It is easy to refer to many of the Asian culture 
countries. It is also probably worthwhile to look at Flemish 
Belgium. It is also worthwhile to look at other European 
countries. But coming to us as we did our work, we were tying 
pretty carefully to what is going on in Korea, what is going on 
in Singapore, Japan, as specifics.
    Mr. McKeon. The European countries that I am familiar with 
all have a centralized----
    Mr. Fennell. Yes, as do the Asian culture countries that I 
just referenced.
    Mr. McKeon. Okay. So if we were one of those countries, we 
could listen to this panel. All are very distinguished and 
presented very good cases of things that should be done. And 
then we would just inculcate that and send out the message and 
it would all of a sudden happen in all 50 states.
    We have a different system. So we have to grapple with the 
states.
    Ms. Slover, you were asked what could the federal 
government do. I think your response was ``empower.'' The 
states are already empowered. They have the responsibility. We 
see the problem as a national problem that needs to be solved 
at 50 different areas, and within those areas, at the local 
school board level.
    At times, it causes I think a lot of frustration. I served 
on a local school board, and I saw the needs there. I remember 
during that period of time we lost two of our best math 
teachers to industry because, as much as they wanted to be math 
teachers, finally the offers got too good for them to stay 
teaching.
    One of the things that you did talk about, though, was the 
specialist teachers, and if we could encourage that at all 
elementary schools. How would you envision that? The school 
would hire a specialist?
    Mr. Fennell. The panel's work looked at it--and by the way, 
Bill Haver is a noted authority on this. The work in Virginia 
is stellar, and it is coming, and there is going to be research 
that will drive a particular direction to the model of 
elementary math teacher specialists. But the model that we 
found right now that does work is if I anoint somebody and say, 
all right, you are in charge of all the fourth-grade 
mathematics, and somebody else is doing all the fifth-grade 
mathematics, and your teaching load, if you will, is primarily 
mathematics, we do see achievement gains in that model right 
this minute. So that is something that could happen.
    Mr. McKeon. That is what Dr. Haver was talking about in the 
areas that they are working in.
    Mr. Fennell. Yes. And his model is a little different 
because they are looking at elementary specialists at the 
building level and so forth. But I also think that one of the 
challenges we have is generalist teachers at the elementary 
school level at a time when we are looking for developing 
specific background in mathematics and science. So why not 
begin pre-service teacher preparation with opportunities for 
people to move in and teach a lot more mathematics than 
typically?
    Mr. McKeon. What incentives would we give to those teachers 
to get the adequate education, and then the motivation to do 
that, and to stay in the teaching field?
    Mr. Fennell. I think you hit on it, in your local example 
and in your last statement, one of the biggest challenges. 
Teachers of particularly high school mathematics are very, very 
hard to find. The majority of people teaching middle school 
mathematics in this country at this moment have neither a 
degree nor a minor in mathematics, at a time when more and more 
students are taking algebra at the middle school level. It is a 
tremendous problem for us.
    Of course, we know that foundationally this has to happen 
at the elementary school level. So not only do we need 
teachers, but probably more importantly, we need to find a way 
to keep them, because in fact if you have that background that 
I just alluded to, you have options. That is why you lost those 
two teachers you referred to in your own example.
    Mr. McKeon. Some of us went to China a couple of years ago. 
We visited with government leaders, industry leaders, education 
leaders. We visited a lot of schools and talked to students. 
The thing I noticed was a sharp contrast between China and our 
country: all of the university presidents were engineers over 
there. That is their background. Ours seem to be fundraisers. 
They come from a broad liberal arts or an education degree, and 
then move through the system that way.
    Well, I guess we have more problems, more answers, than we 
are able to implement.
    Mr. Fennell. Well, that is part of that value thing, don't 
you think?
    Mr. McKeon. Pardon?
    Mr. Fennell. I said that is part of that value thing, don't 
you think?
    Mr. McKeon. Oh, yes, yes.
    Mr. Fennell. This culture of ours needs to get over this 
math gene business, this business that only certain people 
ought to do this subject, or science or engineering. We heard 
the numbers earlier. It is time to step up.
    Mr. McKeon. Yes. Thank you.
    Chairman Miller. Thank you.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Dr. Staggers, I was a Latin teacher. Only because of pride 
and memory, I got A's in math. I went as far on as trig, but 
got A's in math. I really was discovering little or nothing. I 
never had like ``eureka'' moments of joy when I worked the 
problems. But because of pride and memory, I knew how to lay 
out the problem.
    You indicate that real applications for math and science, 
while preparing the student for the workforce, are post-
secondary education. How do you put that theoretical math 
together with some practical application where one can have 
that ``eureka'' moment, and realize that this math plays a 
very, very important part in their life and the lives of our 
society?
    Ms. Staggers. In mathematics in high school and middle 
school, for example, you study inequalities--less than, greater 
than, and so forth, less than, greater than, and equal to. 
Those are basically tolerance intervals. So in manufacturing, 
you look at that range of values as plus or minus, say, five-
thousandths of an inch when you are measuring a part in 
manufacturing.
    Some of the algebra and trig that is used where you are 
just simply looking at right triangles, in engineering when you 
are designing bridges, truss structures for roofs or walkways--
any kind of inclined plane--you need to use those angles and 
that trig to figure out distances.
    So rather than just take a problem out of a math book and 
say, you are given this, find that, actually give them a 
realistic problem where you want to put so much force on this 
structure, and what types of beams do I need to have under that 
structure. So with that application, the students realize the 
importance of their calculations to a certain degree. It is not 
``did I get close.'' It is very important that you got it 
right. [Laughter.]
    Mr. Kildee. I never had those ``eureka'' moments, where I 
got this right and it is going to make a difference.
    Ms. Staggers. Well, if you are putting two parts together 
and you are designing a part to go in your car, if the part is 
not designed properly, even the slightest fraction of an inch, 
it is not going to fit.
    Mr. Kildee. Coming from a General Motors town, I realize 
the importance of that. [Laughter.]
    Dr. Fennell, you mentioned that teachers in junior high who 
really for the most part could have a better background in 
math. Do they illustrate to the student the application or how 
this really does play a role in their lives and the lives of 
our society?
    Mr. Fennell. Well, I would certainly like to hope so. It 
seems to me that we need--I mean, one of the things we sort of 
get into when we have discussions like this is this sort of 
cultural comparison. We have to acknowledge that frankly our 
kids are different, and that we do need to get them connected 
to the mathematics they are learning.
    The notion of tolerance that we just heard, whether you are 
going to be able to get over the bridge, whether you are going 
to be able to start your car, if that doesn't get a kid sort of 
connecting with the mathematics that they are learning relative 
to inequality, I don't know what would.
    So that notion that equipping teachers to be able to do 
that, rather than just going through the motions of, if you 
will, I heard the comment earlier about your grandfather's 
mathematics or perhaps the mathematics that you and I learned 
so many years ago.
    Mr. Kildee. Well, I got A's in math, but I would have 
hesitated to drive my GM car over that bridge. I really was not 
able to connect.
    Mr. Fennell. I thought that was a great response to your 
question in terms of how to really connect it to a life-like 
situation.
    Mr. Kildee. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Keller?
    Mr. Keller. Thank you, Mr. Chairman.
    I am the father of four small children. I can tell you 
anecdotally I thought I was dealing with a math problem with my 
12-year-old son. I asked him if you had five apples and I asked 
you for one, how many apples would you have? He said five. I 
said, wouldn't you have four? And he said I am not giving you 
any of my apples. So I didn't have a math problem. I had a 
little Republican on my hands coming up the ranks here. 
[Laughter.]
    Let me ask you, Ms. Slover. You work with the different 
states. Last time I looked at the NAEP scores a few months ago, 
I believe it was Massachusetts that was number one in the 
country for fourth-grade math and eighth-grade math. Is that 
right?
    Ms. Slover. Yes, that is correct.
    Mr. Keller. Okay. And Dr. Fennell, you are saying that?
    Mr. Fennell. Yes, right.
    Mr. Keller. Let me ask both of you, since you are familiar 
there, is Massachusetts doing something different that maybe 
the other states can learn from? Or is it just socioeconomic 
factors? What are they doing that makes them number one, and 
that the rest of us can learn from?
    Dr. Fennell, I will let you go first.
    Mr. Fennell. I am happy to take that one on. I think that 
there are two things that come immediately to mind, and you hit 
one of them. One is whenever you begin to do this sort of 
state-by-state comparisons, whether it is a national assessment 
or even your own state test, I do think you have to take into 
account the background of the students and where the students 
were and so forth. So I think that is part of, for instance, 
Massachusetts compared to Florida.
    It is also part of the fact that the Florida standards were 
one of those states, up until the last year, that frankly had 
89 objectives for classroom teachers at the fourth-grade level 
and so forth. Whenever you have that many perceived 
expectations, you can't dig deep. You don't really have the 
opportunity to drive down, because you are trying to 
scattershot and make sure that you hit all those--in the case 
of Florida, the FCATs--which then those students are samples 
for the NAEP.
    The Massachusetts standards are trimmer, if you will. They 
are more closely tied to the National Assessment of Educational 
Progress. So what the students are seeing both in their 
expectations and their state test and the NAEP are just more 
compatible measures.
    Mr. Keller. Okay, more mainstreamed benchmarks that they 
are having to hit, and also a little different socioeconomic 
background?
    Mr. Fennell. Right. Yes, and again, I alluded to it earlier 
and I knew that you were from Florida. Florida has very 
recently taken those 89 objectives and gone all the way back 
down to 30, so they are clearly getting the notion of, if you 
will, less is more, and let's make sure that our students 
really know the important mathematics well, along with other 
mathematics, prior to this thing we call algebra.
    Mr. Keller. Ms. Slover, do you have any comment?
    Ms. Slover. I completely agree with Dr. Fennell. 
Massachusetts has exemplary standards. We actually use them as 
an example of high-quality standards in our own work, and we 
share those with other states and hold them up as an example of 
how to do standards right.
    Interestingly enough, Massachusetts does not have state 
graduation requirements. They allow the locals to make those 
decisions, so they are not using that graduation requirement 
lever, but they are providing incentives and encouraging their 
teachers to really look at those standards and do a lot of 
professional development around those standards.
    Mr. Keller. All right. Next, I am going to talk about 
teacher quality for a minute. I am going to give Dr. Staggers a 
chance to answer this, as well as Dr. Fennell.
    Before I do, let me just say this. We are all sensitive on 
a bipartisan basis that we have a massive shortage of good math 
teachers. So we have passed legislation already that provides 
loan forgiveness--$17,500 if you agree to be a math teacher in 
a Title I school.
    Three of us were just in the Oval Office a few days ago 
with President Bush and Senator Kennedy, when President Bush 
signed into legislation expanding SMART grants to provide 
$4,000 additional for Pell-eligible students who are going 
full-or part-time to become math majors. That will help 100,000 
students and will provide them with $8,800 a year in Pell money 
that they never have to pay back, to increase the number of 
folks going into these fields. So we are sensitive to that.
    Teacher quality. Raytheon just did a landmark study where 
they applied modeling and simulation principles to the 
education system to see how can we predict who is going to be 
successful in math and science. Do you remember that study, Dr. 
Fennell?
    Mr. Fennell. Yes.
    Mr. Keller. The number one correlation with whether or not 
you are going to pursue math at the college level, more than 
student-teacher ratio, more than poverty of your family, was 
whether you had a high-quality teacher. The number one thing 
that discouraged people from pursuing it is they had a bad 
teacher experience.
    Are you familiar with that study, Dr. Fennell?
    Mr. Fennell. Yes.
    Mr. Keller. The biggest challenge that the researchers had 
was they can tell after someone has been teaching a couple of 
years whether they are a good teacher or not. It is pretty hard 
to tell when you are doing your interview whether someone is 
going to be a good teacher or not. So let me just let Dr. 
Staggers and Dr. Fennell answer.
    How do folks know on the front end, since you are involved 
in hiring math teachers, whether someone is going to be good? 
And then once they are there, how do you know that they are 
going to be good, to maintain the good folks and weed out the 
bad?
    I will let Dr. Staggers start with that.
    Ms. Staggers. I don't know if there is a way to tell off 
the bat if a teacher is going to be good. It is sort of like 
preachers, I want to say. They don't always start out good, but 
they get better as time goes on.
    Mr. Keller. Right. [Laughter.]
    Ms. Staggers. And so up front, we may not know that, but 
seasoned teachers are good. If you find out that they are not 
good, there needs to be a way to rectify that very quickly, 
rather than just keep them on because the paperwork becomes too 
difficult.
    Mr. Keller. Dr. Fennell, I am out of time, but maybe the 
chairman will let you answer before we go to the next witness.
    Mr. Fennell. Yes, let me just say that what you refer to 
with regard to successful students and the impact of a teacher 
kind of picks up on the research of Sanders and Rivers in 
Tennessee, and also more recently the Dallas Independent School 
District, where essentially if a child has three ineffective 
teachers in a row, that child never recovers. So this is a 
tremendous challenge for us.
    One of the frustrations in our work with the National Math 
Panel was it was clearly easy for us to see that teachers do 
make a difference, but what we couldn't get underneath of and 
say, well, is it certification? Well, is it an NCATE accredited 
teacher education program? Well, is it particular aspects of 
professional development?
    It is one of those things where we don't know and we had 
better find out. As I said in my remarks, if colleges of 
education don't hear that and hear it loudly, I don't know what 
more needs to happen. I am a teacher-educator for 30-plus 
years, and I like to think that maybe the teacher-preacher 
model was part of what I did and continue to do, but we have to 
be far more strident in what we are doing preparing and 
nurturing and, again, retaining effective teachers.
    Mr. Keller. Thank you.
    Chairman Miller. Thank you.
    Ms. Woolsey?
    Ms. Woolsey. Thank you to this panel. This has been an 
excellent morning, but it makes me very frustrated, so you are 
going to hear all of this.
    First of all, we know that you can't learn unless you can 
read, so reading is very, very important to our kids. You have 
proven without a doubt something that we also know, that the 
more math you learn, the more you earn, as Ms. Slover told us. 
But we also know that we have to educate the whole child. We 
have to have music. They need to know geography and history and 
the humanities.
    So there are some things that we just know. That doesn't 
mean that we are wise enough to act on that. We know that a 
child who eats breakfast learns better. They test better. Their 
discipline is better. Their attendance is better. We know that, 
but we don't feed all kids breakfast. I mean, it would cost too 
much money, obviously.
    So what I am asking you, given what you want us to be 
doing, which I respect very, very much, even if we had good 
math teachers available, even if we valued teaching education 
in the first place, and math particularly, and we had the 
incentives and we had all these math teachers, where is the 
time to do all of this? What do we need to do differently? 
Where do we make room? Do we need to make our school year or 
school day longer?
    I will start at the bottom and move up on that. Let's talk 
about where is the give in this formula.
    Mr. Castellani. One of the unfortunate parts of this, and I 
am not a trained educator, I should say, however, that I am the 
son of two teachers, one of whom is a math teacher and the 
other English. But the unfortunate reality is that there are no 
priorities among essentials. All that you talked about are 
essential, but one of the critical needs that we recognize 
right now, particularly as our economy is evolving, is math and 
science. Math particularly is a gateway.
    It will allow us as a nation better economic growth, better 
competitive standing, and hopefully more resources for all of 
the spectrum of education that you mentioned. So I think all of 
the experiments that you have mentioned, and we have looked at 
a longer school day, a longer school year. From our 
perspective, it is very simple. These are the talents we need 
if we are going to own the higher end of the value-added chain 
in the future, and we have to find the way to do it.
    Ms. Woolsey. Dr. Wolf?
    Ms. Wolf. Thank you.
    One thing that I have noticed is that as we worked to 
implement NCLB and accountability, it often seems like it is 
done in a way that contradicts what we know that works and 
makes sense. I don't think that is the intent of the law in any 
way, shape or form, but when you look at how in some schools 
and some districts they have reacted to those requirements, it 
doesn't involve 21st century skills. It doesn't involve 
interdisciplinary learning. It doesn't involve the depth that 
we are all talking about today that makes a real difference.
    Now, when you say about the time, I have a deep interest in 
that topic. I will tell you that I think the response is that 
it is a systemic reform piece. We have looked at many programs, 
including the one I referenced in Texas, but North Carolina 
implemented one as well. They provided an instructional 
technology coach to those schools to work with teachers in 
groups. It started to save time, because there was co-planning 
and co-working. Using technology is one way.
    I don't think technology is a silver bullet in any way, 
shape or form. But what we do know is it can help other things 
work really, really well. When we looked at those, what I find 
fascinating is teacher retention in schools in North Carolina, 
where achievement was 33 percent more likely to be on grade-
level when technology was used and these coaches were in place, 
teacher retention was 65 percent higher.
    You would immediately think that is the young teachers, but 
it wasn't the case. It was also the master teachers because 
they were able to be creative and use the teacher skills they 
had to do all the things we have mentioned. So I think there is 
a real opportunity there to focus on those pieces.
    Ms. Woolsey. Dr. Staggers?
    Ms. Staggers. I think a weakness is that maybe teachers who 
teach music, art, history and these fields that you are 
speaking of don't realize that there is math in every one of 
these fields. So we don't really need to make the day longer. 
We need to incorporate the math that is found within them. Take 
the field of art, that is geometry. You could use a computer to 
do art with.
    We do it with the Project Lead The Way introduction to 
engineering design course. In music, the timing--that is 
mathematics. In history, reading graphs, charts, timelines--all 
that is math. Every discipline that is taught in our schools 
has a math component. The teacher who teaches that discipline 
needs to be prepared to pull the math out of it and introduce 
it.
    Ms. Woolsey. Thank you.
    And Mr. Chairman, I will ask the other three in the second 
round.
    Chairman Miller. Thank you.
    I would just like to chime in on this because I think this 
is an argument that is very often made. I think is demonstrates 
more a lack of capacity than a problem with the law. I mean, we 
had testimony here from an award-winning school--a complete 
turn-around in Southern Oregon, where they decided their road 
to success was to become a math academy and they decided they 
would do it on the backs of every other course that they teach.
    They had the most engaged group of students I had ever seen 
at the elementary level. They all had to play an instrument. 
They all had to understand the mathematics of music. They all 
had to understand the mathematics of history and the size of 
ships and the depths of the oceans and the distance between the 
continents. They worked it out.
    But you know what? You had to have teachers that had 
capacity so that they can multi-task those subject matters. If 
the teacher is a page ahead, there is no chance that that is 
going to happen. So what you want is simplicity, separation, 
drill and kill. There is nothing in the law that requires that.
    In fact, I think we are starting to see the emergence of 
those who are in fact turning around schools are doing 
interdisciplinary studies. They are doing collaborative 
learning. They are reaching across classrooms to bring in these 
other subject matters to demonstrate the mathematics in that. 
We had the Mickelson ad of the golf swing--one of the most 
amazing graphics that played over and over and over. It told me 
I am never going to be able to hit that ball straight, but you 
know, that is depressing. [Laughter.]
    So I think it is out there, but it requires serious 
professional development skills and talent. Those who cave in, 
those who shrink--again, there is no requirement under federal 
law that you do that, but it is because I think there is a 
question of whether they have the capacity to differentiate and 
develop this.
    I saw it on Indian reservations where math was used to 
explain the history and the natural resources of that, and 
engaged those students. So I just don't want this to become 
that somehow this is what the law requires. It simply doesn't.
    Who is next here? Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    I am going to have two questions here, one for Dr. Wolf and 
then maybe one for the panel. In my congressional district, I 
have a lot of rural areas, a lot of rural schools. The studies 
show students who take these challenging courses are much more 
likely to succeed in college and possess skills necessary for 
the workplace, but rural schools don't have and don't offer as 
many of these advanced courses.
    I would like to know how can the teaching and learning of 
math in rural schools be improved through the integration of 
technology? I know you might have touched on that a bit with my 
friend, Congresswoman Woolsey, but as you know, I am very 
interested in this whole issue because in my district, as I 
said, I have so many rural schools. You would be surprised that 
people who live in Chicago or larger cities don't think we have 
problems, but it is all the same. It is not. Our young kids in 
rural communities need a lot of attention, too, so maybe you 
could help me with that one.
    Ms. Wolf. Sure. I think there are two areas where this 
really comes into play. One is providing access to rigor and 
access to these opportunities. We see many, many states across 
the country utilizing online courses. They need to be high 
quality. They need to be interactive. They need to do all the 
things we know are about good education. We are seeing those 
emerge and there are those.
    So access to those kinds of courses I think make a huge 
difference for kids, especially when encouraged. There are 
things that need to be in place to make that happen. I know 
that, and there are policies that make it easier. So I 
encourage you to look at that. Can it be taught by a teacher 
from another state? Those kinds of things definitely make a 
difference.
    The other piece that I see making a tremendous opportunity, 
especially when we look at rural areas, is what technology can 
do for professional development. I taught only 12 years ago, 
but I did do the 2-hour workshops and I worked kind of in a box 
and I didn't have those mentors and those online opportunities. 
What we know now is that through online cadres and through 
cohorts of teachers in online courses, teachers can constantly 
be connected with one another and share lesson plans and share 
what works.
    I think with math in particular in rural areas, we are 
finding that so many teachers have partners. We are the state 
that used videoconferencing so teachers of the same type of 
subject could watch over time what it looked like when it 
happened to another one. And you know what happened? Teachers 
changed what they were doing because they had a peer there 
saying, hey, I think that is what works.
    The last thing with professional development--because for 
me this is an area where I see technology playing such an 
important role--really is that opportunity to provide those 
rich resources that bring the outside world in. Whether it is 
the basis of Project Learning or it is allowing kids to use 
interactive math tools that make things come to life, we see 
all that working. I would love to share with you more details 
just on some of those projects because I think there is a 
tremendous amount of professional development and the access to 
rigor.
    Mr. Hare. If you would be willing, doctor, to maybe get a 
hold of my office, we could talk about that, because I really 
think that is very important, particularly for rural areas. I 
thank you for that.
    Ms. Wolf. Thank you.
    Mr. Hare. Let me just ask the panel, what is being done to 
ensure that preschool-age children arrive at school ready to 
excel in math? What programs are out there? How can we, or how 
can all of us, promote and support early childhood education? I 
would think the sooner the better here. I am just interested in 
your thoughts on preschool children and what we need to be 
doing, or maybe what we are not doing that we should be doing.
    Mr. Fennell. Let me just start.
    Mr. Hare. Sure.
    Mr. Fennell. The panel really had some strong 
recommendations there. For one thing, we know that young 
children come to school with a lot of mathematics 
understanding. So there is a starting place that has already 
begun. What we also know, sort of tragically, is that far too 
many young children don't have the kinds of experiences I just 
alluded to.
    There is research out there that is beginning to show that 
when we provide parents and other caregivers with the kind of 
support necessary to have the conversation at home, have the 
conversation, frankly, anywhere about numbers, about other 
mathematical relationships, that you can begin to close that 
gap many of us talk about.
    So it is a tremendous area to think about as a starting 
point. One of the things that we have to do, to do all of what 
schools are now supposed to do, is to engage far more directly, 
far more frequently parents and other caregivers in this 
process. This is not solely the job of the classroom teacher. 
This is not solely the job of the local schools. So the area 
that you cite is an area of tremendous promise, as well as 
need.
    Ms. Slover. One leverage point that states have is to 
simply require that students go to pre-K. Many states don't 
require that and leave that up to local jurisdictions to 
decide, and in many local jurisdictions there is not enough 
money for all kids. It is optional, et cetera.
    So one leverage states have is to make it a requirement. 
And then if they do, it would be important for them to define 
what kids should know and be able to do by the time they leave 
pre-K so that the consistency in what schools are offering is 
there. So that, you know, kids are getting a quality education 
no matter where they are going to school.
    Mr. Hare. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    I thank all of our witnesses for their testimony.
    Dr. Fennell, you talked about cultural values. One of our 
cultural values is the idea that we are going to maintain most 
of the control of education in 15,000 different school boards. 
As a member of the National Mathematics Advisory Panel, can you 
tell us whether it makes any sense to try to have more national 
standards, rather than have 15,000 different standards?
    Mr. Fennell. I guess I probably shouldn't share with you 
that to one of our early panel members, I suggested exactly 
that, that we consider national standards. And somebody spoke 
up about as quickly as one could and said that would take an 
act of Congress. I guess maybe I am talking to the right 
audience. [Laughter.]
    In all fairness, I get the notion of local control. I 
understand very directly the need for local school districts, 
states and so forth, to have that sort of autonomy, as well as 
authority. Having said that, I think that there is a need for 
all children to have a deep understanding of particular 
mathematics before they enter certain levels of their 
education.
    I would love to see whether it is the critical foundations 
benchmarks or NCTM's focal points, or what have you, be at 
least a starting point for a voluntary national curriculum, or 
a voluntary set of must-haves, because to not have something 
like that is the splintering that you are referring to around 
perhaps the state of Virginia, certainly around the country.
    Mr. Scott. Thank you.
    Ms. Slover. Could I comment on that?
    Mr. Scott. Sure.
    Ms. Slover. Achieve does a lot of work with states. I think 
it is critically important that we agree on the common core and 
that all states are delivering that curriculum. I think we are 
very much in sync with the National Math Panel on that message 
and with NCTM.
    I think from Achieve's perspective that work is already 
happening in states, so we would like to see that continue. 
More and more states are revising their standards. As they do 
that, they are both making them more focused, more coherent, 
and they are making sure that they have that common core so 
that one byproduct of all the work that the American Diploma 
Project states are doing is that standards are becoming better, 
number one, but also more alike from state to state.
    Not exactly alike. There are still some state differences, 
but I think there is general agreement on what is most 
important for kids to know. So it is bubbling up from the 
states that as they revise their standards over time, the 
standards are becoming much more consistent and focused around 
the same set of core issues.
    Mr. Scott. But we would need to kind of encourage the 
national standard. If everybody has the different standard, you 
can't get there.
    Ms. Slover. That is true, and yet if they have the same 
content in their standards, they are getting to that national 
consistency without having something federally mandated from 
them. If they use mechanisms like tests that they share, there 
is a way to check on their progress to make sure that kids are 
learning what is in those standards.
    Mr. Scott. Thank you.
    Dr. Haver, the mathematics specialists--I noticed that they 
have to be specialists both in mathematics and in teaching. Is 
it important that they have both content and good teaching 
abilities?
    Mr. Haver. Right. And what the specialists can do is to 
work with teachers in the schools to develop both of those 
skills--the teachers that they work with to develop a better 
understanding of the mathematics that they are teaching so that 
it is not just a bunch of rules they tell people to follow, and 
that they have ways that are effective, and effective to teach.
    This professional development takes place in the schools. 
The specialists work with the teachers in the schools. They 
work as they co-plan their lessons with them. They perhaps co-
teach, and they develop these teaching skills and the knowledge 
within the teachers of what they are teaching.
    Mr. Scott. Does the specialist--is that a classroom teacher 
that has this as an extra duty? Or is this all they do?
    Mr. Haver. This is all they do. Their job is to provide in-
school professional development ongoing.
    Mr. Scott. Do you find that they handle more than one 
school?
    Mr. Haver. Typically, as I say, there are about 400 such 
places in schools in Virginia, typically they are one school, 
grades K through five. They will have weekly meetings with the 
kindergarten teacher, with the first-grade teachers, with the 
second-grade teachers. Of course, in some rural areas, they 
would be shared between schools, when the schools are smaller 
with less teachers.
    Mr. Scott. Now, is the specialist paid more than other 
teachers?
    Mr. Haver. No. In many school systems, they have an extra 
month time in the summer and get that extra money, but 
typically it is a teaching position.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Miller. Should it be a teaching position?
    Mr. Haver. Yes. They are teachers.
    Chairman Miller. You wouldn't draw a distinction between 
them as an additional resource person? You didn't in Virginia.
    Mr. Haver. Our model has been that they are not 
administrators. They are not supervisors. They are teachers. 
They work with their peers. They help. In elementary school, a 
third-grade teacher has to know all these other important 
things--reading, arts, social studies. But what the math 
specialist brings is this deeper knowledge of mathematics and 
effective ways that work and develop these abilities in all the 
teachers in the schools.
    Mr. Scott. But they don't get paid more?
    Mr. Haver. Well, in Virginia there is a certification to be 
a math specialist, and that comes with a master's degree. 
Because of the degree, they get higher.
    I would like to add one other thing about what the federal 
government can and has done, and express our appreciation for 
the support we receive from the National Science Foundation and 
the NSP program, both in the Department of Education and the 
National Science Foundation.
    We can get support in Virginia to help pay for these 
teachers to have these positions to be there, but to do the 
research about whether or not this work, having these 
specialists, makes any difference or not, it is harder to get 
the state government to do that. This research of this nature 
of understanding what makes a difference and what people can 
learn is something that can be used by all states. It is not 
just something in one state.
    I think that is a clear national responsibility, just like 
in health, where we don't expect each state to come up with its 
own methods to cure cancer. I think we can't expect each state 
to determine which methods are most effective for teaching.
    Chairman Miller. Thank you.
    You are welcome to take seats at the table there. You are 
welcome to come up here and sit in these empty chairs if you 
want, but you don't get to ask any questions. [Laughter.]
    Because Mr. Holt would be very upset.
    Mr. Holt is recognized for 5 minutes.
    We are in a hearing on teaching math in America.
    Mr. Holt?
    Mr. Holt. It looks like some of our subject matter is here.
    Thank you, Mr. Chairman.
    I thank the witnesses for good testimony.
    I particularly appreciate the line that there is no math 
gene, but I would also like to suggest that we not slip into 
thinking, and we did a few minutes ago, that there is a 
teaching gene. I served on the Glenn Commission, now 6 or 8 
years ago, whenever it was, with good recommendations based on 
the principle that, yes, Before It Is Too Late, is a title that 
is not yet overtaken by time, I think.
    But a principal point we made was that through professional 
development, good teachers can be developed. So just as no one 
should be told that she or he is incapable of learning math, 
similarly we shouldn't give up on teachers. There are just not 
enough genius teachers out there to fill the need.
    I certainly liked your testimony about why we need math to 
avoid fallacious thinking and to make sense of the world. We, 
among our colleagues and our staff, do constantly see the 
problems of poor understanding of statistics. We see it out in 
the country at large--inability to make order of magnitude 
estimates, clunky computation, and so forth.
    But here, we are extolling quantification and why we need 
this for everyone, and yet what we are talking about today we 
are unwilling to quantify. What is most striking about the 
report of the Foundation for Success of the National 
Mathematics Advisory Panel are phrases such as we need 
methodologically rigorous scientific research. Basic research 
is necessary.
    Research does not permit detailed conclusions. Very few 
studies were identified that probed the effectiveness of 
mathematics specialists. Research is smaller and less 
consistent than that which would be necessary. The body of 
high-quality studies on this topic is small. And yet we are 
making recommendations.
    It seems to me the recommendation that we need to make is 
we have to spend some billions of dollars in educational 
research. We are spending $100 billion roughly in teacher 
salaries. We are not spending a tiny fraction of that in the 
research that is necessary for us to understand. We can avoid 
that because each of us is an expert on teaching, because each 
of us was a student. But if we will listen to what we are 
talking about here today, it seems to me we will be drawn 
irresistibly to making a major commitment to research.
    So my question for you is, where should that be? If we are 
going to spend hundreds of millions of dollars in research so 
that we can quantify and understand what we say needs to be 
done, where should it be spent? Should it be the NSF? Should it 
be the Department of Education? Should it be NCTM? Who is going 
to do it?
    Let me start with Dr. Fennell please.
    Mr. Fennell. What a great catch on your part, because in 
fact the charge of the panel was to look at the research that 
is driving the field. What many of the task groups found was 
there isn't much. So were I to target where dollars ought to be 
spent, they would probably go in the following areas.
    We looked at the issue of curriculum focus and coherence. 
There is no research out there on that, and that is going to be 
a decision of what we decide relative to important mathematics 
for our culture. That is not a research-driven area. But the 
issue that you mentioned, at least one of them, is. And that is 
what do we know about teacher background? What do we know about 
what works in professional development? What do we know about 
alternative teacher certification versus what students might 
receive at Rutgers in your state or wherever? That research is 
dying to be done by colleges of education, by other people who 
prepare teachers at virtually every level.
    Similarly, we couldn't find a level of reliable research we 
might like on emerging technology. We have been using graphs 
and calculators in high school classrooms since, frankly, Texas 
Instruments and Casio figured out a way to do that. We don't 
have the research that talks about the impact of that on 
learning algebra, or frankly learning other higher-level 
mathematics.
    What about the research of distance learning as a 
technological vehicle? What about the research on particular 
materials in classrooms? We need, this culture of ours needs, 
to be more firmly grounded in research, particularly as 
technology emerges seemingly nightly, for us to grab hold of.
    So I couldn't agree with you more with regard to teacher 
background, with regard to instructional strategies. We know a 
lot about learning the subject. In fact, that aspect of the 
report was stronger than some others, but you can go through 
some of the areas that you cite.
    We see, by the way, the notion of a math specialist as a 
very promising practice, but only went down the path where we 
did have some research. The work of Bill Haver and his project 
and others kind of popping up around the country gives us 
promise, but we need to collect that data, look at it very 
carefully, before we say everybody ought to think about math 
specialists, everybody ought to think about calculators or what 
have you.
    Mr. Haver. Could I add something to that?
    Mr. Holt. With the chairman's permission.
    Mr. Haver. That kind of research is very expensive. We are 
very fortunate to have a grant from the National Science 
Foundation that permits this research to go on, to get the kind 
of treatment and control school thing that we have going on 
extending over a 6-year period of time, of having the school 
systems agree that they are not going to assign a math 
specialist to a school even if the parents are upset that the 
school next door has a math specialist as part of the study.
    This is a big project that takes a lot of money. I think 
something that I hope is considered is that it is better to 
fund serious expensive programs that are going to provide real 
answers to questions, than a whole bunch of little things, each 
with its own little small evaluation piece of it. You don't 
learn anything from that.
    Chairman Miller. Well, I am not going to do the math here, 
but we would start by dividing it by 100,000 schools. So it is 
a big study, but----
    Mr. Haver. Yes, but we can't have each school do the study.
    Chairman Miller. Right.
    Mr. Haver. We have to determine who is best qualified to do 
it, and to conduct it and to get real answers to real problems.
    Chairman Miller. Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman and Ranking Member 
Buck McKeon for having this congressional hearing. I find it to 
be extremely interesting and one that I think we need to have a 
second and third round of questions.
    I want to say that in following up with what Congresswoman 
Woolsey said about having a complete program for children to 
have art and sports and all that, I believe is very important 
and possible. I went to visit here in Northern Virginia the 
Thomas Jefferson Math and Science Academy because they were 
producing about 40 National Merit scholars, and I wanted to 
know how they could do it.
    To my surprise, they had a program that was very rigorous, 
but included theater, debate, chess, sports, band--everything. 
I asked the young juniors and seniors with whom we spoke how 
they could do that. They did say that it was a longer day than 
most of the public schools. I said, well, give me just one 
example of a day, an average day here at Thomas Jefferson. The 
young woman said, I get up at 6:00 in the morning, and I go to 
bed probably about midnight, but I go to school by 7:00 or 
7:30, and I don't get home until after the extracurricular 
activities, and it might be as late as 7:00 or 8:00 o'clock at 
night.
    To my surprise in seeing their school, they had wonderful 
science laboratories. They had lots of teachers with master's 
degrees and some with Ph.D.s. It was just a place where you 
could not get a job as a teacher because teachers didn't want 
to leave. They didn't have any turnover rate. I found out that 
they had diversity. They had lots of girls. They had Hispanic, 
African American, Asian American.
    So the myth that children of minority families can't learn 
is indeed a myth. It is that type of a program, and maybe Dr. 
Haver said it best when he said that research can be very 
expensive, but some of these schools can also be very 
expensive. So it is challenging for Congress and for the state 
legislatures to be able to create such an environment.
    So I am going to ask my first question to Dr. Wanda 
Staggers, because I have a great deal of interest of being a 
voice for minority students, for girls and minority children, 
African American, Hispanic, Asian American, because it seems 
that our children have less opportunities to be in an 
environment as I just described, but when they are placed in 
that environment, they perform very well.
    So my question to you is can you tell us more about ``It Is 
a Girl Thing?'' Did you experience barriers to pursuing math 
and related fields in your career? And how can we encourage 
more African American, Hispanic American, Asian American 
children to pursue careers in STEM fields?
    Ms. Staggers. For myself, I was directed into being a math 
teacher in 1972. I was never told anything about engineering, 
and I think it was because I was a female and maybe a minority. 
My guidance counselor was an older man, and he never suggested 
that I could be an engineer.
    Since that time, I am now enrolled in an associate program 
in engineering because I am determined that I am going to hold 
a degree in engineering.
    Mr. Hinojosa. Good for you.
    Ms. Staggers. Because of my determination, I don't want 
that to happen to other young females or minorities. So a 
couple of years ago, I started getting some grant money to 
offer summer programs. The biggest problem we have with our 
summer programs is they were girl's camps, and we would bring 
them onto the campus and introduce them to technology, is that 
they didn't have the transportation to get there during the 
summertime.
    So I formed a partnership with Clemson University, with 
Serita Acker. She is the director of women in science and 
engineering. She is also working to get females into the 
college level. So we decided we would form a pipeline starting 
at middle school. We got some grant funding from the 
Engineering Educational Foundation and from the American 
Association of University Women.
    What we did differently is we now go into the middle 
schools during the school day, so that way the kids are already 
at school. It is open to any girl who wants to be in the 
program, and they don't have to worry about transportation. We 
visit each of three middle schools in our district once a 
month. What we do is Serita has two female engineering students 
from Clemson University who design a lesson for the kids to 
carry out, and they come with us to the middle school and they 
teach them about chemical engineering, industrial engineering, 
biomedical, electrical.
    So each time we go into the schools, we take a hands-on 
activity that those girls can get excited about. With some of 
the funding that we have left, we are going to offer a 2-week 
summer camp this summer. That one is funded by the Society of 
Manufacturing Engineers, and we are going to send one girl from 
each one of the middle schools to the WISE summer camp. That is 
about $650 a girl. We are trying to get funding from wherever 
we can to introduce these girls to engineering.
    Mr. Hinojosa. Thank you for that wonderful answer.
    Mr. Chairman, I want to welcome a group that comes from my 
congressional district. These young ladies and their professors 
come from the All American city of Edinburg, Texas. That 
happens to be where I have my congressional district office. 
They have come to learn a little bit more about Congress and 
how it works. They represent an institute that is very 
interested in helping us with HESTEC, our Hispanic Engineering 
Science Technology program that I have brought to Congress.
    We are going to have 10 models in 2008 and 10 more models 
in 2009. It describes everything that you have said, Dr. 
Staggers--just creating an opportunity to tell students that 
they can be a scientist, an engineer, a mathematician, and then 
put them through the program that you just described. So thank 
you for coming to be with us and to be here in Washington.
    Mr. Wu. If the gentleman would yield just for a moment.
    Mr. Hinojosa. Yes.
    Mr. Wu. I very much appreciate the Texan's presence here. 
Although we very much appreciate Mr. Keller holding the fort, 
we do hope that there are a few Democrats left in Texas and the 
fact that they are sitting on the Republican side is not an 
indicator of their----
    Mr. Hinojosa. There were so many, David, that we had to----
    [Laughter.]
    Chairman Miller. The chair reclaims the time of the 
committee here. We want to welcome you very much and hope you 
enjoy your experience here. Thank you for joining us.
    Mr. Castellani. Mr. Chairman, may I make just a very brief 
comment on what Mr. Hinojosa just said?
    Chairman Miller. Sure.
    Mr. Castellani. It is indeed a math problem that business 
recognizes. This is a very simple part of the problem. Where 
the majority of the graduates of universities will be women for 
the foreseeable future, where a substantial portion will be 
African American and Hispanic, if we don't find ways to attract 
those people to come into the STEM disciplines and become 
engineers and scientists for us in industry, then we cannot 
meet the goal of 400,000 a year.
    Mr. Hinojosa. You are a courageous genius to be able to 
observe that.
    Chairman Miller. Yes, will you guys go out in the anteroom? 
[Laughter.]
    Mr. Tierney?
    Mr. Tierney. Thank you. It segues into what my line of 
questioning was going to be.
    I want to thank all of you, first of all, for your 
testimony. This is very enlightening. It shows me clearly why I 
didn't proceed further in math, and I am identifying all the 
issues now, a little late.
    But Mr. Castellani, corporations are oftentimes criticized 
for that relentless drive for the bottom line and people 
thinking that maybe the concept of corporate citizenship is 
suffering because of this real or perceived issue of having to 
have a return to your shareholders all the time and that takes 
paramount responsibility.
    So my question to you really is what should we expect of 
industry in terms of improving teacher preparation and 
capabilities of that? And how do we motivate it? And how do we 
organize it?
    Mr. Castellani. Well, in fact it is a very good question, 
and the two are absolutely tied together, because the demands 
of our shareholders, many of whom are pension funds--in fact, 
almost two-thirds are institutional shareholders--are that we 
provide better returns.
    We know we cannot provide better returns unless we can 
compete, and we know we can't compete and succeed in the 
international marketplace unless we have more qualified 
employees at all levels to be able to design, be able to 
manufacture, to be able to service, to be able to finance, to 
be able to distribute the products that we now find in every 
corner of the world.
    So what you see is a tremendous emphasis on corporate 
philanthropy in education. It is the biggest single focus of 
our members, and I think it is across all corporations. In 
fact, the numbers are difficult to add all up, but it is by our 
best guess somewhere between $600 million and $1 billion a 
year.
    The motivation is a very simple one. If we do not have 
high-quality graduates from our high schools, our colleges, our 
community colleges, then we will not be able to compete and 
meet our shareholder expectations.
    Mr. Tierney. When you direct resources in that way, do you 
get any push-back from people who may think that the quarterly 
bottom line could be bigger if you weren't putting resources 
over there? And is there any need for legislation or some 
notion to resolve that liability issue?
    Mr. Castellani. No. You know, I think there are some 
people, but it is a very minority of investors who say it is 
not the role of corporations to be engaged in philanthropic 
activities. In fact, the preponderance of investors recognize 
that it is the role of corporate leadership to make sure that 
we have the resources to sustain our companies in the future, 
and this is the most critical resource.
    Mr. Tierney. So here is the next question. I would open 
this to the panel. How do we organize that? I know that there 
are a lot of different philanthropic efforts out there, a lot 
of corporations in my district and like that. Are we getting 
the best bang for our buck as they all go off individually and 
do what they think is the notion of what needs to be done? How 
do we organize it in some way constructively that we focus it 
right in on, say, this math problem of getting those teachers? 
Who does that and how do we do it?
    Mr. Castellani. That is a very good question. We organize 
on an ad hoc basis. Achieve is one good example of how we can 
organize to share best practices and to share experiences. The 
National Math and Science Initiative is another way to do that.
    One of the things that is a shortcoming, and we have our 
members get together themselves in our own initiative on 
education in the workforce is we don't share enough information 
about the success of the programs that we support with each 
other.
    In fact, last year just before he retired, Herb Allison, 
the CEO of TIAA-CREF, convened a number of our members in New 
York and, together with the Business Higher Education Forum, we 
are beginning an effort to share those experiences so that we 
know among our own community what works and what doesn't work 
and focus better on those things that do work.
    Mr. Tierney. Does anybody else on the panel--Ms. Slover, do 
you want to address that? How is this working in this 
particular math issue? Can it be better organized and how?
    Ms. Slover. Thank you. Well, Achieve does have engagement 
with business. We have business leaders on our board.
    Mr. Tierney. And Massachusetts participates.
    Ms. Slover. Yes. And so I think there are several ways in 
for business leaders, and many business leaders choose to act 
on the local level because that is where they get the most 
recognition. We heard a little bit earlier about two companies, 
TI and ExxonMobil, and there are numerous companies, 
particularly those on our board who I should acknowledge, that 
do work at the national level.
    So I think it is finding for each business and business 
leader the way that they are going to connect with these 
issues. Achieve has some tools. We have a website called 
BizTools for Schools that really engaged business leaders in 
how they can act on many different levels, particularly around 
math and science.
    Mr. Tierney. I just think we are coming to more and more of 
a realization, and I think the chairman has been good at this, 
that we can't do it alone and that business has such a high 
stake in this that we really need to martial our resources. I 
am just wondering if we are not letting some of that leak away 
in the ad hoc approach, and if there isn't a better way to 
martial it so that we are not asking unfairly for more than 
ought to be asked for, but on the other hand we are getting all 
that we can get, and focusing where it needs to be addressed, 
where the needs are greatest.
    Ms. Slover. Right, so you can avoid the fatigue of just 
throwing money at a problem that always seems to get bigger. I 
think actually the Business Roundtable does a good job of 
really coalescing the business groups around a particular 
issue, identifying the important issues, and then helping them 
move en masse towards a solution.
    Mr. Tierney. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Wu?
    Mr. Wu. Thank you, Mr. Chairman.
    Professor Haver, I apologize. I came in right in the middle 
of your answer. We frequently have multiple committee 
assignments, all simultaneously holding their hearings. But 
were you analogizing curriculum development to federally 
sponsored scientific research in other fields?
    Mr. Haver. Yes. I think as----
    Mr. Wu. Thank you. I just wanted to depart from there. I am 
a little concerned about that analogy because research and 
biology or physics or other such things, that holds kind of a 
not quite universal, but a more global truth to it, if you 
will. Whereas curriculum has traditionally in our society in 
America been left to local development.
    It is not because there aren't universal rules of 
mathematics, but it is because there are some concerns about 
how such things should be taught at a local level. Instead of 
French education, where the French education minister in Paris 
on any given day knows what book a third-grader and what page a 
third-grader is on, but that is not true of the American 
education system for cultural and historic reasons. I am deeply 
concerned about an advocacy for a federal development of 
curriculum in any given subject.
    Would you care to respond to that?
    Mr. Haver. Yes. I think there is a difference between 
finding out things, for instance the math specialists that we 
have that was putting a math specialist in a school with the 
job of professionally developing all the teachers and 
developing a math program. Does that make a difference in 
student performance? That is the research that we are 
conducting.
    When we receive support from the federal government, the 
National Science Foundation, for this, nobody said that if we 
find out that this makes a real difference, that the federal 
government is going to make every school system do it.
    Mr. Wu. So you are not advocating for one particular 
mathematics curriculum.
    Mr. Fennell. The word ``curriculum'' is being used here 
inappropriately.
    Mr. Wu. Dr. Fennell, would you care to jump in?
    Mr. Fennell. Yes. I mean, what Bill was responding to was 
his initiative with regard to the preparing and the impact of 
mathematics specialists at the elementary level. It wasn't a 
response to specific curriculum materials used anywhere.
    Mr. Wu. That is reassuring. I was taught mathematics one 
particular way. It was the new math. It was a break from the 
past. It didn't scar me for life. It was okay. My kids, who are 
8 and 10 right now, are being taught math a different way. It 
is very different from the way that I was taught math. I am not 
sure that it is the right way or the wrong way. I would prefer 
to leave those decisions to teachers and local decision-making, 
especially in light of the gaps in research which Mr. Holt 
pointed out earlier.
    Mr. Haver. That is what I was speaking to, the need for 
that research so that the individual school systems and states 
can make the decisions based on facts, not on opinion.
    Mr. Wu. Very good. Then you have educated me. Thank you 
very much.
    I yield back the balance of my time.
    Chairman Miller. Mrs. Davis?
    Mrs. Davis of California. Thank you, Mr. Chairman.
    I am sorry I had to leave. I got all of your testimony 
earlier, and you might have covered this, but I know that you 
were talking about Massachusetts when I left, and the 
scattershot versus really being much more focused, and 
certainly the research from other countries has demonstrated 
that.
    To what extent do you think our textbook selections drive 
these decisions? What role do you think Congress might play in 
trying to mitigate that problem? It seems to me that it is a 
real one and I wonder if you could comment on that with some of 
your suggestions.
    Mr. Fennell. Yes. One of the early meetings of the panel 
included an invitation to all of the major publishers of 
textbooks in this country. Our work caused us to get through 
virtually everything in print. One of the panelists has coined 
the phrase that American textbooks--and I love this phrase--are 
bloated. I have several grandchildren, and one of them is 
carrying back and forth to school a 738-page third-grade book. 
I am concerned about a hernia at age 8.
    There is no good reason for books to be that bloated. But 
that market the publishers are reacting to, what the state 
standards are, and when you have 50 state standards that are 
frankly all over the place, and you are trying to sell that 
book in an open territory in this country, that is how it 
looks.
    Now, the publishers look us right in the eye and say, oh, 
you know what? We will change that. We are willing to change 
that when the states redefine their syllabi and so forth. And 
there are encouraging signs. I have seen books lose 200 pages 
in the last couple of years because the state, a major state 
that was either California or Texas, I forget which one, that 
sort of redesigned their curriculum framework so they have 
fewer objectives, then you have fewer pages.
    And by the way, it is not just elementary school. I have 
looked at algebra books that have over 1,100 pages. You talk 
about hernia. So the notion of what is important in that book 
and how it maps to really important mathematics is a critical 
question. It is not just the state directors of mathematics and 
the framework people who are responsible. Textbook publishers 
have to be in this, and we need to push on that.
    Mrs. Davis of California. Go ahead. I am sorry.
    Ms. Slover. I just wanted to reinforce that. It is 
absolutely the case that the states need to take the first step 
in narrowing and focusing their set of standards, and then the 
next step is for the textbook publishers to follow suit. We 
have talked among the states that we work with, the 33 states 
in the American Diploma Project network, about having a sit-
down, face-to-face meeting with those textbooks, including the 
National Council of Teachers of Mathematics in that 
conversation, to really make that point. We need help both ways 
to really cut that curriculum down and make those books a 
little more manageable for our kids to carry.
    Mrs. Davis of California. Well, I wonder, too, if it goes, 
Dr. Staggers, to the teacher preparation as well, and training. 
Because I think in many ways teachers are asked to cover so 
much material, and so when they sit in a textbook meeting to 
try and decide on textbooks, they are impressed also with the 
length of the book, how much material is in the book, but not 
necessarily the depth because in some ways they haven't 
necessarily been schooled in that depth as well, unless they 
have been retrained and had that opportunity.
    So I guess I am seeing that a lot of that plays in 
together. What else should we be looking for in this area?
    Ms. Staggers. In many of our Project Lead The Way 
classrooms, we don't have class sets of textbooks. You can if 
you want, but I would rather have a collection of resource 
books, rather than 30 copies of the same book. I would rather 
take that money and put it into some type of technology, 
because the books become outdated so quickly.
    We can use the Internet to find up-to-date information, and 
as I said, a collection of resource books. We can use authority 
figures on those topics. That is where I would rather invest my 
money. Now, if it is a subject area that is not going to 
change, then that may be different. But even math books, it 
doesn't change, but the photographs and things in the book and 
the type of references to the word problems in the book are no 
longer relevant to that generation. So sometimes it is better 
to have a smaller resource and be able to update it readily.
    Ms. Wolf. If I may, can I add one thing as well? Is that 
okay?
    I have been involved in a task force looking at the future 
of content, and all the major publishers have been there. We 
held hearings in Texas and in Florida, where we brought in 
teachers, district leaders, state leaders--people in the nitty-
gritty of textbook adoption.
    When you take a step back and you start to listen about 
what is possible, teachers do want to have some options to make 
decisions because they are in fact experts and they can have 
professional development. There are different possibilities, 
and textbooks are one key piece.
    But as Dr. Staggers just alluded to, there are many 
different kinds of curriculum and opportunities, whether it is 
through digital or other resources that may play into what that 
content looks like. I do encourage all of us to talk about it 
in that way because sometimes the depth that has been 
referenced that we want to get to is much more possible, or 
that application of knowledge may come through in some of those 
digital content areas in a way that just the stand-alone 
textbook does not.
    But again, if you look at what publishers put out there, 
there usually is a range. So I think in thinking about this in 
a new and creative way of what is it that we need to give our 
children the best content and give teachers that flexibility to 
utilize it to meet the needs of No Child Left Behind in those 
ways.
    Thank you for letting me jump in.
    Mrs. Davis of California. Yes. Thank you. And it is the 
exposure also, and I think the problem that you have cited 
earlier is that unfortunately not everybody has the same kind 
of exposure in teacher professionalism that you are talking 
about.
    Thank you.
    Chairman Miller. The chair is recognized for a second round 
of questions here.
    I think that Mrs. Davis opened up a very important 
discussion here. It goes to your testimony, Dr. Wolf. That is 
that you stated, or the pamphlet that you handed out states no 
industry or organization can remain competitive without 
comprehensive use of technology as a matter of course in its 
operations.
    Schools are fighting mightily against that trend. We 
haven't seen any major institution in the world that has 
engaged the Internet without its architecture dramatically 
changing. In some industries, it has turned out to be a profit-
killer because of the dramatic worldwide competition that it 
introduces. It has introduced massive efficiencies. It has 
introduced massive collaborations. It has introduced massive 
markets to people who were making jam in Pennsylvania and all 
of a sudden they are selling it all over the world. But schools 
are going to keep it out as long as they possibly can, 
apparently.
    What I find amazing is that teachers of mathematics have 
not yet developed an open-source textbook that is available to 
teachers and they can take it. I visited an organization in 
Silicon Valley where the woman running the organization is 
developing the equivalent of the California textbooks with all 
the same writers, same editors and the rest of that, and you 
can have it any way you want. So you don't have to lug around a 
12-pound textbook. You can have it by CD. You can have it at 
home. You can download it. You can pick and choose. You can 
change the pictures. You can add in today's, and it is a 
Wikipedia approach to the world.
    The basics of mathematics haven't changed very much. There 
has been new discovery, but there is a lot to be added in terms 
of the teaching of that. At some point, if we can't engage 
this, you know, that bridge, you don't have to build a bridge. 
You can do all of those studies with your students virtually, 
right? You can do it and you can load that bridge down and 
those trusses will eventually break or they won't, and they 
will have success or they won't.
    The reluctance to engage the technology is just stunning to 
me when I see the opportunities. So if you talked about one of 
the students engaging in after-hours problem-solving and back-
and-forth with students who wouldn't speak up in class, but 
were participating in those text sessions or e-mail sessions or 
whatever they were using at that time.
    We went to a conference on technology and education by 
CUNY, with one of the founders of Sesame Street in New York 
last week. We listened to the creative director of Electronic 
Arts, which this month is most famous for Grand Theft Auto--
$500 million bang in a week--but also for John Madden Football. 
He demonstrated there John Madden teaching mathematics.
    The probability that if you match the linebacker head-on-
head with a specific runner, what was the probability that that 
tackle would be made; what is the probability, according to the 
statistics, of that season that if you hit that running back at 
an angle, that that tackle would be made. This is what a 
generation of people did, as he pointed out, around baseball, 
before you had all the other entertainment.
    Now, John Madden may not be the best mathematics teacher in 
the world, but there is a curriculum there for somebody in 
those discussions and those very applications of mathematics. I 
am just stunned that we would suffer a bad math teacher when we 
can import a good math teacher on the video. That doesn't mean 
that is the answer. It doesn't mean they don't need support 
systems, but that is the subject of another hearing and this 
will be back before the committee. I know you look forward to 
it. [Laughter.]
    Dr. Haver, what do we know about--we have had reading 
specialists around longer than math specialists. I know in 
California, my father started a program called the Miller-Unruh 
Reading Teachers. Politicians got together and decided they 
should have extra reading resources. Most of them are gone now 
in the state over the last 30 years, but I always find it 
interesting that the wealthier districts never gave them up.
    They are all gone from the poorer districts because of 
budget cuts, because if you lost them, you could never get them 
back. But parents in the wealthier districts have always 
scrambled to keep them. I just wondered, I don't know if there 
was any study, except that obviously somebody liked their 
participation and teachers rave about them, but we never had 
any hard studies on their effectiveness, or have we?
    Mr. Haver. In Virginia, most of the reading specialists 
until very recently have been involved with pulling out 
students out of a classroom that are having difficulty, and 
working with those students. That hasn't been our model for the 
math specialists. The model there is for them to coach the 
teachers and team-teach with the teachers to change the way 
mathematics is taught in the whole school.
    A very pleasant side effect of the work we have been doing 
with math specialists in Virginia is that the reading 
specialists are gravitating to that model more, too.
    Chairman Miller. You are building capacity with the 
teacher?
    Mr. Haver. That is right, getting the teachers so that they 
can do it. If a teacher doesn't know mathematics very well, 
they are going to have to just isolate it. They are going to 
have a difficult time integrating it into a study of geography 
or art or anything unless they can get help to do so. So that 
is what the math specialists do.
    The reading specialists are in many of the schools that 
have the math specialists, and are working on developing that 
same capacity doing that same thing. That would be a very 
interesting question to see the impact of that, and whether it 
makes a difference. And no, I am not aware of any research 
along those lines.
    Chairman Miller. Thank you.
    Mr. Keller?
    Mr. Keller. Thank you very much, Mr. Chairman.
    I appreciate all the witnesses for being here. I am 
convinced of three things if we want to get more math majors. 
First, we have to reward good teachers and we have to get rid 
of bad math teachers. Second, we need more girls taking more 
math courses and become more math majors. And third, we have to 
give kids the realistic information about the career 
applications of mathematics.
    If I can be specific on each three, and I will follow up 
with Dr. Fennell on merit. We have a teacher at one of our 
inner-city high schools who happens to be a basketball coach. 
He teaches advance placement calculus. His classroom is filled 
with low-income and minority kids who really kicked butt on the 
AP calculus class, the best rate in the whole county. He takes 
the poorest kids and they are all passing AP calculus classes.
    I would love to be able to pay that guy more. On the flip 
side, if we have a horrible second-grade teacher who is 
incompetent after a couple of years, I don't care what the 
union says. We have to get rid of her or him, whoever it is. 
That is just some straight talk, and I am not going to ask you 
all the way into the controversial issues of local union stuff, 
but that is the truth, in my view.
    Second, on gender, I will ask you about that. In this 
report, Dr. Fennell, I looked through it and it is pretty 
silent on the gender issues except when you get to pages 31 and 
32: social, motivational and effective influences. Average 
gender differences are small or nonexistent. I assume you are 
talking about test scores, as opposed to the number of boys and 
girls taking mathematics and engineering courses. Is that 
correct?
    Mr. Fennell. Actually, that data does look at test scores, 
but I would claim that the issue of surrounding gender is much 
different than it was even 5 years ago. We have far more girls 
and young women majoring in mathematics in this country, doing 
more advanced calculus at the high school level, and on beyond 
calculus.
    Mr. Keller. If I looked at 100 students taking AP calculus 
at a typical public high school, what percentage would be girls 
versus boys?
    Mr. Fennell. Well, the gentleman just walked out, but the 
high school he mentioned in Northern Virginia probably would be 
50/50 or even more favoring the girls, but it is going to 
depend on the area.
    Mr. Keller. I have not seen that anecdotally, I will tell 
you that, at all. I mean, no even close. I took advanced 
placement in calculus and there were no girls in the room. I 
took organic chemistry and physics in college and a very small 
percentage were----
    Mr. Fennell. That has turned around quite a bit.
    Mr. Keller. If I looked at the number of math majors and 
engineering majors at MIT today, do you think it would be a 50/
50 split on gender?
    Mr. Fennell. No, not at those places, but at smaller places 
where there is more inclusive attitude toward all people 
achieving, you would probably see more.
    Mr. Keller. I think it is a flat-out problem. I think if 
you took the calculus class and test, and Dr. Staggers took the 
calculus test, I think you both would get fives and you both 
would get great, and I wouldn't see a difference in scores. But 
when you looked around the room, I think there would be more 
males and more boys taking the calculus class. I just have 
observed that, and I think we ought to get more girls taking 
it.
    That leads me to my third thing. I think guidance 
counselors have to do a better job of telling these young girls 
and low-income kids, boys and girls, the consequences and the 
ramifications of taking math classes. I have a little girl. I 
have three little girls, but I have an 8-year-old little girl 
who does okay in math, and she tells me that she doesn't really 
like it. Her dream in life is to become a veterinarian.
    I said, Christy, you are not going to be a veterinarian 
unless you can do trigonometry and physics. That is just the 
bottom line. And to do trigonometry and physics, you have to 
work your way up. I took a bunch of children from an inner-city 
school in eighth grade out to Lockheed Martin to meet with 
folks who design video games and simulators.
    I said, how many of you like to play video games? And all 
the hands went up. How many of you would like to design video 
games and simulators? All their hands went up. How many of you 
know that you have to take 3 years of math classes and do 
trigonometry before you can get a job doing this? None of them 
knew that. We have got to make sure that these kids know the 
consequences of taking 3 years of math and science.
    I will just give you one final example. I think nursing is 
a wonderful profession. Being a doctor is a wonderful 
profession. But I personally know, and I have friends of mine 
who are females who decided to be nurses, even though they are 
as smart as everybody else, because they didn't want to take 
calculus. Well, that is fine, but when you make that decision 
when you are 17 years old that you are going to be a nurse 
instead of a doctor because of calculus, well, 12 years from 
now when you in the neurosurgical suite and you are making 
$50,000, you are going to be handing the scalpel to somebody 
making $900,000, all because you didn't want to take a trig 
class and no one told you that in high school.
    Now, we have got to do a better job of guidance counselors 
telling these young ladies the consequences. Don't pretend like 
there are not consequences. There are. And encourage them to 
keep their options open by taking 3 years of math classes in 
high school.
    Dr. Staggers, do you want to weigh in on that as both a 
mathematician and a female?
    Ms. Staggers. I completely agree with you. I keep going 
back to Project Lead The Way. Part of their professional 
development model is to have training for counselors as well. 
So in their component, they not only train teachers, they train 
the counselors and the administrators. So the counselors know 
what to tell the students, because you are right: students 
don't know. Just as I said when I was in high school, I didn't 
even know what engineering was and no one offered to tell me, 
so I didn't know to ask. And I didn't have parents who were 
college-educated who would have told me.
    So I agree with you totally. Maybe the teachers need to 
take on some of that responsibility as well, of being sure the 
students know the consequences of their choices.
    Mr. Keller. Thank you.
    My time has expired, but maybe the chairman will let Ms. 
Slover respond.
    Chairman Miller. Does Ms. Slover have a comment?
    Ms. Slover. Thank you so much.
    I just wanted to jump in here, because Achieve has just 
recently completed some work that speaks to your question 
directly. We have to communicate better that the more math you 
learn, the more money you earn, and that the choices you make 
in high school have repercussions for a long time.
    What students don't know or may not know is that even in 
professions that don't require a 4-year college degree, math is 
a requirement--you mentioned nursing, other health 
professionals like lab techs, aeronautics, manufacturing, 
construction, technology. We have just done a lot of research 
in the last 8 months about those professions and how 
mathematics is used every day on the job in those professions.
    We have come out with several publications which I would be 
happy to share with you, congressman, that make the case in 
very simple, easy to follow language, for policymakers and for 
students and teachers that math is important, why it is 
important, and what the impact will be on their career choices. 
So I would like to share that with you afterwards.
    Chairman Miller. So you think even policymakers could 
follow this? [Laughter.]
    Ms. Slover. I think so.
    Chairman Miller. Okay.
    Mr. Hinojosa?
    Mr. Hinojosa. I want to say thank you for having a second 
round of questions. This one is directed to Mary Ann Wolf.
    I want to say that, or rather ask, you mentioned that 
online professional development is a means to positively impact 
the practices of teachers, and ultimately increase student 
achievement. Can you expand on that? How do you measure the 
impact that online professional development on teachers and 
students can be assessed?
    Ms. Wolf. Thank you. I look more at professional 
development as needing to be ongoing and sustainable. There is 
a body of research that has been around for a while and 
continues to be looked at by Joyce and Showers that shows that 
a one-stop shot workshop has about a 5 percent change of a 
teacher implementing that in the classroom. I will tell you 
that I went to those workshops. I was all excited, as I believe 
you referenced, and then I had no time to go back and do any of 
it with my students.
    But if you look at Joyce and Showers research over time, 
and you add mentoring and online communication and ways for 
teachers to connect and ultimately coaching and mentoring, 
there is a 90 percent chance that those teachers will change 
what they are going in the classroom. That is what I think we 
all want to do.
    The reason I speak so highly of online professional 
development in this context is that for a lot of people there 
may not be that instructional coach in the school or maybe they 
are teaching in a subject area where there is no other calculus 
teacher in the state perhaps. So what online professional 
development does in education portals and those other ways is 
it provides access to those opportunities to connect teachers 
in a sustainable way, and that is what we do know that makes a 
difference.
    So I think those rural areas, to some inner-city areas and 
other places, that just is a tremendous opportunity for more 
and more teachers. We look at Alabama that has great resources 
in place where they are connecting teachers and students with 
online development and resources, as is Arizona and many 
others.
    So I really appreciate the question. I think we can do more 
to look at, and I think we are beginning to. eLearning Delaware 
has a program now directed directly at math where teachers can 
take three courses. One is actually developing those beginning 
algebra necessary skills even before kids get to algebra, and 
they are helping to teach that. So I think online professional 
development plays a key role in that ongoing and sustainable 
piece.
    Mr. Hinojosa. Thank you.
    My next question goes to Dr. Fennell. I liked what I heard 
from you and Dr. Haver about the involvement of the private 
world, the profit-making businesses that are looking for a 
trained workforce and how much they are needed, because we 
can't do it alone. Certainly, the state legislatures throughout 
the country can't do it alone. So we need their participation, 
their involvement.
    Tell us how it is being done in your states. I think, Dr. 
Haver, you come from Virginia. I think that with the examples, 
models that I have seen in Virginia, we need to better 
understand how to bring business and industry as partners, and 
to put in some of their treasures into this effort that is 
being made in math and science.
    So I will start with you, Mr. Fennell.
    Mr. Fennell. Sure. I actually come from Maryland. While I 
can't immediately recall a business partnership, I am going to 
share with you a governmental partnership. The National 
Security Agency, NSA, works very directly with teachers in four 
or five counties surrounding the Baltimore and Annapolis area 
to provide professional development, to provide activities for 
children, and even competitions for kids. So there is an 
opportunity where an entity that is governmental in nature has 
found a way to reach out to connect with people who are in 
classrooms, as well as children, and showing them what can go 
on.
    Mr. Hinojosa. Where does the money come from and how long 
is the program?
    Mr. Fennell. This project has been going on for a long 
time. You can define a ``long time'' by sort of looking at me, 
probably 15 or 20 years that I am aware of. My guess it comes 
somehow from their budget, but I know that teachers in Anne 
Arundel County, Maryland, and Howard County, Maryland, and 
Baltimore County, Maryland have seen the fruits of that 
partnership.
    Mr. Hinojosa. You didn't mention any businesses coming into 
the partnership here. Have you all looked at that? Or do they 
partner for the schools?
    Mr. Haver. I would like to respond to that.
    Mr. Hinojosa. Dr. Haver?
    Mr. Haver. I am from Virginia, and have been talking here 
about the work we have been doing with math specialists over 
the last dozen years. We have had a very helpful partner in 
this work, ExxonMobil. They didn't just give us money. Their 
staff members work with us. They had a sustained interest in 
what we were doing over the 10 years. They didn't expect 
immediate results or to fix something and then get out. They 
made a long-term commitment to seeing what could be done to 
make a difference. I think that kind of support is much more 
valuable than just money.
    Mr. Hinojosa. In Texas, we have seen ExxonMobil start up a 
program that they call UTeach. It has been proven for the last 
5 years at the University of Texas in Austin that it works, so 
now they are expanding it using that model through other 
states. But I am very pleased to see that they are producing 
very well prepared teachers like all of you talk about us 
trying to produce. They are certified to teach advanced 
placement and international baccalaureate programs, which then 
prepare the children to get into these STEM fields. I just wish 
that we had more companies doing that.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Let me just say, you have been very generous with your 
time. I don't know if any of you have a time problem. Feel free 
to leave if you have to.
    We are going to have votes in about 10 minutes on the 
floor, so if you can stay, I would appreciate it. If you have 
to leave, not a problem.
    Mr. Wu is recognized.
    Mr. Wu. Thank you, Mr. Chairman.
    I want to re-open a topic which the gentlelady from San 
Diego, Susan Davis, opened about textbooks, and which the 
chairman followed up on about the adoption, or the failure of 
adoption, or new and innovative technologies. I know that none 
of you are necessarily textbook experts, or maybe you are, but 
I have been working on this textbook issue for about 5, 6, or 7 
years, but in a college context and in a cost context.
    I am stunned, Dr. Fennell, to hear that a third-grader 
would have a 730-some-odd-page textbook. I never had a textbook 
that long in college. There was a two-volume physics, the 
Halliday-Resnick was two volumes----
    Chairman Miller. Before you get to the third volume, get to 
the question. These people have been here a long time.
    Mr. Wu. I never had a textbook that long in medical school. 
It wasn't until law school that we had a textbook that long.
    Does the thickness of that book not only weigh down the 
student? Is there a cost factor to the school or the school 
district for that textbook?
    Mr. Fennell. Absolutely. I think this is a very complex 
issue--the fact that published materials are trying to meet so 
many goals from so many states just to be, if you will, 
adopted. In some cases around this country, as some of you 
represent, you are in a state adoption state where you can only 
list so many books, so it becomes very competitive. In other 
places, it is open territory so the books frankly become more 
bloated in those areas.
    And then the chairman mentioned Madden football or 
whatever, which I understand very well, by the way. But the 
piece is that every published program in elementary school 
mathematics and high school mathematics is available on the 
web, can be picked up, and frankly isn't used.
    That is a teacher problem. That is a teacher acceptance 
problem. That is a teacher comfort problem. But that would sure 
save a whole lot of kids and folks lugging home stuff, but it 
is just one piece.
    Mr. Wu. Is there a failure to edit on the part of the 
textbook industry? You know, just throw it in; they will pay 
for it somehow?
    Mr. Fennell. I think it is also a need to be attractive, so 
maybe you have more pictures than you need. And you have 
problems that are particularly relevant to particular areas, as 
in programs that are trying to be tailored----
    Mr. Wu. Throw it all in and somebody will pay for it.
    Mr. Fennell. Yes, exactly. Yes. We have something for 
everybody here.
    Mr. Wu. Yes. So it creates a problem in this case for 
school districts.
    Mr. Fennell. Sure.
    Mr. Wu. And at higher education levels.
    Mr. Fennell. You allude to a very silent audience. You 
alluded to the college student audience who is paying an 
astronomical fee for that intro biology book that is going to 
be used only in that course for lots of them.
    Mr. Wu. They are not silent.
    Mr. Fennell. Good.
    Mr. Wu. We have received more mail on the textbook issue 
than any other issue that we worked on.
    Mr. Fennell. Good to hear.
    Mr. Wu. It is a very motivated, intelligent consumer group. 
They are not going to stand silent for this for very much 
longer. I think we have a piece in the higher education bill to 
try to address this for college students. It is interesting to 
hear that is an issue for K through 12, that somebody else, the 
taxpayer, is footing the bill.
    Chairman Miller. Mrs. Davis?
    Mrs. Davis of California. Just really quickly, because I 
want you to be able to go.
    Would you think of some way that we could incentivize a 
different approach as we work on No Child Left Behind? Is there 
some suggestion? Part of it would be research. I would love to 
see research that shows that the number of pages is directly 
not proportional to the amount of learning that takes place or 
something.
    Mr. Fennell. What about research that looked at student 
understanding? By ``student understanding,'' I mean real 
understanding and proficiency and the ability to solve 
problems, if you will, critical foundations, really important 
mathematics that leads to algebra, as compared to such bloated 
programs where it is a scattershot approach to the subject.
    Mrs. Davis of California. A look at those best practices, 
yes.
    Chairman Miller. Also, it is interesting that California 
history and Texas history looks different in an open-source 
textbook by high school history teachers who are Hispanic, than 
it does by the publishers. And Hispanic students seem to be 
more engaged and interested in that version of California 
history, which is every bit as accurate as the other one. So 
there are a lot of possibilities here.
    I think that textbook publishers are about to encounter the 
next iteration of the web and its architecture. They are 
obviously deeply engaged in changing that architecture because 
they can see what is happening, when they measure the carbon 
footprint, and today when they do it, you can go to Kendall on 
Amazon and download your book in a minute and be on your way, 
but the student has to lug it around the neighborhood.
    I would just like to go back to one question, and then we 
will let you go. This is for Dr. Wolf and whoever wants it, but 
the question you raised in the panel was about formative 
assessments. Obviously, this committee in No Child Left Behind 
is struggling with assessments. You found them to be helpful. 
It goes to the question of real-time feedback in terms of how I 
am asking the question.
    Mr. Fennell. The research in that area is pretty solid. It 
is solid solely at the elementary school level, and it 
essentially means the following. If you are the classroom 
teacher, you can use things like observation as you spot, if 
you will, how your students are doing on a topic. You can use 
quick end-of-class, if you will, maybe paper-pencil, maybe 
computer-driven assessments to not only monitor, but begin to 
kind of track the progress of how you are teaching, what you 
are teaching, and also your students.
    It is a guiding effect, if you will, to the classroom 
teacher. At least in this panelist's opinion, it ought to be 
part of the repertoire of every classroom teacher. What is 
interesting to me is that the research that was located and 
found and which drove this recommendation is solely at the 
elementary school level. And yet, wouldn't middle school 
teachers, wouldn't high school teachers also benefit by using 
such guiding assessments to drive their practice?
    Chairman Miller. Ms. Wolf?
    Ms. Wolf. Thank you. We also see the opportunity here as 
tremendous, and technology makes it possible. When I taught, I 
literally had one child who couldn't read in fifth grade, and I 
made 10 flash cards every night for that child, but I could 
individualize for one student. What formative assessment is, 
especially when you consider using technology does, is it 
allows you to constantly know where kids are. It can look like 
a test, but can also be students using clickers where a teacher 
can see exactly who knows how to multiply that fraction, and 
yet the kids don't have to know who got it right, but she 
immediately knows, okay, I need this group to do this, this 
group to do that, or this student here. Or I need to start all 
over.
    So there are many different ways to embed assessments over 
the course that constantly tells the teacher what they need to 
do, how to target, and I think ultimately it individualizes the 
instruction where we can meet the needs of all students. I 
think this is an area where a lot of different schools are 
really starting to look at, invest in having data teams. I 
think it is a place that encouraging can only help education 
for all kids.
    Chairman Miller. Dr. Haver, is there anywhere here in terms 
of feedback between the specialist, the teacher and outcomes in 
the class with formative testing?
    Mr. Haver. Absolutely. What we know for good instruction is 
that teachers have to think about what is going on in their 
classroom, what has happened today, and how that changes what 
happens tomorrow. It is another reason why we don't want to 
have 90 outcomes, because otherwise you have to move on to 
outcome 47 the next day once you have done 46, but to take 
advantage, to think about what has happened today and have that 
influence what happens tomorrow.
    And yes, that kind of ongoing professional development for 
teachers, whether it is through the specialists in our model or 
whether it is through technology or whether it is through other 
sustained activities is necessary to bring about a change in 
how many students are successful. We have to develop the skills 
in the teachers to use a variety of tools to have their 
students learn in a way that is possible.
    Ms. Slover. This may be obvious, but at the risk of being 
obvious, all of these things are so important and can be so 
useful as long as they are part of a coherent package. I think 
that Dr. Fennell and Dr. Wolf both were moving in that 
direction.
    The formative assessment has to be aligned with the end-of-
year assessment. It has to be aligned with the curriculum and 
the standards. And all of those things have to move along 
together, otherwise you will have kids going in all different 
directions. So forgive me for being obvious, but I thought that 
was worth stating.
    I really appreciated what Dr. Fennell said about formative 
assessment also including just the teacher's interaction with 
students. So often, there are great technological solutions and 
we could spend a lot of money, but we also have to remember 
that part of the craft of teaching is to be able to assess your 
students every day in the classroom on what they are learning.
    Chairman Miller. Thank you very much.
    Thank you all for your time and your testimony and your 
expertise. We are already plotting the second hearing up here, 
playing off of what you have said here today. So it has been 
very helpful.
    I want to introduce into the record the testimony that was 
going to be presented by IBM had they participated.
    [The information follows:]

                    Prepared Statement of IBM Corp.

    Thank you for giving IBM the opportunity to convey our support for 
the National Math Advisory Panel's recommendations focused on raising 
expectations and standards for mathematics and improving teacher 
preparation and professional development for math teachers.
    IBM, like many U.S.-headquartered companies, has become a globally 
integrated enterprise. As our economy becomes more globally integrated 
and competition becomes more fierce, there is growing recognition that 
innovation is the key to being able to effectively compete. Localities, 
states and nations are striving to become places where knowledge is 
generated and transformed into new commercial and societal value. They 
recognize that an innovative, knowledge-based society creates jobs, 
raises living standards and generates growth that competitors can't 
duplicate rapidly.
    The question we face is what needs to be done to create an 
environment that will foster innovation? An important criterion will be 
the quality of education in order to equip students with the needed 
skills for the 21st century workforce. Mathematics is a critical skill 
in this equation.
    A report recently released by the U.S. Department of Labor suggests 
that over the next 10 years, the need for technical people in this 
country is going to grow not by 30 percent, but 50 percent! While the 
demand for these jobs is increasing, the supply of talented workers 
isn't keeping pace. A skilled and talented workforce is a fundamental 
requirement to attract investment, foster real wealth creation and spur 
innovation in this country. It is critical for our continued 
competitiveness.
    We are firm believers in the need to build the base of scientists 
and engineers and prepare the next generation of innovators. It is 
clear that if we are not going to have a constant flow of talent in 
science and engineering, we concur with the report's recommendation 
that we need to focus on the earliest stages in the K-12 pipeline. We 
also must ensure that students, from elementary school all the way 
through graduate school, are having the experiences that will generate 
enthusiasm about math and science and their ability to solve problems. 
They also must complete a rigorous and relevant curriculum so that they 
have the option of pursuing scientific, technical and multidisciplinary 
degrees in college or being adequately prepared to enter the 21st 
century workforce.
    What needs to happen to prepare students to participate in a 
knowledge-based economy?
    <bullet> First, our children need to be prepared to discover new 
things every day using a focused, coherent progression of mathematics 
learning;
    <bullet> Schools should implement a mathematics curriculum in 
grades pre-K through 8 that is streamlined, with an emphasis on 
proficiency of key concepts;
    <bullet> Students need reinforcement that achievement in 
mathematics comes from effort and isn't a skill that only results from 
an inherent talent.
    Education is a part of IBM's DNA. We consistently play an active 
role in promoting and boosting education efforts at both national and 
local levels. For many decades, IBM has been one of the leading 
corporate contributors of funding, technology, and talent to non-profit 
organizations and educational institutions across the U.S. and around 
the world. We are committed to applying our skill and ability as an 
innovator against the challenges that exist in communities, addressing 
both education and societal concerns, and doing so in a fundamental and 
systemic way.
    Why does IBM believe this is such a critical issue? The number of 
students taking advanced math and science classes and choosing 
engineering or technical careers is declining, yet the U.S. needs to 
grow its population of qualified, technically proficient workers in 
order to remain competitive.
    This is a tall order and goes well beyond mastery of math and 
science skills and knowledge. Fundamentally, this requires a cadre of 
incredible math teachers in our schools, teachers who have the content 
expertise, the real world experience, an understanding of problem-based 
learning and the pedagogic practice to launch the next generation of 
innovators.
    Studies have shown that over the next 10 years we need 2 million 
more K-12 teachers in this country; and, in addition, we need a quarter 
of a million math and science teachers in the next two years. Nearly 80 
million baby boomers are going to leave the workforce some time soon. 
That's a huge problem for the U.S. In addition, over 40 percent of the 
same population of teachers are 50 years or older. This underscores the 
importance of this issue and the fact that our country must invest in 
improving and enhancing our education system.
    Classroom teachers with strong knowledge about mathematics have a 
central role in math education. We agree that rigorously evaluated 
initiatives for attracting and appropriately preparing prospective 
teachers and evaluating and retaining teachers are critical to our 
students' success. The mathematics preparation of elementary and middle 
school teachers must be strengthened to improve teachers' effectiveness 
in the classroom. This includes: pre-service teacher education, early 
career mentoring and professional development.
    As the report states, ``The impact on students' mathematical 
learning is compounded if students have a series of effective teachers. 
Teachers should understand how to provide clear models for solving a 
problem type using an array of examples, offer opportunities for 
extensive practice, encourage students to ``think aloud,'' and give 
specific feedback.''
IBM Initiatives
    In 2006, IBM announced Transition to Teaching, our initiative to 
address the K-12 pipeline issues and encourage young people to enter 
science and engineering careers. IBM's leadership in school reform has 
grown steadily since we first launched Reinventing Education in 1994, a 
global program, working with more than 100,000 teachers. Our most 
recent partnerships with school districts focus almost exclusively on 
professional development because if we want great schools, we must have 
great teachers.
    We established the Transition to Teaching initiative by leveraging 
our greatest asset--IBM employees. Of course, most IBMers have 
backgrounds in math and science, whether they are currently working in 
software development, research, consulting or management. IBMers are 
also great volunteers; more than 115,000 have signed up for volunteer 
assignments through our On Demand Community, contributing about 5 
million hours of service. Moreover, the majority of IBMers who 
volunteer do so in a school, whether as one of the legions visiting 
schools for e-Week (engineering Week); showcasing IBM's new 3D internet 
multi-player game, Power Up, focused on solving problems related to 
energy and the environment; as one of our 8,000 eMentors providing 
online academic assistance to students; or one of those working with 
children in a Head Start or daycare program that has a KidSmart 
program. They also lead after-school programs for middle school 
students and coach high school students for science fair and robotics 
competitions through TryScience.org.
    This is an issue that impacts us all, but we do need to have a 
targeted strategy that is appropriate and effective in each and every 
community. That's why this month, IBM hosted the America's 
Competitiveness Summit to focus attention on the specific challenges we 
face to maximize the talent in the Hispanic Community and encourage 
young people to prepare for and explore STEM careers.
    These IBMers tell us repeatedly that they have a passion for 
education, young people and for giving back to the community. 
Recognizing that there is a national teacher shortage in math and 
science and that there is large group of IBM employees who are eager to 
continue being productive and contributing to their communities, we 
created the Transition to Teaching program. Transition to Teaching 
specifically targets our mature workers who are interested in a second 
career in teaching, providing guidance, support and funding to help 
them transition into teaching as their next career move.
    Specifically, IBM provides each participant with up to $15,000 for 
tuition reimbursement and stipends during their time in the classroom. 
Each participant chooses his or her own teacher certification model, 
but we encourage colleges of education to develop flexible programming, 
involving both online course work and more traditional courses with 
flexible scheduling. The IBMers also participate in online mentoring, 
both while they are still working and going to school, and once they 
graduate and begin teaching. We have a special social networking site 
for them at www.ibm.com to enable them to share and learn from their 
experiences. Finally, we have designed a special leave of absence 
program that provides each participant to conduct up to a year of 
student teaching while they maintain their benefits.
    Today, there are 100 IBMers participating in Transition to 
Teaching. IBM designed the Transition to Teaching program after a 
careful review of the research, the experience of second career 
teachers, best practices in teacher preparation and our own focus 
groups with IBMers. We have a few program essentials.
    First, teachers must have a strong, in-depth background in the 
subject area. Our criteria focus on IBMers who already have a Bachelors 
degree or higher in a math or science discipline.
    Second, we believe that IBMers need to learn the craft and skill of 
teaching, classroom management, and instructional practice to be 
effective. Thus, we are reimbursing their tuition costs for education 
preparation.
    Finally, we believe that it is absolutely essential for an 
individual to have practical K-12 classroom experience, observe good 
teaching and then practice good teaching BEFORE taking responsibility 
for a class of children. Therefore, we provide support for them to do 
student or practice teaching. We know there is a huge gap between 
mastery of a subject and the ability to teach that subject to others. 
We owe it to our IBMers and to our students to give them all the 
preparation they need, and we have designed Transition to Teaching to 
meet that standard.
    Transition to Teaching and similar efforts are not a panacea, but 
they are part of a unique and real solution to the math and science 
teacher shortage. IBM is proud to demonstrate our corporate commitment 
to implementing solutions to the math/science teacher problem in our 
country, and we are working with other companies to encourage them to 
adopt a similar model for their transitioning workforce.
    In addition, we also continue to collaborate with individual 
colleges of education and national organizations to improve teacher 
preparation programs and develop new models; we strive to enhance the 
reputation of teaching as an option for math and science professionals; 
and we continue to drive a national discussion with Members of Congress 
and other influencers to develop solutions that will address the 
urgency of improving math education. We would welcome and strongly 
encourage other corporations to join us so that 100 become 100,000. In 
the final analysis, we would like this program to be implemented across 
the country.
    Addressing the challenge of investing in math and science 
education, preparing teachers and exciting students are 
responsibilities not only of parents and businesses, but also of 
government. With Congress' overwhelming passage of the America COMPETES 
Act last year and its enactment into law, Congress demonstrated a 
partial commitment to the principles of advancing math and science 
education, as well as basic research in the physical sciences. The 
unfortunate reality is that the authorized programs in the COMPETES Act 
were not funded. This is a critical issue that must be addressed as 
soon as possible. We strongly encourage Congress to fulfill the promise 
of the COMPETES Act by appropriating the funding necessary to support 
both education and research. We need tangible results. Funding these 
programs will enable us to train math and science teachers; provide 
scholarships to keep students in these fields; enable graduates to seed 
our economy and push the frontiers of knowledge through university 
research; and promote diversity in STEM fields.
    In conclusion, we believe that a national dialogue among math and 
science education stakeholders is needed. Public and private sector 
representatives, parents and teachers must be involved in developing 
stronger academic preparation for K-12 students to get them ready for 
STEM courses in college, focusing on improving teacher quality, 
curriculum quality and offering tutoring and mentoring services to 
students. Unless we capture more minds, more hearts, more souls and 
more passion for math and other STEM disciplines, the innovation 
leadership and global competitiveness of the United States will be 
extremely challenged, if not threatened, in the foreseeable future.
                                 ______
                                 
    Chairman Miller. Again, thank you so much.
    With that, the committee will stand adjourned.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Miller, for holding this important hearing on 
the National Mathematics Advisory Panel Report. This report adds 
critical new information about the state of math education in the 
United States. As I am sure we will hear today, we have a lot of work 
to do.
    The average score of American students on the 2006 Program for 
International Student Assessment (PISA) was below that of 31 other 
countries. This is simply not acceptable. The 21st century economy is 
requiring increasing levels of technological and engineering 
understanding. The foundation for this understanding is math. In order 
for our nation to remain the preeminent economy in the world, it is 
critical that we provide every student with, at a minimum, a basic 
level of math literacy. Doing so will ensure that all students can 
fully participate in the 21st century economy and also allow many of 
these students to pursue careers that require deeper levels of 
mathematical understanding.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [The statement of Mrs. McMorris Rodgers follows:]

Prepared Statement of Hon. Cathy McMorris Rodgers, a Representative in 
                 Congress From the State of Washington

    Thank you Chairman Miller and Ranking Member McKeon. I thank the 
members of the National Mathematics Advisory Panel for being here today 
to report their findings and recommendations on math proficiency.
    I would like to take this opportunity to stress the importance of 
quality math and science education in our schools to increase our 
nation's competitiveness in order to create a skilled, 21st century 
workforce. To meet the demands of an increasingly advanced, global 
market we must better train and equip our nation's workforce. A major 
area of concern in our nation's effort to remain competitive is the 
rate of improvement in mathematics achievement and the impact that our 
current lack of mathematics preparation has on the state and national 
economy.
    This process must start at the education level, making sure 
students have adequate skills when entering the workforce. In order to 
facilitate economic growth, we need to work collaboratively with the 
education and business communities to ensure that students are 
receiving the necessary education, skills and training to be 
successful. I have been encouraged by the steps President Bush and 
Congress have made to strengthen math and science skills through the No 
Child Left Behind Act, the America COMPETES Act and most recently 
through the College Opportunity and Affordability Act. It is my 
priority to strengthen our nation's math and science in order to remain 
competitive through scholarships for these fields and the placement of 
content specialists to bring real world experience into classrooms.
    However, we still have a long way to go when 1 in 3 of students do 
not from graduate high school. To make things worse, only half of these 
high school graduates are proficient in math and English. We must do 
better. Today, over half of China's undergraduate degrees are in math, 
science, technology and engineering. Yet, only 16 percent of American 
undergraduates pursue these fields.
    If our country is to stay competitive, we need home grown 
engineers, scientists and mathematicians. In addition, women are 
playing an increasingly important role in key sectors of the economy 
and must have access to the opportunity to excel in mathematics.
    As a Member of the Committee on Education and Labor, I am committed 
to ensuring that every child in America is afforded the highest quality 
education possible and that every worker in our country is free to 
pursue the American dream.
    I look forward to hearing your findings today. Thank you.
                                 ______
                                 
    [Whereupon, at 12:44 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
